Office of Inspector General
Semiannual Report to Congress
April 1 — September 30, 2012




                     Table of Contents
Mission Statement




                                      T  he mission of the U.S. Postal Service Office of Inspector General is
                                         to conduct and supervise objective and independent audits, reviews,
                                      and investigations relating to Postal Service programs and operations to:
                                       Preventand detect fraud, theft, and misconduct;
                                       Promote economy, efficiency, and effectiveness;
                                       Promote program integrity; and

                                      Keep the Governors, Congress, and Postal Service management
                                      informed of problems, deficiencies, and corresponding corrective actions.




About the Cover
The OIG relies on data modeling tools to detect fraud, waste, and abuse. The OIG’s Countermeasures and Performance Evaluations (CAPE) team, in partnership with the Office of Investigations
and the Office of Audit, leverages innovative technologies and subject matter expertise to develop analytic tools, including data mining, risk assessments, and predictive analytics, to generate
investigation and audit leads that have high potential for identifying fraud and money savings.
Using these services, the OIG has modernized its capability to synthesize data and information on postal operations, and to turn the data into insight on identifying root causes of and solutions
to weaknesses in postal operations. We are transforming data and information into shared knowledge to focus our efforts on work of value and high-risk areas of the Postal Service. The OIG
has deployed risk assessment models supporting investigators and auditors working in the areas of healthcare fraud, mail theft, financial fraud, contract fraud, and lease renewals.




                                                                           Table of Contents
A message from the Inspector General



This report, submitted pursuant to the Inspector General Act, outlines our work and activities for the 6-month period ending
September 30, 2012. In the first section of this issue, we highlight audits and reviews that address risks in the strategic,
financial, and operational areas of the U.S. Postal Service. The second section highlights investigations conducted during this
reporting period that contributed to safeguarding the Postal Service’s revenue and assets and helped deter postal crimes.

Postal Service executives often work closely with their Office of Inspector General (OIG) counterparts to identify problems and
collaborate on solutions. These efforts have resulted in significant savings opportunities. During this period, we issued 144
audit reports, management advisories, and Performance and Results Information Systems (PARIS) risk models, and the Postal
Service accepted 91 percent (106 of 116) of the OIG’s significant recommendations.

In addition, we conducted 2,045 investigations that led to 286 arrests, and $22 million in fines, restitutions, and recoveries
that went to the Postal Service. We also participated with other agencies in a significant investigation that resulted in the
largest healthcare fraud settlement in U.S. history.

This was an historic year for the Postal Service. It was forced to default on two of its prefunding payments into the Retiree
Health Benefits Fund due to its liquidity crisis. Without legislative change or other significant action, the Postal Service
expects to lose more than $18 billion by 2015. While the situation is desperate, we do not think it is catastrophic. In fact,
our work has indicated that the Postal Service has many opportunities to reduce its costs and position itself for new revenue
opportunities. The savings from these efforts, some of which would require legislative action, would exceed the Postal
Service’s projected shortfalls.

We issued a number of reports that considered ways the Postal Service could reduce its strategic and financial risk, improve
efficiencies, and lower operational costs. For example, our report on overall plant efficiency identified opportunities for the
Postal Service to reduce workhours and attain further efficiencies in mail processing operations for an associated economic
impact of almost $665 million. We also issued a report on city delivery staffing and a separate report on the efficiency of
customer service operations, both of which identified savings opportunities of more than $100 million.

On the revenue side, we issued a report that included recommendations for growing the package business. In a strategic
white paper, we considered opportunities for the Postal Service to carve out a niche in providing digital identity services.

The OIG — with the support of the Governors, Congress, and Postal Service management — will continue to play a key role
in maintaining the integrity and accountability of America’s postal service, its revenue and assets, and its employees through
its audit and investigative body of work.




David C. Williams
Inspector General




                                                                                                                                  3

                                                         Table of Contents
Summary of Performance
April 1— September 30, 2012


    AUDITS
    Reports issued                                                                                                                              144
    Significant recommendations issued                                                                                                          116
    Total reports with financial impact                                                                                                          39
         Funds put to better use                                                                                                      $8,244,406,067
         Questioned costs                                                                                                             $1,202,383,722
         Revenue Impact                                                                                                                $696,415,496
    TOTAL                                                                                                                          $10,143,205,285


    INVESTIGATIONS 1
    Investigations Completed                                                                                                                  2,045
    Arrests                                                                                                                                     286
    Indictments/Informations                                                                                                                    293
    Convictions/pretrial diversions 2                                                                                                           331
    Administrative actions                                                                                                                      879
    Cost Avoidance                                                                                                                      $103,418,346
    Fines, Restitution, and Recoveries3                                                                                               $1,965,795,625
          Amount to the Postal Service            4
                                                                                                                                        $22,094,997


    OIG HOTLINE CONTACTS
    Telephone calls                                                                                                                           31,576
    E-Mail                                                                                                                                   15,584
    Standard Mail                                                                                                                              1,046
    Voice Mail Messages                                                                                                                         394
    Facsimile - FAX                                                                                                                             307
    National Law Enforcement Communications Center                                                                                              350
    TOTAL CONTACTS                                                                                                                          49,257

    1
        Statistics include joint investigations with other law enforcement agencies.
    2
        Convictions reported in this period may be related to arrests in prior reporting periods.
    3
        Amount under Fines, Restitutions, and Recoveries includes $1.9 billion from one pharmaceutical investigation.
    4
        Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.




                                                                                                    Table of Contents
TABLE OF CONTENTS


OFFICE OF AUDIT...................................................................................................................................... 6
Audit Work by Risk Category.......................................................................................................................................... 7
Strategic Risk............................................................................................................................................................... 7
Financial Risk............................................................................................................................................................... 9
Operational Risk ......................................................................................................................................................... 15

OFFICE OF INVESTIGATIONS................................................................................................................ 22
Financial Crimes......................................................................................................................................................... 23
Healthcare Fraud........................................................................................................................................................ 24
Mail Theft................................................................................................................................................................... 26
Contract Fraud............................................................................................................................................................ 28
General Crimes........................................................................................................................................................... 29
Executive Investigations and Internal Affairs.................................................................................................................. 29

SPECIAL FEATURES............................................................................................................................... 11
In-Office Cost System Inputs into the Cost and Revenue Analysis Report........................................................................ 11
Work Assignments for Limited Duty/Rehabilitation Employees........................................................................................ 12
Employee Retirement Options; Review of Fiscal Years 2012 and 2013 Liquidity; Alternative Health Care Plan................... 14
City Delivery — Street Efficiency.................................................................................................................................. 21
Joint Investigation Nets Historic Healthcare Fraud Settlement........................................................................................ 25


APPENDICES............................................................................................................................................ 31
APPENDIX A — Reports Issued to Postal Service Management...................................................................................... 32
	            Reports with Quantifiable Potential Monetary Benefits........................................................................... 33
             Report Listing..................................................................................................................................... 35
APPENDIX B — Findings of Questioned Costs.............................................................................................................. 38
APPENDIX C — Recommendations That Funds Be Put to Better Use.............................................................................. 39
APPENDIX D — Other Impacts.................................................................................................................................... 40
APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions.................................................. 42
APPENDIX F — Significant Management Decisions in Audit Resolution.......................................................................... 60
APPENDIX G — Status of Peer Review Recommendations............................................................................................ 61
APPENDIX H — Investigative Statistics......................................................................................................................... 62
APPENDIX I — Summary of U.S. Postal Inspection Service Investigative Activities Under Title 39 USC § 3005 & 3007..... 63
APPENDIX J — Closed Congressional and Board of Governors’ Inquiries........................................................................ 64

SUPPLEMENTAL INFORMATION.......................................................................................................... 69
Freedom of Information Act.......................................................................................................................................... 69
Workplace Environment............................................................................................................................................... 69
Acronym Guide........................................................................................................................................................... 70




                                                                                         Table of Contents
Office of

Audit




            Table of Contents
                                                                                                                                                   STRATEGIC RISK




SIGNIFICANT AUDIT WORK BY RISK CATEGORY
Audit Synopses                                                                                                     Management Response to Audit Work
For the reporting period April 1—September 30, 2012                                                                OA adheres to professional audit standards and
                                                                                                                   generally presents its audit work to management
The Office of Audit (OA) uses a risk-based planning approach to identify audit work                                for comments prior to issuing a final report.
                                                                                                                   Unless otherwise noted in the selected audit work
that will provide the best value to the Postal Service. This process identifies key                                discussed in this report, management has agreed
areas to focus on, and then assigns work via risk deployment. For this reporting                                   with our recommendations and is taking or has
                                                                                                                   already taken corrective action to address the
period, we highlight audits and reviews that address risks in the strategic, financial,                            issues raised.
and operational areas.

STRATEGIC RISK
The Strategic Risk category covers issues that impact the Postal Service’s overarching strategic direction.
Strategic risk factors are those affecting the Postal Service’s ability to ensure that its products and services
are self-sustaining and balance legal considerations and stakeholder views. The following audit work
addresses strategic risk.

Cost of Appeals for Closing Postal Service-Operated Retail Facilities
Since fiscal year (FY) 2009, the Postal Service has increased efforts to optimize the retail network. As a
result, the number of final determinations to discontinue retail operations has increased from 118 to 362
(307 percent) from FY 2010 to FY 2011. On May 9, 2012, the Postal Service announced a new strategy
for preserving post offices in rural America and achieving cost savings. The OIG and the Postal Regula-
tory Commission (PRC) OIG conducted this joint audit to assess the costs to the Postal Service and the
PRC to process, administer, and manage closure appeals for Postal Service-operated retail facilities.

The Postal Service Law Department is responsible for tracking, monitoring, and processing all retail
facility closure appeal cases opened by the PRC. The PRC’s Office of General Counsel processes and
advises PRC commissioners on appeal cases. In addition, the PRC appoints a public representative to
represent the interests of the public in each case. The Postal Service OIG estimated the average costs
and staff hours the law department needs to process each appeal are about $1,365 and 15 hours,
respectively. The PRC’s costs to process an appeal range from $1,806 to $2,496 and its staff hours
range from 19 to 29 hours. The OIG review found the law department did not consistently track attorney
and staff hours spent on individual appeals. The law department recognizes the need for additional
resources to handle the estimated workload and, accordingly, issued a statement of work to obtain
support through contracting. Finally, from July through November 2011, the Postal Service withdrew
four final determinations after appeals were filed with the PRC, although it did not disclose the fac-
tors that led to the withdrawals. We estimated the Postal Service could have realized cost savings if it
considered those facts before the final determinations. The report contained no recommendations.

Customer Complaint Resolution Process
Postal Service customers can initiate complaints through a variety of mechanisms, including the Postal
Service’s Internet site (USPS.com) or toll-free number (1-800-ASK-USPS), at retail units, and through
congressional representatives and letters. The Postal Service received about 3 million customer complaints
in FY 2011 from residential and small business customers throughout the country. Our report found that


April 1 — September 30, 2012                                                                                                                                           7

                                                                   Table of Contents
STRATEGIC RISK
                                                the Postal Service is not efficiently and effectively resolving customer complaints. Specifically, staff members are closing
                                                complaints before customers consider their cases resolved. We estimated the Postal Service could have avoided costs of
                                                $8.8 million for the 12-month period ending March 31, 2012, had it handled complaints more efficiently. The Postal
                                                Service also did not adequately monitor complaint resolution partially because system performance and data issues,
                                                including outages and slow performance, have hindered the ability to do so. We recommended the Postal Service develop
                                                a mechanism to incorporate customer feedback regarding complaint resolution into the system; require current policies
                                                and procedures to be followed until planned updates are finalized; identify system deficiencies and desired enhancements
                                                and work to correct them; develop a strategy for reducing repeat complaints; and develop a mechanism for tracking sys-
                                                tem usage and response wait times and ensuring that ongoing actions related to archiving data and monitoring
                                                outages continue.

                                                Delivery Fleet Strategies
                                                The Postal Service owns and manages the world’s largest civilian vehicle fleet with about 200,000 vehicles, which are
                                                used primarily to support mail delivery. About 85 percent of its fleet is right-hand drive vehicles, including about 142,000
                                                long-life vehicles (LLVs). The expected service life of an LLV is 24 years, and the Postal Service’s LLVs are now between
                                                18 and 25 years old. Our objective was to assess delivery fleet strategies — using industry comparative analysis — that
                                                the Postal Service could apply.

                                                Our report determined the Postal Service does not have a comprehensive fleet management strategy but has some ele-
                                                ments of a strategy in place. In June 2011, management developed a plan to purchase new vehicles; however, the Postal
                                                Service’s continuing financial situation prevents it from implementing the plan. After examining delivery fleet practices
                                                at organizations with a wide spectrum of fleet management expertise, we identified 32 best practices that fall into three
                                                categories: strategy, asset optimization, and asset acquisition categories. We recommended that management develop
                                                and implement a comprehensive fleet management strategy, which a dedicated team of specialists at headquarters
                                                would manage using identified best practices. We also recommended that management establish an annual new vehicle
                                                replacement strategy, as part of a comprehensive strategy, to replace part of the fleet each year, spread out the expendi-
                                                tures over time, and ensure the overall operational functionality of the fleet.

                                                Management disagreed with our finding that the Postal Service does not have a comprehensive fleet management strat-
                                                egy in place and our recommendation that it implement a comprehensive strategy managed by a headquarters team. The
                                                Postal Service stated that it has recently undergone an organization-wide restructuring and that its fleet strategy is not
                                                contained in one department but is a cooperative venture among various departments.

                                                Every Door Direct Mail-Retail
                                                              Federal law allows the Postal Service to test experimental products under certain conditions. The law
                                                              limits the experimental time to 24 months and revenue to $10 million in any given 12-month period, but
                                                              authorizes the PRC to grant an exemption of up to $50 million. On January 12, 2011, the Postal Service
                                                              filed a notice announcing its intent to initiate a market test of an experimental market-dominant product,
                                                              Every Door Direct Mail-Retail (EDDM-R). The PRC approved the market test and the Postal Service
                                                              launched EDDM-R in March 2011. Because sales of the EDDM-R product grew more quickly than antici-
                                                              pated, the Postal Service requested the PRC grant an exemption to the $10 million revenue cap, which
                                                              the PRC granted.

                                                                   Our objective was to evaluate the status of the planned transition of EDDM-R from an experimental
                                                                   product to a permanent market-dominant product. Our report determined EDDM-R is rapidly approach-
                                                                   ing the experimental-product annual revenue cap. Consequently, the Postal Service must act quickly to
                                                                   transition the product from experimental to permanent status to avoid disrupting marketing momentum.
                                                                   In transitioning the product, the Postal Service could improve its methodology for measuring product
                                                                   success, strengthen controls over acceptance and verification, and better monitor product costs. We rec-
                                                                   ommended management provide a timely request to the PRC to add EDDM-R as a permanent product;
The Postal Service’s market test of its Every Door Direct Mail     develop better sources and methodologies to measure how well the product is meeting goals; evaluate,
– Retail product proved highly successful, with sales growing
                                                                   monitor, and test controls; continue efforts to strengthen controls and streamline acceptance procedures;
faster than expected. Our report reviewed the planned transition
from market test to permanent product offering.                    and monitor and evaluate product costs. The Postal Service adopted such recommendations and filed
                                                                   for a permanent classification with the PRC, which it granted on September 7. The product will be imple-
                                                                   mented with the annual price changes in January 2013.

                                                Package Delivery Growth
                                                The Postal Service offers a variety of package products, such as First-Class Parcels, Non-Flat Machinables, Standard
                                                Parcels, Single-Piece Parcel Post, Express Mail, Priority Mail, Parcel Select, Parcel Return Service, and International Mail
                                                and Services. In FY 2011, the Postal Service’s total package volumes of 2.9 billion resulted in $11.5 billion in revenue and


8                                                                                                                                         Semiannual Report to Congress

                                                                        Table of Contents
                                                                                                                                                              FINANCIAL RISK
a $2 billion profit. Some of these products are considered market-dominant for rate-making purposes, while others are
considered competitive. Although the volumes of each catagory are roughly 50 percent of the Postal Service’s total pack-
age volume, market-dominant products account for only 23 percent of total package revenue, while competitive products
account for 77 percent. Our objectives were to assess the effectiveness of the Postal Service’s strategies for increasing
its package delivery business, identify opportunities for growth, and estimate the resulting potential additional net revenue
if the Postal Service increased its market share. Our report determined that the Postal Service’s strategies for growing
its package business have helped it keep pace with competitors in growing domestic and international package markets.
The strategies are sound, but their effectiveness has been impacted by the lack of a strategic decision-making process
for evaluating new sales opportunities, sales tracking system shortcomings, and chronic sales staff vacancies. The Postal
Service could grow its package business by stabilizing sales staffing levels and adding new products. We recommended
the Postal Service establish a strategic decision-making process for evaluating new sales opportunities, enhance the
CustomerFirst! System, reassess sales staffing levels, continue to pursue legislative change that will allow it to ship beer
and wine, and evaluate offering prepayment of customs duties and taxes and a local delivery product.

Digital Identity: Opportunities for the Postal Service
This white paper discusses gaps in the digital marketplace and the need for strengthened digital identity, authentication
procedures, and increased privacy protection for users. The Postal Service is well-positioned to fill these gaps by virtue
of its history, reputation for trustworthiness, and nationwide infrastructure. For example, acting as a trusted third party,
the Postal Service could verify individual or business mailing addresses. Further, enhanced digital identity authentication
would allow new eGovernment and eCommerce opportunities. The Postal Service could facilitate and build on joint public-
private sector initiatives, which are currently hindered by the inability to tie a user’s digital identity to a physical identity,
such as a verifiable address. Use of such identity services would be entirely voluntary, with clear, comprehensible, and
concise privacy guidelines. In addition, the Postal Service could offer its own digital identity service as a provider utilizing
standards currently under development. With its network of post offices and carriers, the Postal Service could provide
in-person verification services, building on its current passport services.

Strategic Advantages of Moving Mail by Rail
The Postal Service has used trains to transport mail since the early 1800s, but in recent years it shifted nearly all of             The Postal Service is well-positioned to fill
its long-distance surface transportation to contracted highway trucks. In 2011, the Postal Service spent more than                   the gaps in the digital marketplace by virtue
$3.3 billion on highway contracts and $40 million on freight rail contracts. However, over the last decade the Postal                of its history, reputation for trustworthiness,
Service’s competitors in the private sector have shifted much of their long-distance transportation to rail. The freight rail        and nationwide infrastructure. On OIG white
                                                                                                                                     paper noted a particular opportunity in digital
industry achieved significant improvements in service, cost, and fuel efficiency since it was deregulated more than                  identity authentication services.
30 years ago. Its intermodal rail service can often meet the same service standards as highway transportation, but at
lower rates and with four times the fuel efficiency. By increasing its use of intermodal rail, the Postal Service could save
on transportation costs, reduce greenhouse gas emissions, reduce its exposure to fuel price volatility, and make its pro-
cessing and transportation network more robust and sustainable over the long-term. Shifting a portion of mail volume to
intermodal rail could yield annual cost savings of about $100 million without any changes to the Postal Service’s network.
Further, broad-scale recommitment to intermodal rail could yield greater savings.

A Framework for Delivery Network Optimization
This paper demonstrates how operational research methodology can be used to rationalize the facility space for delivery
operations. This analytical model examines consolidation opportunities within the existing carrier facility footprint, while
balancing the need for space that is near delivery routes against costs. The analysis shows that a much smaller network
of delivery units is sufficient to meet existing delivery needs and could reduce Postal Service annual costs. Modeling tools
like this can aid the Postal Service’s assessment of its delivery network needs.


FINANCIAL RISK
The Financial Risk category includes issues that have a clear financial impact, particularly those related to cost control
and revenue generation. The greatest opportunities to reduce financial risks are in the areas of maximizing the cost-
effectiveness of contracts, and improving internal controls in financial systems, processes, and benefit programs.

The Postal Service faces a critical financial risk as it deals with the economic slowdown affecting the nation. While                A letter carrier cases mail to prepare it for
the Postal Service made progress in reducing costs, the possibility of further declines in volume means that it is still             delivery on her route.
confronted by a major challenge to find ways to cut costs and increase revenues.

Carrier Contributions to Revenue Generation and Customer Service
Currently, letter carriers primarily deliver mail to three types of delivery points: door-to-door, curbside, and centralized.
City carriers deliver mail in populated areas, while rural carriers deliver mail in areas more traditionally considered rural



April 1 — September 30, 2012                                                                                                                                                         9

                                                                    Table of Contents
FINANCIAL RISK
                                                or remote. Carriers contribute to Postal Service revenue through the Customer Connect® and Rural Reach® programs by
                                                identifying sales leads for the Postal Service’s sales staff. Carriers’ level of participation in these programs varies among
                                                districts, but if districts with low participation adopt the best practices of districts with high participation, there might be
                                                an opportunity to increase the number and quality of sales leads and, thus, revenue. Our objective was to evaluate car-
                                                rier contributions to revenue generation and customer service. We estimate that if the Postal Service could grow these
                                                programs by 5 percent, it could increase revenue by $18.7 million annually. Management could also enhance the process
                                                for collecting data on the services that carriers provide to allow better evaluation of delivery changes and measure rural
                                                customers’ needs. We recommended management implement best practices for sales lead programs and enhance data
                                                collection and reporting efforts to identify whether a lead results in new revenue for the Postal Service or diverts revenue
                                                from another product.

                                                Domestic Air Mail Irregularities
                                                Irregularities occur when air carrier personnel fail to protect or safeguard the mail from, among other things, inclement
                                                weather, loss, destruction, or other hazards while in the air carrier’s control or custody. The Postal Service’s commercial
                                                air contract addresses domestic air mail irregularities and states that it will assess monetary penalties for damaged or
                                                unprotected mail. Postal Service personnel at commercial air stops record irregularities when they occur and transporta-
                                                tion personnel adjudicate the irregularities or approve them for further processing. If approved, a penalty is assessed
                                                and the amount paid to the air carrier for transporting mail is reduced. The Postal Service paid about $194 million for
                                                transporting mail from October 1, 2010, through May 31, 2012, but only processed about $44,000 in claims over nearly
                                                the same time period.

                                                We determined that domestic air mail irregularities processing was not effective. Specifically, management did not moni-
                                                tor whether the field knew how to record problems or whether claim deductions were calculated accurately. Also, Postal
                                                Service personnel did not always record irregularities for adjudication and assess applicable penalties when they occurred.
Carriers contribute to Postal Service revenue   Further, management did not accurately calculate domestic air mail irregularity penalty amounts.
through the Customer Connect® and
Rural Reach® programs by identifying            In addition to network and personnel changes, these issues occurred because management did not consider this program
sales leads for the Postal Service’s sales      a high priority and did not obtain data necessary to monitor the process. Also, comprehensive written procedures for pro-
staff. If the Postal Service could grow these
programs by 5 percent, it could increase        cessing domestic air mail irregularities did not exist and penalty amounts were automatically calculated based on outdated
annual revenue by nearly $19 million, an        contract data. As a result, Postal Service personnel did not always assess or correctly assess penalties to air carriers, and
OIG report indicated.                           the air carriers were not always held accountable for safeguarding the mail. We were not able to determine the reason-
                                                ableness of the $44,000 of irregularity claims processed.

                                                We recommended management implement a process to readily obtain data to monitor whether recording problems exist
                                                or claim deductions were calculated accurately. We also recommended implementing procedures for processing irregulari-
                                                ties, and providing all airports the means to report irregularities and verify functionality on a regular basis.

                                                Evaluation of the External First-Class Measurement System
                                                The Postal Service measures the on-time performance of First-Class Mail delivery to determine whether it meets mail
                                                delivery standards and to provide the PRC and the general public with information on its service performance. The post-
                                                master general requested a review to determine whether a less costly way exists to implement this process, known as the
                                                External First-Class (EXFC) measurement system.

                                                The Postal Service, which uses EXFC data to plan, execute, and evaluate its internal processes, increased the sample size
                                                beyond what is necessary to meet the program’s statutory requirements to measure service performance. Internally, the
                                                Postal Service uses the data to support the National Performance Assessment and diagnose delivery problems at plants,
                                                delivery units and, in some instances, carrier routes. However, other internal reports already produced can provide alterna-
                                                tive data to meet needs to reduce the costly sampling associated with EXFC.

                                                The law generally requires the measurement system to be external to ensure objectivity and integrity. Accordingly, the
                                                Postal Service measures on-time performance using contractor studies. We identified ways to reduce EXFC costs, such
                                                as reducing its sampling costs by using EXFC for its primary purpose of service performance measurement or, with PRC
                                                approval, replacing contractors with an internal group, or competing future contracts. When negotiating the last EXFC
                                                contract, management intended to transition from the current, manual process to an automated process. However, the
                                                Postal Service has not yet developed a plan to automate this process. Without automation, the Postal Service will have to
                                                continue to pay the costs associated with manual reporting of test pieces.

                                                When developed, the automation plan should explore technological solutions such as using barcodes and hand held scan-
                                                ners to provide an effective end-to-end alternative to the current process. These technological solutions should also help
                                                to reduce costs and provide more reliable service performance measurement results. We also identified issues that affect


10                                                                                                                                           Semiannual Report to Congress

                                                                       Table of Contents
                                                                                                                                                       FINANCIAL RISK
program reliability. Specifically, EXFC is vulnerable to “gaming” as management and staff often give potential test pieces
preferential treatment to raise scores. We recommended using EXFC only to meet statutory requirements, developing a
comprehensive plan to replace the current EXFC activities with an automated solution, and developing controls to eliminate
unauthorized special treatment of test pieces.

Management disagreed with our recommendation to use the EXFC contract to meet statutory requirements only and
reduce the sample size accordingly. Management stated they did not have an internal system to provide end-to-end
performance measurement and used EXFC to gain information on retail letters, cards, and flats to drive service improve-
ments. Alternative systems have limitations, management said. Management also disagreed with our recommendation to
develop controls to eliminate the unauthorized special treatment of the potential test pieces, saying they have administra-
tive controls in place to guard against this.

Service Performance Measurement Data — Commercial Mail
The Postal Act of 2006 requires the Postal Service to measure service performance for market-dominant products and
report the results to the PRC. The law also requires the Postal Service to establish modern service standards for its
market-dominant mail products. According to law, these standards should be designed “to provide a system of objective
external performance measurements for each market-dominant product as a basis for measurement of Postal Service
performance.” However, with PRC approval, an internal measurement system may be implemented instead of an external
system. Our objective was to determine whether the data used for service performance measurement (SPM) of commer-
cial mail is reliable. In addition, we reviewed Postal Service actions to address the issues identified in our interim report to
determine whether they were successful in increasing the effectiveness of the SPM process.

Our report determined the data used for service performance measurement of commercial mail is generally reliable. The
Postal Service increased the volume of full-service Intelligent Mail barcode mail, resulting in a higher representation of
commercial mail included in the measurement of service performance; however, coverage levels remain low for four of the
13 categories used to assess whether the data used is representative of the overall population of full-service commercial
mail. In addition, the SPM system is complex and the Postal Service uses proxy data from the External First-Class Mea-
surement System for the last-mile calculation across all mail classes, which may distort actual results. We recommended
the Postal Service simplify the scoring process used for measuring service performance of commercial mail and use
actual commercial mail data in the last-mile calculation.

Revenue Sharing Agreements
A strategic alliance is a cooperative arrangement between the Postal Service and one or more private entities. Some
strategic alliances include revenue sharing, which allows the Postal Service and its partner to share the generated revenue
from a strategic alliance. The Postal Service enters into revenue sharing agreements with various partners that are more
efficient at providing certain services and products.



  In-Office Cost System Inputs into the Cost and Revenue Analysis Report
  The Postal Service annually prepares the Cost            to manually collect statistical data for analysis         labor rates from the payroll system to compute
  Revenue and Analysis (CRA) report, a key com-            and prepare the CRA report. This includes about           the per unit labor cost of processing mailpieces
  ponent of the Postal Service’s Annual Compliance         $13 million for In-Office Cost System (IOCS)              on automated machines, reducing the need for
  report provided to the PRC to determine whether          data collection, $1.3 million of which is spent on        manual data collection in the mail processing area.
  the Postal Service complied with the statutory           61,574 data collection readings in automated
  requirement that each class or type of mail service      operations at mail processing facilities.                 Using census data to determine mail processing
  bear the direct and indirect costs attributable                                                                    labor costs per piece would enable the Postal
  to that class or service. The Postal Service’s           The mail processing portion of labor costs could          Service to reduce 61,574 data collection read-
  accounting systems do not accumulate financial           be attributed to products and services using avail-       ings a year, resulting in net savings of $4.29
  data by mail category so the Postal Service uses         able automated data and, with additional system           million over a 10-year period. Implementing
  PRC-approved methods, including apportionment            enhancements, the Postal Service could use data           the system enhancements to use automated
  factors derived from operational and statistical         from mail processing systems to determine the             data for costing purposes will also result in
  systems to prepare the reports. Data collectors          mail processing portion of labor costs for product        additional operational advantages. For example,
  conduct more than 800,000 data collection read-          categories. Product category information could            the near real-time availability of per unit mail
  ings a year to provide data for these systems.           be obtained from data extracted from mailpiece            processing costs for mail products will help
  Special studies and operational information provide      images and mail volume and workhour informa-              the Postal Service to better control processing
  additional data required for cost development. The       tion from Management Operating Data System.               costs and manage operations more efficiently.
  Postal Service spends about $69 million a year           The Postal Service could combine this data with




April 1 — September 30, 2012                                                                                                                                            11

                                                                   Table of Contents
FINANCIAL RISK
                                          We reviewed agreements to determine whether Postal Service management and alliance partners are complying with
                                          agreement controls, revenue share amounts are valid and accurate, and the relationship between the Postal Service and
                                          alliance partners is functioning effectively. For three of four agreements reviewed, management and alliance partners
                                          complied with agreement requirements, revenue sharing amounts were valid and accurate, and the relationship was
                                          efficient and effective. For one agreement, management did not implement a process to validate postage and the revenue
                                          from the production of mailpieces or require the alliance partner to provide detailed data on the number of visitors and
                                          total visits the partner’s website receives from the Postal Service’s website. In addition, the Postal Service did not address
                                          the partner’s concerns in a timely manner, which caused a small revenue loss over the past year. Lastly, management
                                          did not maintain a central repository for revenue sharing agreements to ensure timely, efficient, and accurate retrieval of
                                          information, and policies and procedures on establishing and monitoring revenue sharing agreements were not clear.

                                          We recommended developing a process to verify the partner’s sales transaction data for completeness and accuracy;
                                          obtaining web traffic data to verify the partner’s revenue sharing; developing a process to address alliance partner con-
                                          cerns within mutually agreed timeframes; and communicating goals and developing a process to measure agreement
                                          performance. We also recommended establishing a central repository for all revenue share documentation; and develop-
                                          ing and disseminating detailed procedures for creating, designing, and monitoring agreements.

                                          Management disagreed with our recommendation to monitor web activity associated with the Click2Mail product to verify
                                          revenue sharing customer registrations and purchases of Postal Service products beyond what is currently in place. They
                                          maintain that revenue levels do not justify the infrastructure and the current process is sufficient. They also stated they
                                          have begun tracking the percentage of traffic originating on USPS.com versus all other sources of the partner’s site. Man-
                                          agement noted that once the partner has surpassed a certain revenue threshold, they could add a required independent
                                          audit to the terms of the agreement.

                                          Stamp Manufacturing and Inventory Management
                                          The Postal Service issues three kinds of stamps: (1) Definitives are issued in unlimited quantities in a variety of denomina-
                                          tions and remain on sale until rates change; (2) Commemoratives are issued in limited quantities to pay tribute to people
                                          and events, and (3) Special Issues, such as the Love and holiday stamps, supplement definitive stamp stock. The Postal
                                          Service reduced the number of stamps it prints annually from 29.7 billion in FY 2009 to 21 billion stamps in FY 2011.
                                          Our objective was to evaluate whether the Postal Service effectively forecasts stamp stock requirements and manages
                                          stamp inventory.

 Work Assignments for Limited Duty/Rehabilitation Employees
 The Federal Employees’ Compensation Act                 The Postal Service developed the Rehabilitation           Management stated that, while identification of
 (FECA) provides various benefits to civilian federal    Program to fulfill its legal obligation to provide work   rehabilitation employees able to perform shuttle
 employees who sustain injuries or an occupational       for employees injured on duty. The program facili-        service work is a local issue, opportunities exist
 disease as a result of their employment. The            tates the proper placement and accommodation of           for all Delivery Operations staff to reduce Office of
 Postal Service is the largest FECA participant          employees injured on duty. This year we reviewed          Workers’ Compensation costs and future liabilities.
 in the federal government. In 2011, the Postal          Postal Service policy on rehabilitation assignments       As such, management plans to issue a memoran-
 Service paid $1.2 billion in workers’ compensation      for employees injured on duty and procedures              dum to all district and area managers directing the
 claims as of March 31, 2012. Additionally there         for determining whether those employees could             local human resources group to consult with VMF
 are about 16,497 employees with disabilities that       perform certain contract work. We initially selected      management when evaluating proper placement of
 are expected to be permanent or prolonged who           six service areas, but after review with Supply           injured employees. Management also said this will
 are currently receiving workers’ compensation           Management officials, we determined that only             be a joint effort to assess the feasibility of using
 benefits.                                               three contracts provided potential for in-sourcing        rehabilitation employees to shuttle vehicles.
                                                         opportunities and rehabilitation assignments.
 The Postal Service provides rehabilitation assign-                                                                 Management disagreed with our recommendation
 ments for employees for whom the effects of             For example, we identified a contract that provides       to establish a training plan for employees on the
 an injury are considered permanent and/or the           auto services, including transporting vehicles in         periodic roll who receive and accept an offer to
 employee has reached maximum medical improve-           need of repair and maintenance, to 28 vehicle             perform vehicle shuttle service work. They said
 ment. These employees have the same rights to           maintenance facilities (VMFs) or repair garages.          the Postal Service already has extensive training
 pursue promotional and advancement opportuni-           We found that employees who have been injured             programs required for all employees who operate
 ties as other employees and they can work               on the job and are able to return to work could           postal vehicles. Furthermore, any employee offered
 outside of their craft and/or facility. The Postal      perform some of this work at 10 of the 28 VMFs            a modified duty assignment involving shuttle
 Service identifies these assignments in conjunction     because only 10 of the VMFs could guarantee a             service work would have to meet the qualification
 with local Health and Human Resource managers           4-hour shift as required and consistent with FECA         standards before the offer is extended.
 and the District Reasonable Accommodation               rules and regulations. There is also the potential
 Committee.                                              for other VMFs to provide similar rehabilitation
                                                         assignments.



12                                                                                                                                    Semiannual Report to Congress

                                                                 Table of Contents
                                                                                                                                  FINANCIAL RISK
The Postal Service’s adoption of the Definitive Forever stamp has generally alleviated concerns regarding over-production
and destruction of definitive First-Class Mail stamps. However, due to the unique nature of commemorative and special
issue stamps, production volumes require closer management scrutiny. Specifically, we found the Postal Service overpro-
duced 2 billion commemorative and special issue stamps during calendar years 2009 and 2010, resulting in $2 million
annually of unnecessary manufacturing costs for stamps that were later destroyed. This occurred because the Postal
Service did not develop and document an objective forecasting methodology and review process to determine stamp stock
demand. In addition, reduced visibility in retail units hinders accurate forecasting and inventory management.

We recommended the Postal Service improve controls over stamp manufacturing, including documentation of procedures
to determine stamp stock requirements, and an enhanced review and approval process. We also recommended the Postal
Service initially produce these stamps in limited runs and develop and implement a strategy to maximize sales through
unique promotional opportunities, given the historical lifecycle of similar commemorative and special issue stamps.

Travel Expense Reimbursements and Travel Card Usage
Postal Service employees and approving officials use eTravel, a web-based system, to electronically create, submit,
and review travel expense reports. They may not use their official travel card for personal business or exceed cash
advance limits. Also, when an employee is overpaid for travel expenses, the employee should repay the amount to the
Postal Service. The Postal Service incurred $95 million in total travel expenses in fiscal year 2011. We found that some
Postal Service employees improperly claimed expenses on their travel reimbursements and inappropriately used their
travel cards.

We found six cases involving two employees in which the employees canceled a higher-priced airfare, traveled on a
lower-priced one, but claimed the higher-priced fare on the travel reimbursement request. We also found instances where
employees claimed a canceled fare but did not reimburse the Postal Service. In addition, eTravel allows employees to have
their per diem reimbursements paid to the travel card rather than directly to their personal bank account, which can result
in a credit balance and encourage employees to use it for a personal purpose, which is prohibited. Our review of
10 employees who most frequently elected to have these reimbursements paid to the travel cards disclosed that six
made multiple personal purchases or excessive cash withdrawals.

Although each instance is unique, overall, approving managers do not have a mechanism to adequately monitor travel
card activity. Also, the Postal Service did not have clear instructions explaining how to handle canceled airfare. As a result,
the Postal Service is exposed to inappropriate or fraudulent activity that could hurt its reputation. We recommended
management provide additional mechanisms for approving managers to monitor employees’ travel card activity. We also
recommended management develop clear procedures for employees on how to account for canceled airfares and remove
the eTravel System provision that allows employees to apply personal reimbursements to their travel cards.

Use of Data within Finance and Planning’s Field Budget Process
A January 2011 agency-wide restructuring effort resulted in the Postal Service closing its Southeast Area Office 1 month
later. This required the budget and account balances of the Southeast Area administrative office to be closed and reas-
signed to other active area administrative offices. We determined the Postal Service’s Finance and Planning Department
did not effectively use available data to monitor the field budget, revenue, and expense variances occurring after the
closing of the Southeast Area office. The Postal Service closed the Southeast Area in February 2011; however, it did not
move the Southeast Area’s administrative office’s financial data to an active Postal Service area until July 2012. Finance
and Planning used financial report data to prepare weekly and monthly reports for all areas but did not call attention to the
inappropriately reported Southeast Area budget and revenue and expense transactions. Further, the Postal Service did not
have procedures in place that adequately detailed the required tasks or a timeline to manage the transition.

Because financial accounts were not appropriately moved to another Postal Service area, the budget was not eliminated
or reassigned and about $15 million in revenue and expenses continued to accumulate in Southeast Area accounts after
the area closed. Although we did not identify any specific instances, incorrect business decisions and performance evalu-
ations may result if they are based on inaccurate or incomplete data. For example, management may renew transportation
contracts unnecessarily or for additional costs because of insufficient data. With optimization likely to continue, and with-
out a revised budget that reflects anticipated savings from closures, the Postal Service may not realize those savings.

We recommended using financial data to inform senior management and other responsible parties of financial issues
requiring resolution and elevate those issues until they are resolved. Also, we recommended establishing clear and
understandable policies and procedures for closing an administrative office and designating one functional group to
oversee the process.




April 1 — September 30, 2012                                                                                                                  13

                                                                  Table of Contents
FINANCIAL RISK
                                          Post Office Discontinuance Accounting Procedures
                                          As part of the restructuring effort, the Postal Service discontinued 537 retail units from fiscal years 2009 through 2011.
                                          Although the Retail Access Optimization Initiative to close more retail units was discontinued in May 2012, closing postal
                                          units may occur in the future. The Postal Service could close units for reasons unrelated to finances, such as the loss of
                                          the facility. Between the time operations end at a discontinued unit and the financial records are closed and deactivated,
                                          accounting transactions can be charged to the discontinued unit. Therefore, the correct policies and controls need to be in
                                          place to ensure proper allocation and visibility of all financial transactions associated with future closures, which is key to
                                          the success of any new initiatives.

                                          We determined the Postal Service properly accounted for the disposition of assets and liabilities at discontinued units;
                                          however, it did not properly allocate and provide adequate visibility of revenue and expenses at discontinued postal retail
                                          units. Specifically, the Postal Service did not allocate revenue and expenses to the appropriate gaining unit after discon-
                                          tinuing operations at half of the postal retail units. In addition, the Postal Service did not provide adequate visibility of
                                          financial transactions at 221 (or 41 percent) of the 537 units. Rather, transactions from these units were commingled with
                                          transactions from other, related units. As a result, we identified about $17 million annually of improperly allocated revenue
                                          and expenses.

 Employee Retirement Options, Pension and Retiree Health Care Funding Levels; Review of Fiscal Years
 2012 and 2013 Liquidity; and U.S. Postal Service Alternative Health Care Plan Proposal
 In 2012, more than 189,000 Postal Service               Funding requirements for pensions and retiree            These annual prefunding payments, coupled
 employees will meet the age and service eligibility     health care benefits have caused a tremendous            with declining revenue, have challenged the
 requirements for retiring with an immediate annuity     burden on the Postal Service’s financial opera-          Postal Service’s ability to meet all its obligations.
 and the Postal Service estimates it will have to        tions. The organization has fully funded its pension     Management proposed to decrease costs by
 reduce staffing by 220,000 career positions over        obligations for both CSRS and FERS. For retiree          more than $63 billion by offering its own health
 the next 3 years. The 21st Century Postal Service       health care benefits, the Postal Service is required     care benefits plan instead of participating in
 Act of 2012 (S. 1789) proposes allowing the             to prefund the expense at an increasing rate             the Office of Personnel Management’s Federal
 Postal Service to offer up to 1 year of additional      through 2016. We explored the progress on fund-          Employees Health Benefits plan. These sav-
 credited service for individuals in the Civil Service   ing pension and retiree health care benefits as of       ings are due primarily to 1) required accounting
 Retirement System (CSRS) and up to 2 years for          September 30, 2011, and determined the Postal            changes, 2) use of Medicare coverage, 3) impact
 individuals in the Federal Employees Retirement         Service has funded its pension benefit obligation at     on employees, future retirees, and retirees, and
 System (FERS) as an incentive to encourage retire-      nearly 105 percent and is currently overfunded by        4) efficiencies in health care purchasing.
 ment. The bill also would let the Postal Service        $13.1 billion. Further, the Postal Service is required
 use the FERS overpayment for buyouts (up to the         to fully fund its future retiree health care benefit     However, we found that management used an
 existing cap for federal workers of $25,000 for         obligations and has funded nearly 50 percent of          incorrect funding interest rate assumption to
 any one individual) or additional service credits.      that obligation. The Postal Service defaulted on         establish its future retiree health care obliga-
                                                         the $11.1 billion in retiree healthcare payments         tion, understating the adjusted original liability
 A number of retirement options may be available         due in fiscal year FY 2012 and will likely default on    of $90.2 billion by $14.1 billion, thus it should
 to employees in the near future as part of new          the $5.6 billion payment due in FY 2013. Liquid-         actually have been $104.3 billion. This, how-
 legislation or other new authorities provided to the    ity risks and shortfalls are projected to return in      ever, does not impact the overall $63 billion in
 Postal Service, but there may be restrictions on        spring 2013 through October 2013, with the Postal        cost savings. The Postal Service has removed
 how the Postal Service can use these options and        Service projecting an estimated $1.2 billion cash        from its proposal the plan to freeze the monthly
 whether they can be combined or not. Some of the        shortfall in mid-October 2013. These liquidity           premium amount it contributes to those retiring
 options available to employees include voluntary        concerns exist even with the expected default on         after January 1, 2014. The estimated $63 billion
 early retirement, cash buyouts, re-employment for       Retiree Health Benefits prefunding payments.             savings associated with the proposal would be
 annuitants, and additional years of service credit.                                                              reduced by about 20 percent, or $11 billion.



                                          While the Postal Service has recently issued a management instruction and an updated handbook, neither documents
                                          a process to deactivate a finance number and allocate or provide adequate visibility over financial activity occurring
                                          subsequent to the unit closing. We recommended management develop specific criteria to deactivate finance numbers
                                          at discontinued postal retail units. Also, we recommended that management establish a method to allocate revenue and
                                          expenses at discontinued station and branch operations and provide adequate visibility of all transactions.

                                          Unclaimed Funds
                                          The OIG received a complaint from the Postal Inspection Service regarding an investigation of funds owed to various Con-
                                          necticut post offices listed as unclaimed property with the state. The Postal Inspection Service was concerned that the
                                          Postal Service’s Office of General Counsel was not pursuing all unclaimed funds reported to state treasuries and referred
                                          this matter to the OIG. Our report determined the Postal Service could more efficiently and effectively collect unclaimed


14                                                                                                                                    Semiannual Report to Congress

                                                                 Table of Contents
                                                                                                                                                            OPERATIONAL RISK
funds held by U.S. state treasuries. Although the Postal Service is identifying some unclaimed funds through limited online
searches, they are not using all available search methods to collect additional funds that are due. Opportunities exist to
improve identification and collection of unclaimed funds by registering as a member of an online searchable database,
incorporating additional search terms, and establishing points of contact with state treasuries. Based on our limited use
of additional search methods and developing points of contact with state Treasury personnel, we identified $865,838
of unclaimed funds that belong to the Postal Service. Further, we estimate that state treasuries are holding an additional
$614,220 of unclaimed postal funds. We recommended the Postal Service use additional search methods to identify
and collect unclaimed funds. This includes taking advantage of the benefits offered through membership with a publically
available online service, using a variety of Postal Service terms when conducting searches, and establishing working rela-
tionships with U.S. state treasury employees.


OPERATIONAL RISK
The Operational Risk category focuses on issues related to the day-to-day operations of the Postal Service. These risk
factors potentially affect the Postal Service’s abilities to provide timely, reliable delivery and customer service across all
access points. Operational risk factors involve the quality of postal services and the end-to-end service performance of
all mail, as well as the assurance that postal products and services meet customer expectations by being responsive,
consistent, and easy to use.

Assessment of Overall Plant Efficiency 2012
Mail processing is an integrated group of activities required to sort and distrib-
ute mail for dispatch and delivery. Post offices, stations, and branches send
outgoing mail to processing and distribution centers (P&DCs) and processing
and distribution facilities (P&DFs) for processing and dispatch for a designated
service area. They also provide instructions on preparing collection mail, dis-
patching schedules, and establishing sort plan requirements to associate offices
and mailers.

Our objectives in this report were to follow up on the Postal Service’s progress
in reducing workhours based on earlier recommendations and assess the
efficiency of the processing and distribution network for FY 2011. Our report
determined the Postal Service made substantial progress reducing workhours
in the network from the previous year. During FY 2011, productivity for all plants
improved by more than 5.9 percent over the prior fiscal year and overtime
decreased by almost 4.2 percent compared with FY 2010. The Postal Service             Large areas of the Pittsburgh Processing and Distribution Center were filled with empty letter
made these reductions with only slight declines in service from FYs 2010 to 2011; and flat trays, which caused congestion and impeded the efficient flow of mail.
however, we found the Postal Service has not yet fully adjusted workhours in
response to declining mail volume or achieved all possible efficiencies in mail processing operations. We recommended
management reduce more than 14 million workhours by FY 2014, with an associated economic impact of almost
$665 million, and periodically evaluate operating efficiency by assessing performance against the median productivity
level for each plant grouping.

Carrier Optimal Routing System Phase ll
Carrier Optimal Routing (COR) is a computer modeling carrier routing and travel optimization program used to configure
safe and efficient travel patterns for city delivery routes. The Postal Service implemented the system in October 2005,
helping to reduce workhours and vehicle costs, improve carrier safety, and establish more efficient lines-of-travel.

Our objective was to review system usage to adjust and consolidate routes and global positioning system (GPS) usage in
conjunction with COR. The Postal Service performed route adjustments using the COR system on 28,116 routes in the
47 districts reviewed; however, it did not make route adjustments on 63,505 routes using the COR system. This condition
occurred because the software was not user friendly, data preparation was labor-intensive and time-consuming, COR
system technicians were not cross-trained, and manuals were not updated. In addition, districts with GPS devices did not
always use them to track route time and performance jointly with the COR system to perform route adjustments.

As a result, the Postal Service will not realize more than $84 million annually in cost reductions in city delivery from con-
solidation of carrier routes. We recommended management continue to pursue funding availability to resolve performance
issues and implement the Web COR system. We also recommended that management re-emphasize performing route
adjustments using the COR system. Additionally, we recommended cross-training to include database preparation and




April 1 — September 30, 2012                                                                                                                                                      15

                                                                      Table of Contents
OPERATIONAL RISK
                                                                                                route adjustment processes. Lastly, we recommended management update city
                                                                                                delivery manuals to perform route adjustments using the COR system.

                                                                                                Management disagreed with our recommendation to continue pursuing funding
                                                                                                to resolve performance issues with the WebCOR system and implement the
                                                                                                web-based program nationwide. Management stated that WebCOR was devel-
                                                                                                oped and tested, but could not deliver the required performance or response
                                                                                                time due to the architectural constraints of the operating environment.

                                                                                                Management disagreed with the monetary impact associated with the recom-
                                                                                                mendation to re-emphasize performing route adjustments using the COR
                                                                                                system, specifically, that the $84 million in cost savings assumed that all routes
                                                                                                could be adjusted using COR, with no consideration of preparation and formal
                                                                                                route inspection costs. Further, management stated that FY 2012 and FY
                                                                                                2013 projected savings should be reduced as the number of COR adjustments
                                                                                                increase and that overtime rates inflated the potential savings.

                                                                                                Management also disagreed with the recommendation to update Handbooks
                                                                                                M-39, Management of Delivery Services, and M-41, City Delivery Carriers
Productivity in plants improved during FY 2011 with only slight declines in service. However,
the Postal Service could further adjust workhours in response to declining mail volume and
                                                                                                Duties and Responsibilities, to establish standards for using the COR system to
achieve greater efficiencies in mail processing operations.                                     perform route adjustments. Management stated that inserting references to the
                                                                                                COR system in the handbooks is not necessary.

                                                 City Delivery Staffing
                                                 Managing labor costs is critical because city delivery is the largest cost center in the Postal Service and the agency does
                                                 not have, or expect to have, sufficient revenue to cover costs without making fundamental changes. Moreover, with an
                                                 outlook that does not forecast a significant rebound for mail volume, the decrease directly affects carrier workloads.
                                                 Therefore, having proper staffing levels at city delivery installations enhances efficient use of carrier resources and
                                                 reduces costs. To develop staffing levels, officials use a budget-based process to determine the number of workhours
                                                 needed (for route coverage) for labor costs to match the fiscal year budget. In fiscal year 2011, the Postal Service
                                                 employed 183,774 city delivery carriers to deliver mail on 145,385 city routes, using more than 317.1 million workhours
                                                 at the installations reviewed. Our objective was to evaluate whether Postal Service city delivery carrier staffing was at
                                                 maximum levels at city delivery installations. The maximum level represents a staffing ceiling and does not imply that
                                                 management needs to hire employees but, instead, manage at an established level.

                                                 The Postal Service’s city delivery full-time (FT) carrier staffing varied at installations, consisting of excesses and short-
                                                 ages. This occurred because the Postal Service did not establish a maximum number of carriers needed per route in
                                                 the budget process or at each installation based on need. These conditions contributed to installations exceeding their
                                                 budgeted overtime by 10.4 million hours. Managing with maximum staffing levels and employing part-time resources
                                                 would give the Postal Service options for reducing city delivery labor costs by more than $116.8 million annually. We
                                                 recommended the Postal Service balance the number of FT carriers per route and manage labor costs within established
                                                 budgets. We also recommended coordination with Labor Relations to continue pursuing the ability to increase the number
                                                 of part-time, non-career flexible employees in the city letter craft to reduce labor costs. Management agreed in principle
                                                 but did not agree with the monetary findings or the formula to determine value.

                                                 Commercial Mail Entry and Acceptance Initiatives
                                                 The Postal Service developed initiatives for commercial mail entry and acceptance processes necessary to achieve core
                                                 business strategies and performance goals. The objective of this audit was to determine the status of these initiatives and
                                                 to identify issues facing the Postal Service as it moves forward. The key initiatives, which will streamline the commercial
                                                 mail entry and acceptance processes, are in the initial phases but are meeting planned milestones. The Postal Service
                                                 conducted an in-depth risk analysis to identify challenges that may impact the success of these initiatives. Using this
                                                 analysis, the Postal Service developed corresponding risk mitigation strategies to directly address these challenges and
                                                 minimize impacts to the planned schedule. However, we believe there are ongoing challenges that may negatively impact
                                                 the success of these initiatives.

                                                 The Postal Service worked closely with key internal and external stakeholders over the course of several months to gain
                                                 concurrence on the approach to streamlining mail entry and acceptance processes and data used to demonstrate savings
                                                 and justify the monetary investment. The Postal Service’s Executive Leadership Team reviewed and approved the project




16                                                                                                                                             Semiannual Report to Congress

                                                                           Table of Contents
                                                                                                                                                       OPERATIONAL RISK
on July 25, 2012. However, we believe financial and operational risks will continue to exist if the proposed risk mitigation
strategies are not implemented effectively. For example, the mailing industry has cited concerns about the availability and
stability of PostalOne!, the Postal Service’s primary system for recording commercial mail transactions and managing cus-
tomer accounts. It has experienced multiple operational issues. We believe failure to properly address these issues may
result in mailers’ reluctance to participate in the Full-Service Intelligent Mail Barcode (IMb) program, which is critical to the
success of these initiatives. We recommended management closely monitor the financial and operational risks related to
proposed commercial mail entry and acceptance initiatives and address availability issues related to PostalOne!. Further,
we recommended identifying additional incentives to increase mailer participation in the Full-Service IMb program and
develop a plan to address concerns mailers have with commercial mail transformation initiative requirements. Finally, we
recommended developing a process that will allow Full-Service IMb mailers the opportunity to challenge postage adjust-
ments made to streamlined mailings. On September 5, 2012, the Postal Service responded to our report in agreement
with these recommendations and outlined high-level plans to address each recommended action.

Although management agreed with our overall recommendations, they did not agree to a part of the last recommendation
requiring thorough testing before releasing or implementing PostalOne! system upgrades. While Postal Service manage-
ment agreed to develop a PostalOne! improvement plan, they noted the latter part of the recommendation was misleading,
as the Postal Service already conducts detailed system and customer acceptance testing prior to all releases. The Postal
Service instead proposed the development of pre- and post-release assessments of PostalOne! testing processes to sup-
port continuous improvement in their testing cycles.

Efficiency of Customer Service Operations
Our objective in this audit report was to assess the overall efficiency of the Postal Service’s customer service operations,
which include the sale of products and services at post offices, stations, and branches. The Postal Service uses various
systems and reporting tools to track and measure efficiency in its customer service operations. The Customer Service
Variance Program uses a standardized methodology, based on the retail unit’s projected workload and target productivity,
to determine the number of workhours a unit should use. In FY 2011, the Postal Service spent almost $6.3 billion (about
9 percent of total expenditures) on customer service operations.

While the Postal Service has improved its customer service efficiency, units still performed below the national efficiency
performance goals of 88 percent for FYs 2010 and 2011 and 90 percent for FY 2012. Managers at customer service
units are not fully using available reports as tools to manage operations. These conditions occurred because managers
did not match resources against their workload, senior managers did not promote the use of available reports, and not all
managers were trained to use the reports. The Postal Service could have saved $114 million in FY 2011 if all customer
service units had achieved the goal of 88 percent.

We recommended districts develop and implement an action plan to better use workhours and implement best
practices at applicable customer service units. We also recommended management provide customer service managers
training as needed to enable them to effectively use available reports and tools. Finally, we recommended management                Customer service operations include the
require customer service unit managers to use the available reports and tools to allocate their resources based on the              sale of products and services at post offices,
projected workload.                                                                                                                 stations, and branches.


Management generally agreed with the precept of our report and monetary impact, but took exception to our statement
that some units underperformed because managers did not know how to effectively use managerial reports to assess
resources against their workload and manage resources in response to workload changes. While they agreed with the
cause in principle, they stated our review conducted at four poor performing offices did not provide a statistically
relevant assessment.

First-Class Mail on Air Transportation, Assignment by Weight
The Postal Service contracts with select air carriers to transport First-Class Mail (FCM) to meet established service
standards. The carriers include FedEx®, United Parcel Service® (UPS), and selected commercial passenger airlines.
The Postal Service assigns mail to carriers considering contract minimums and the per pound costs of commercial air as
a priority when determining the order in which mail is assigned, but does not consider the overall weight or density of the
mail. The Postal Service spent $488 million in fiscal year 2011 to ship FCM by air. The Postal Service could save about
$10 million in transportation costs over the next year if it considered weight when assigning FCM to air transportation.
Our analysis also showed that the Postal Service could maintain contract commitments and service if this mail was real-
located, resulting in overall reduced air transportation costs. The estimated cost savings are net of additional costs for
assignment system modifications. We recommended management modify the process to assign FCM to air transportation
considering weight where feasible.




April 1 — September 30, 2012                                                                                                                                                   17

                                                                   Table of Contents
OPERATIONAL RISK
                                               Efficiency Review of the Los Angeles Network Distribution Center
                                               Our audit determined that the Los Angeles network distribution center (NDC) has reduced workhours over the past
                                               several years, but further opportunities exist for improvement. Specifically, the Los Angeles NDC did not attain the aver-
                                               age productivity of all NDCs above median productivity or take full advantage of existing automation. Consequently, the
                                               Los Angeles NDC used 200,019 more workhours than necessary. If the Postal Service eliminated these workhours, it
                                               would have an annual avoidance of about $6.5 million in labor costs. The NDC also damaged an average of 3,700 of
                                               the 175,000 pieces of mail handled daily. We recommended the Postal Service instruct Los Angeles NDC management
                                               to reduce workhours to produce an annual cost avoidance of $6.5 million, or increase volume by 39 million pieces, or a
                                               combination of both. We also recommended periodic evaluation of operating efficiency and staffing at the Los Angeles
                                               NDC to determine whether further workhour adjustments are necessary. Additionally, we recommended improving super-
                                               vision of employees and maintenance of mail processing equipment, maximizing automation, and ensuring separation of
                                               non-machinable and machinable parcels throughout the processing network.
Improved maintenance of operating systems
would improve efficiency at the Los Angeles
Network Distribution Center, an OIG audit      Frederick, MD, to Baltimore, MD, Area Mail Processing Consolidation
determined. A lack of proper maintenance       The Postal Service implemented area mail processing consolidation to eliminate excess capacity, reduce costs, improve
and performance of the sorting equipment
and a failure to sweep mail resulted in
                                               service, and operate as a leaner, more efficient organization. This audit responded to a request from a congressional rep-
auditors finding mail dating back to 2007      resentative on consolidation of destinating mail processing operations from the Frederick, MD, Processing & Distribution
below the sorter’s belts.                      Facility into the Baltimore Processing & Distribution Center.

                                               Our objectives were to assess the October 2011 through January 2012 consolidation and examine stakeholder concerns.
                                               Our report determined that this consolidation initially increased delayed mail, lowered service and customer experience
                                               scores, and increased transportation costs. Management acknowledged these challenges and has addressed many of
                                               the problems experienced during the consolidation. Further, operating conditions have improved as of February 2012.
                                               We recommended management avoid implementing consolidations during the fall and Christmas mailing seasons, as
                                               appropriate, ensure it meets customer service commitments, and complete transportation schedule adjustments to avoid
                                               late and extra trips.

                                               Global Positioning System Technological Strategies for Contracted Highway Transportation Routes
                                               The Postal Service initiated a global positioning system (GPS) program for selected highway contract transportation
                                               routes in November 2010 to gain visibility of mail during transport. The program required that all ”long-haul” routes (more
                                               than 50 miles) provide tracking information every 30 minutes during transport. As of April 2012, about 960 routes were
                                               included in the program.

                                               We found the GPS program was capturing limited data and not providing useful reports for highway transportation route
                                               management. This occurred because of inadequate planning and implementation and limited highway transportation route
                                               contractor participation requirements. Additionally, we determined that insufficient system reporting capabilities and inad-
                                               equate data retention requirements were contributing factors. Consequently, the program was not being used fully and
                                               had not achieved its intended results even though it cost at least $1.6 million. We also determined the program can poten-
                                               tially include additional routes; provide maximum use of actionable reports with enhanced data analytics, use real-time
                                               alerts and enhanced geo-fencing (or assigning geographical borders); and include fuel analysis and route optimization
A global positioning system program
                                               information. There are also opportunities for integration with existing systems for enhanced transportation management.
for selected highway contract route
transportation routes was implemented          We recommended the Postal Service improve existing GPS functionality by updating and reinforcing policies and pro-
to gain visibility of mail during transport.   cedures; improving the monitoring and validation process to ensure supplier compliance; and reviewing and updating
An audit of the program showed it has          standard system reports to facilitate monitoring of supplier compliance and performance. We also recommended adding
great potential, but the program was
capturing limited data and not providing       more highway contract routes and reporting capabilities to include exception reporting, establishing adequate GPS data
useful reports.                                retention policies, and exploring an end-to-end GPS platform with full-range functionality.

                                               Mail Transport Equipment — Shortages of Pallets, Tubs, and Trays — Fall 2011 Mailing Season
                                               Mail Transport Equipment (MTE) is containers, such as pallets, flat tubs, and letter trays that hold mail during transporta-
                                               tion. The Postal Service loans MTE to its customers for shipments through the Postal Service and has spent about $426
                                               million on MTE from FY 2006 to FY 2011, covering more than 149 million pieces of equipment. We initiated this audit in
                                               response to mailers’ complaints about MTE shortages during the fall 2011 mailing season. Our objectives were to assess
                                               these shortages and management controls over MTE.

                                               We confirmed that unprecedented MTE shortages existed at Postal Service facilities during the fall 2011 mailing season.
                                               This occurred because management did not effectively plan to have sufficient quantities on hand or develop a risk mitiga-
                                               tion plan to avoid shortages. Also, management has not fully developed and instituted adequate controls for effective MTE




18                                                                                                                                       Semiannual Report to Congress

                                                                     Table of Contents
                                                                                                                                                         OPERATIONAL RISK
management. The shortages were compounded by a shrinking MTE budget. As a result, the Postal Service and its cus-
tomers faced challenges in moving mail, which resulted in customer complaints and emergency purchases of less durable
equipment to meet the challenges.

We determined the Postal Service could have avoided purchases of less durable MTE totaling $11.1 million in FY 2011
and $15.6 million in FY 2012 had adequate planning and controls been in place. We also estimate that MTE purchases
of $24.3 million in FY 2011 and $23.6 million in FY 2012 are at risk of loss, theft, and misuse due to control weaknesses.
Further, MTE shortages reflect poorly on the Postal Service’s brand, place revenue at risk, and less durable MTE raises
safety concerns for mailers. We determined that the Postal Service initiated efforts to improve management of MTE,
including developing a system to track and monitor MTE.

We recommended the Postal Service develop processes and procedures for effective planning of and budgeting for MTE
needs for the fall mailing season; implement prior OIG recommendations on MTE internal controls; and develop processes
and procedures to limit distribution and improve accountability of MTE provided to mailers. We also recommended that                  An OIG audit of MTE recommended the
                                                                                                                                      Postal Service develop a risk mitigation plan
management assess and implement industry best practices for inventory control, considering the cost benefit.                          to avoid shortages of MTE and it should
                                                                                                                                      avoid buying less durable wooden pallets
Motor Vehicle Accident Prevention Program                                                                                             that are routinely damaged.
The Postal Service operates a fleet of about 200,000 vehicles, with more than 300,000 authorized drivers. During FYs
2010 and 2011, these drivers had more than 20,000 accidents each year. Motor vehicle accidents result in medical costs
to employers, legal expenses, property damage, and lost productivity. They also drive up the cost of benefits such as
workers’ compensation, Social Security, and private health and disability insurance. The Postal Service’s Safe Driver Pro-
gram established policies and guidelines to ensure that its drivers are equipped to drive safely, comply with Department of
Transportation regulations, and collect and deliver mail efficiently. Our objective was to assess internal controls over motor
vehicle safety.

While the Postal Service has established procedures to monitor and oversee motor vehicle safety, supervisors did not
always follow prescribed procedures. We identified issues relating to driving observations, vehicle safety inspections, and
monitoring of driving privileges. We identified $97.7 million in assets at risk due to inadequate controls over motor vehicle
safety. Efforts to prevent motor vehicle accidents help reduce costs, promote safety for employees and the public, and
enhance the Postal Service brand.

We recommended management provide supplemental guidance to area and district managers to enforce requirements
for supervisors to adhere to motor vehicle safety procedures, to include conducting driving observations, ensuring drivers
perform vehicle safety inspections, and performing quarterly driving privilege checks. We also recommended manage-
ment provide periodic refresher training to supervisors on the Safe Driver Program and ensure that employees performing
driving observations take the Driver Observation training course. Finally, we recommended management establish and
implement proactive monitoring processes that include using Department of Motor Vehicles’ databases to ensure the
validity of driver’s licenses for employees in driving positions.

Management disagreed with the recommendation to establish and implement
proactive monitoring processes that
include using Department of Motor Vehicles’ databases to validate driver’s
licenses for employees in driving positions, stating that it would be labor- and
cost-prohibitive. Use of DMV data requires a release form signed by the
employee and the costs vary by state. With 425,000 potential drivers, the Postal
Service estimated that the annual costs would be more than $19 million.

Postal Vehicle Service — Nationwide Analysis
Negotiated work rules for bargaining unit employees in Postal Vehicle Service
(PVS) operations are covered under the American Postal Workers Union’s col-
lective bargaining agreement, which was ratified in 2011. The contract allows
management to eliminate part-time flexible (PTF) and part-time regular (PTR)
employees in the motor vehicle craft and create non-traditional full-time (NTFT)
duty assignments to replace assignments previously performed by PTF and PTR
employees. Management can now develop schedules with fewer than 8 hours of
work per day or 40 hours per week which are classified as full-time duty assign-
                                                                                      With more than 300,000 authorized drivers, Postal Service motor vehicle accidents result in
ments. The new contract also requires management to schedule employees
                                                                                      costly medical expenses, legal expenses, property damage, lost productivity, and an increase
with consecutive days off in most cases; however, the local parties (manage-          in the cost of benefits. The Safe Driver Program established guidelines to ensure safety and
ment and union) can otherwise agree to split days off.                                compliance with Department of Transportation regulations.




April 1 — September 30, 2012                                                                                                                                                     19

                                                                  Table of Contents
OPERATIONAL RISK
                                               The objectives of this audit were to summarize the results of our prior audit work in this area and identify PVS scheduling
                                               and staffing issues and associated impacts that require nationwide attention. Our report determined that Postal Service
                                               Headquarters needs to strengthen nationwide processes, guidance, and monitoring of PVS fleet management procedures
                                               for conducting required schedule and vehicle utilization reviews. Management could create more efficient PVS schedules
                                               by using NTFT duty assignments and changing work schedules to include split days off. We also determined that, at
                                               some previously audited facilities, drivers were not consistently following prescribed safety procedures when conducting
                                               PVS operations.

                                               We recommended the Postal Service ensure that managers follow prescribed fleet management procedures for conduct-
                                               ing schedule and vehicle usage reviews, make more timely PVS schedule changes, and increase the use of NTFT duty
                                               assignments where fewer than 8 hours of work exists when feasible. Also, we recommended that management encourage
                                               local officials to negotiate the use of split days off with local union officials, ensure that processing and distribution center
                                               managers enforce the use of seat belts, chock blocks, and load restraints by drivers, and ensure that managers periodi-
                                               cally monitor compliance. By making these changes nationally we estimate the Postal Service could save about $47.1
                                               million annually.

                                               Management generally agreed with the monetary value used for assets at risk and our recommendations but not our
                                               monetary impact, saying our estimates were inaccurate because the American Postal Workers Union Agreement does
                                               not currently allow for the use of split days off for NTFT duty assignments without further action at the national and local
                                               levels. In addition, management stated they cannot agree with our projected savings associated with the use of the NTFT
                                               position since the ability to optimize around the NTFT position is conditional on vacancies, volunteer full-time regular
                                               employees, and conversion of postal support employees (PSEs) after their initial 1-year term as PSEs.

                                               Management stated they will continue to track and monitor compliance with fleet management procedures on a quarterly
                                               basis. In addition, they will continue to pursue and monitor the maximum use of postal support employees (PSE) and
                                               NTFT duty assignments to control costs and hours. However, regarding the use of split days off, management does not
                                               believe encouraging the negotiation of split days off for NTFT duty assignments is actionable at this time.

                                               Suspension and Debarment Program
                                               Suspensions and debarments are administrative remedies that federal agencies can take to protect against future losses
                                               from supplier fraud, waste, abuse, poor performance, and non-compliance with contract provisions or applicable laws.
                                               The Postal Service should continuously measure and analyze supplier performance relative to contractual requirements
                                               and apply suspension and debarment remedies when applicable to help limit future Postal Service losses. Our objective
                                                                                        was to assess the Postal Service’s suspension and debarment program. Specifi-
                                                                                        cally, we evaluated the Postal Service’s compliance with pertinent regulations
                                                                                        and benchmarked its suspension and debarment practices against Federal
                                                                                        Acquisition Regulation (FAR) and FAR-exempt agencies to identify best practices
                                                                                        and key program similarities and differences

                                                                                              Our report determined that, although no suspended or debarred suppliers
                                                                                              are currently under contract with the Postal Service, opportunities exist for
                                                                                              improving the suspension and debarment program. Suspension and debar-
                                                                                              ment officials did not consistently update or accurately record suspension and
                                                                                              debarment activity in the General Service Administration’s Excluded Parties
                                                                                              List System and the Postal Service list of suppliers debarred, suspended, and
                                                                                              ineligible at the time of suspension or debarment, as required. We also identified
                                                                                              best practices that, if implemented, could strengthen the program. We recom-
                                                                                              mended management consistently update and accurately record suspension and
                                                                                              debarment activity on the required lists upon debarment and instruct contracting
                                                                                              staff on suspension and debarment policies and practices at least annually.

An OIG audit assessed the Postal Service’s suspension and debarment program, including a
review of how regularly it was updating and recording suspensions and debarment activity in
the General Service Administration’s Excluded Parties List System.




20                                                                                                                                           Semiannual Report to Congress

                                                                         Table of Contents
                                                                                                                                                                  OPERATIONAL RISK

  City Delivery — Street Efficiency in the San Diego District; City Delivery – Street Efficiency Louisiana District;
  Street Efficiency — Capital District
  The Postal Service faces the most difficult operat-            We assessed the overall street efficiency of city               in funds put to better use. The Louisiana District
  ing period in its 235-year history. Mail volume in             street delivery in the San Diego, Louisiana, and                could use about 12 fewer minutes of street time
  FY 2011 declined by another 3 billion pieces to                Capital districts and identified opportunities                  per day on each carrier route and save about $4.4
  168 billion, dropping total mail volume to levels              for efficiency and cost savings. Street delivery                million annually. The district also had issues with
  not seen since 1992. Since 2007, mail volume                   includes carriers delivering and collecting mail on             inadequate security safeguards resulting in assets
  has dropped by about 44 billion pieces. The Postal             their assigned routes. There are opportunities for              at risk totaling $65,698 at four delivery units,
  Service must improve operational efficiency to                 improvement in all of these districts                           but management immediately initiated corrective
  reduce costs while facing financial losses from                                                                                action on these matters. Finally, the Capital District
  declining mail volume. Significant opportunities               The San Diego District could use about 6 minutes                has opportunities for enhanced street delivery
  exist for improving efficiency and reducing costs              less street time per day on each carrier route (or              efficiency – it could use about 12 fewer minutes of
  in mail delivery.                                              about 83,900 workhours annually) and we esti-                   street time per day on each carrier route and save
                                                                 mate a monetary impact of $3.4 million annually                 about $4.5 million annually.

Unauthorized Contractual Commitments
An unauthorized contractual commitment occurs when a Postal Service employee who has not been delegated as a con-
tracting authority or a local buying authority allows another party to deliver or provide goods or services. An unauthorized
contractual commitment also occurs when individuals who have delegated contracting authority exceed that authority. The
Postal Service requires unauthorized contractual commitments to go through a process called ratification, which involves
after-the-fact preparation and execution of appropriate contractual documents. Our objective was to determine whether
the Postal Service ratified unauthorized contractual commitments in accordance with its policy. We reviewed contract-
ing actions to determine whether contracting officers (COs) received delegations of authority to exceed their contracting
authority. We also benchmarked Postal Service contracting authority levels and delegation of authority practices with
those of other federal agencies.

Postal Service personnel did not always ratify unauthorized contractual commitments in accordance with Postal Service
policy. Of the 23 unauthorized contractual commitments we reviewed, eight (35 percent, valued at $582,649) were either
missing the approval of the ratifying official, approved by an individual who did not have sufficient approval authority, or
lacked sufficient documentation. We also found that Postal Service personnel generally followed their policy on delegating
additional contracting authority in cases where an individual CO’s contracting authority is insufficient. However, we did
identify one contracting action in which the CO did not receive the proper delegation and exceeded their authority by
more than $5.1 million. Finally, our benchmarking results indicated that, unlike the Postal Service, other federal agencies
do not have a policy providing for a one-time delegation of authority to COs to execute actions over and above their
contracting authority.




A delegation from the government of Japan, including a member of its legislature (the Diet) and officials from the Embassy of Japan, met with
officials of the OIG to learn about the role and mission of an Office of Inspector General. Japan Post is considering the establishment of an
inspection and audit department that would be independent from the departments they review.



April 1 — September 30, 2012                                                                                                                                                          21

                                                                          Table of Contents
Office of

Investigation




            Table of Contents
                                                                                                                                              FINANCIAL CRIMES




                                                                           Special agents investigate internal crimes and frauds
                                                                           committed by postal employees and contractors
                                                                           against the Postal Service and employee misconduct.



The Postal Service is consistently ranked by the Ponemon Institute as America’s
“most trusted federal agency.” Among the reasons for this ranking is the integrity of
its employees. Unfortunately, a small number of postal employees and contractors
betray that integrity and abuse the public’s trust in the Postal Service.

To protect the mail and to ensure the integrity of       contractors against the Postal Service and employee      Workers’ Compensation Fraud
postal processes, finances, and personnel, the           misconduct. Following is work conducted by the OI        Investigative Results
Postal Service relies on the investigative efforts of    during this reporting period that contributed to safe-   April 1 — September 30, 2012
the Office of Investigations’ (OI) special agents.       guarding the Postal Service’s revenue and assets
These special agents are stationed in offices nation-    and helped deter postal crimes, ultimately helping        487 fraud investigations resolved
wide. Their charge is to investigate internal crimes     to maintain a stable and sound Postal Service.            $92 million in compensation payments avoided
and frauds committed by postal employees and                                                                       19 arrests
                                                                                                                   30 indictments
                                                                                                                   24 convictions
FINANCIAL CRIMES                                                                                                   83 personnel actions taken by management
A large portion of the $65 billion in revenue generated by the Postal Service last year is handled at the
32,000 postal retail locations. Employees who embezzle funds, kite or otherwise misuse money orders, or
steal and misuse postal-issued credit cards receive investigative attention from our special agents.

 A California window clerk was sentenced in May in federal court to 3 years of probation and ordered to
  pay $20,000 in restitution to the Postal Service. An OIG investigation revealed the window clerk under-
  reported stamp sales to conceal her embezzlement from the cash drawer. A financial reconciliation
  identified shortages in excess of $74,000. During the investigation, the clerk admitted to stealing about
  $20,000. She subsequently resigned from the Postal Service.

 An OIG investigation determined that a Michigan sales and service associate embezzled funds from eve-
  ning postal deposits. During an interview with agents, the employee admitted to using the stolen money
  to gamble at a casino. As a result of the investigation, the sales associate resigned from the
  Postal Service. In May, the former associate pled guilty in federal court to misappropriation of postal
  funds. The associate was sentenced to 49 days imprisonment and ordered to pay $8,350 in restitution
  to the Postal Service.

 In April, a Connecticut sales and service associate was sentenced in federal court to 6 months home
  confinement, 5 years of probation, 200 hours of community service, and ordered to pay more than
  $20,000 in restitution. An OIG Investigation determined the associate voided sales transactions of 53
  money orders totaling $16,635 that Postal Service customers had purchased. During an interview with
  agents, the associate admitted he fraudulently voided money orders after he sold them to customers.
  The sales associate stated that he stole money to take care of personal financial problems and support a
  gambling addiction. As a result of the investigation, the Postal Service terminated the associate.

 An OIG investigation disclosed that a New Jersey sales and service associate embezzled about $19,000
  from the Postal Service by making false refund entries into the Point of Service (POS) retail terminal. In
  May, the associate pled guilty to misappropriation of postal funds and was subsequently sentenced in
  federal court to 2 years of probation and ordered to pay more than $19,700 in restitution to the Postal
  Service. As a result of the investigation, the associate was removed from the Postal Service.



April 1 — September 30, 2012                                                                                                                                    23

                                                                 Table of Contents
HEALTHCARE FRAUD
                                                   A Nebraska officer in charge failed to pay for about 20 money orders, totaling nearly $6,000, which he used for per-
                                                    sonal expenses, an OIG investigation determined. During an interview with agents, the officer admitted to stealing the
                                                    money orders for his personal use. In April, he pled guilty in federal court to embezzlement of Postal Service money
                                                    orders. The employee was sentenced to 6 months imprisonment, 3 years of probation and ordered to pay $6,600 in
                                                    restitution. The employee resigned from the Postal Service.

                                                   OIG agents investigating an Arizona postmaster determined she issued and cashed Postal Service money orders for
                                                    personal use. During an interview with agents, the employee admitted to stealing cash from her drawer and money
                                                    orders from the mail. In May, the postmaster pled guilty in federal court to attempting to pass a forged and altered
                                                    Postal Service money order and theft of mail. The postmaster was sentenced to 16 months of imprisonment, 3 years
                                                    of supervised release and ordered to pay approximately $19,000 in restitution. The postmaster resigned from the
                                                    Postal Service.

                                                   In July, a North Carolina postmaster was sentenced in federal court to 5 years of probation and ordered to pay a
                                                    $3,000 fine after pleading guilty to misappropriation of funds. Our investigation revealed the postmaster issued money
                                                    orders to customers without reporting the sales and kept the cash for personal use. The investigation also determined
                                                    the postmaster failed to report funds received from Post Office Box fee transactions and permit mailing postage trans-
                                                    actions. As a result of the investigation, the employee resigned from the Postal Service and reimbursed the
                                                    Postal Service $31,392


                                                  HEALTHCARE FRAUD
                                                  The monetary and medical benefits paid by the Postal Service to workers’ compensation claimants (employees who
                                                  sustained job-related injuries) in FY 2012 totaled more than $1.3 billion; its estimated total liability for future workers’
                                                  compensation costs is more than $17.5 billion. Administered by the U.S. Department of Labor (DOL), the Office of Work-
                                                  ers’ Compensation (OWCP) provides direct compensation to providers, claimants, and beneficiaries. The Postal Service
                                                  later reimburses the OWCP in a process known as charge-back billing.

                                                  The workers’ compensation program exists for employees who are legitimately injured while on duty. The program pro-
                                                  vides benefits to injured employees and their families while the employee is unable to work. Postal employees who attempt
                                                  to defraud OWCP with false claims are criminally prosecuted to permanently prevent payment of additional compensation
                                                  and to recover funds fraudulently obtained. Cases that may require administrative action are referred to the Postal Service
                                                  and the DOL. Special agents work closely with Health and Resource Management specialists from the Postal Service
                                                  on all phases of these investigations. Following are examples of workers’ compensation fraud cases investigated during
                                                  this period.
A former rural letter carrier claimed an           Abbott Laboratories pled guilty in May and agreed to pay $1.5 billion to resolve its criminal and civil liability arising from
on-the-job injury to her back and made false
statements to her physician to maintain             the company’s unlawful promotion of the prescription drug Depakote for uses not approved as safe and effective by the
a limited work-duty status. OIG agents              Food and Drug Administration (FDA). Abbott admitted that the company maintained a specialized sales force trained
determined the carrier participated in at least     to market Depakote in nursing homes for the control of agitation and aggression in elderly dementia patients, despite
80 separate marathons and triathlons since          the absence of credible scientific evidence that Depakote was safe and effective for that use. The resolution includes
claiming her injury.
                                                    a criminal fine and forfeiture totaling $700 million and civil settlements with the federal government and the states
                                                    totaling $800 million. The investigation revealed that the company defrauded the Postal Service of about $1.1 million
                                                    through insurance reimbursements. Sentencing is pending. The Postal Service has not yet received the monies due in
                                                    this case and they will be reported in a future semiannual report to Congress.

                                                   After a two-day jury trial in May, a Florida rural carrier – and veteran triathlete – was found guilty in federal court of
                                                    making false statements and healthcare fraud. The rural carrier filed a claim for an on-the-job injury to her back and
                                                    was placed in a limited duty work status by her treating physician. An OIG investigation determined the carrier made
                                                    false statements to her physician in order to maintain a limited duty work status. Video surveillance conducted by
                                                    agents showed the carrier repeatedly exceeding her medical restrictions. Agents determined the rural carrier partici-
                                                    pated in at least 80 separate marathons and triathlons since claiming her injury. As a result of our investigation, the
                                                    Postal Service terminated the rural carrier, resulting in a cost avoidance of more than $140,000.

                                                   An OIG investigation revealed that the daughter of a former Pennsylvania letter carrier falsified forms sent to the Depart-
                                                    ment of Labor to ensure the continuation of her father’s worker’s compensation benefits. The daughter, who was not
                                                    a postal employee, continued to receive and cash checks for compensation payable to her late father for 8 months
                                                    following his death. During the investigation, the daughter pled guilty to making false statements. DOL issued a letter
                                                    of indebtedness, resulting in the recovery of approximately $17,000 to the Postal Service. In June, the woman was
                                                    sentenced to 4 years of probation, 200 hours of community service, and a $1,000 fine.


24                                                                                                                                             Semiannual Report to Congress

                                                                         Table of Contents
                                                                                                                                                                                                                         HEALTHCARE FRAUD
 After pleading guilty in federal court to insurance fraud, a California city letter carrier was sentenced in May to 75 days
      of imprisonment, 3 years of supervised release, and ordered to pay $820 in fines and $17,329 in restitution to the
      Postal Service. The investigation revealed the carrier, who claimed to be totally disabled from an on-the job back injury,
      misrepresented his medical condition and physical capabilities. Video surveillance showed the carrier practicing martial
      arts, playing football, performing yard work, carrying heavy items, and driving for long periods of time. As a result of the
      investigation, the Postal Service terminated the carrier and DOL terminated the carrier’s compensation benefits, real-
      izing a savings in excess of $1.5 million for the Postal Service.

  Joint Investigation Nets Historic Healthcare Fraud Settlement
                                                                                      tive Service, the Food and Drug Administration                                       plea agreement also included non-monetary
                                                                                      Office of Criminal Investigations, the Office of                                     compliance commitments and certifications by the
                                                                                      Personnel Management OIG and the offices of                                          company’s U.S. president and board of directors. 
                                                                                      various state Attorneys General. The investigation
                                                                                      determined that from 1994 through 2010, the                                          In addition to the criminal fines, GSK also paid $2
                                                                                      pharmaceutical company promoted its best-selling                                     billion to resolve its civil liabilities with the federal
                                                                                      antidepressants for unapproved uses, failed to                                       government under the False Claims Act, as well
                                                                                      report safety data about a top diabetes drug, and                                    as the various state Attorneys General. The civil
                                                                                      improperly marketed a half-dozen other drugs.                                        settlement resolves claims relating to specific
                                                                                                                                                                           drugs, and also resolves pricing fraud allegations.
                                                                                      In July 2012, the company pled guilty to a
  OIG special agents investigated a case that                                         three-count criminal information, including two                                      The portion of the criminal fine payable to the
  resulted in the largest healthcare fraud settle-                                    counts of introducing misbranded drugs into                                          Postal Service will be $6 million2. In addition,
  ment in United States history. Multiple qui tam1                                    interstate commerce and one count of failing                                         the Postal Service will receive about $200,000
  complaints filed against a United Kingdom-based                                     to report safety data about another drug to the                                      in civil damages related to payments made on
  pharmaceutical company, GlaxoSmithKline                                             FDA. Under the terms of the plea agreement,                                          behalf of postal employees who received the
  (GSK), were investigated jointly by the OI, the                                     the company paid a total of $1 billion, includ-                                      drugs through workers’ compensation benefits.
  Department of Health and Human Services                                             ing a criminal fine exceeding $956 million and                                       The exact asset forfeiture amount payable to
  OIG, the FBI, the Defense Criminal Investiga-                                       forfeiture exceeding $43 million. The criminal                                       the Postal Service has yet to be determined.
  1
   Qui tam actions are filed by private entities who stand in the place of the government. Similar to whistleblower actions, qui tams resulting in monetary judgments entitle the plaintiff to a share. The False Claims Act (31 U.S.C. §§ 3729–3733)
    authorizes qui tam actions on behalf of the federal government.
  2
    The Postal Service OIG’s financial statistics for the FY2012 SARC (April through September) reporting period does not reflect GSK’s total $3 billion settlement, due to continued assessments and evaluations on how the money will be
    distributed to the affected parties and the government. Therefore, portions of the settlement amount will be reflected in the FY2013 SARC (October through March).”




 A joint investigation with the California District Attorney’s (DA) Office Bureau of Investigation revealed that a California
      window clerk was involved in issuing fraudulent passports to facilitate real estate fraud and human smuggling schemes.
      The investigation determined the clerk provided relatives fraudulent U.S. passports, which allowed them to commit real
      estate fraud, resulting in more than $2 million dollars in bank losses. The clerk failed to report income earned from
      illegal activities while receiving benefits from DOL. In April, the clerk pled guilty in state court to forgery, passport fraud,
      real estate fraud, and workers’ compensation fraud. The court sentenced the clerk to 2 years of imprisonment. As a
      result of the investigation, the clerk resigned from the Postal Service, resulting in a cost avoidance of $397,000.                                                                        A former Massachusetts letter carrier
                                                                                                                                                                                                 alleged total disability from a work-
                                                                                                                                                                                                 related head and neck injury, but an OIG
 An April investigation determined that a Michigan distribution clerk failed to report concurrent employment while claim-                                                                      investigation found the carrier exceeded
      ing total disability as the result of an on-the-job injury. During an interview with agents, the clerk admitted to being a                                                                 medical restrictions on several occasions,
      co-owner of a dog grooming and kennel business and working 6 days a week. The Postal Service terminated the clerk                                                                          including golfing and landscaping. After a
      and DOL ended her benefits, resulting in a cost avoidance of about $968,000.                                                                                                               guilty plea on fraud charges, the former
                                                                                                                                                                                                 employee’s benefits were terminated for a
                                                                                                                                                                                                 cost savings of $1.1 million for the Postal
 In July, a retired Massachusetts letter carrier was sentenced to 4 months imprisonment, 1 year of probation and                                                                               Service.
      ordered to pay $26,823 in restitution to the Postal Service. The former carrier pled guilty to false statements or fraud
      to obtain workers’ compensation benefits and mail fraud. The carrier alleged total disability from a work-related head
      and neck injury and received more than $168,000 in worker’s compensation payments. An OIG investigation revealed
      the former carrier exceeded medical engaging in activities such as golfing and landscaping with large power equip-
      ment. The DOL terminated the former carrier’s benefits realizing a cost savings of more than $1.1 million for the Postal
      Service.

 A May investigation found that a North Carolina part time flexible clerk operated multiple booths at a flea market to
      sell clothing, gift baskets that he designed and created, and other merchandise. During an interview with agents, the
      employee admitted to owning and operating the business and failed to report the income to DOL. The investigation
      prompted the employee to resign from the Postal Service. DOL terminated compensation and benefits resulting in a
      cost avoidance of approximately $884,000.



April 1 — September 30, 2012                                                                                                                                                                                                                            25

                                                                                                  Table of Contents
MAIL THEFT
                                                  MAIL THEFT
                                                  Special agents investigate allegations of postal employees delaying, destroying, or stealing mail. Suspected employees are
                                                  referred to prosecutors or to management for administrative action.

                                                                                                  An OIG investigation uncovered a scheme in which a Tennessee tempo-
                                                                                                  rary employee removed mailing labels from parcels and replaced them with
                                                                                                  handwritten labels addressed to his residence. The employee rerouted about
                                                                                                  $25,000 worth of merchandise to his residence through the mail. During a
                                                                                                  search warrant execution, agents recovered several stolen computers, flat
                                                                                                  screen televisions, PlayStations, a home security unit, a U.S. passport, digital
                                                                                                  camcorders, digital cameras, and large inflatable waterslides. In May, the
                                                                                                  employee pled guilty to theft of mail. One month later, the employee was sen-
                                                                                                  tenced to 6 months of home detention, 3 years of probation, and ordered to pay
                                                                                                  a $10,000 fine to the Postal Service. As a result of the investigation the Postal
                                                                                                  Service terminated his employment.

                                                                                                  In April, a rural carrier associate in Oklahoma pled guilty in federal court to
                                                                                                  theft of mail. An investigation determined the employee stole parcels containing
                                                                                                  controlled substances, mailed by the Department of Veterans Affairs (VA). Dur-
                                                                                                  ing an interview with OIG agents, the employee admitted to stealing several VA
                                                                                                  parcels and burning the packaging to conceal the thefts. She stole the parcels
                                                                                                  to support her addiction to prescription drugs. The employee was sentenced
                                                                                                  to 2 years of probation and ordered to attend a court ordered drug treatment
                                                                                                  program. The employee resigned from the Postal Service.

                                                                                                  A New York letter carrier confessed to OIG agents during an investigation to
                                                                                                  stealing the contents of Express Mail packages, including more than $75,000
An OIG investigation uncovered a scheme by a temporary employee to reroute packages
with televisions, high-end electronics, and large inflatable water slides to his residence. The   in cash, diamonds, and electronics, which the carrier pawned. In May, the letter
employee pled guilty to theft of mail and was sentenced to 6 months of home detention and         carrier pled guilty in federal court to theft of mail and possession of stolen mail
3 years of probation.                                                                             and was ordered to forfeit about $68,000. As a result of the investigation, the
                                                                                                  letter carrier resigned from the Postal Service. Sentencing is pending.

                                                   Agents observed, during an investigation, a Florida distribution clerk opening customers’ envelopes, removing cash,
                                                     and concealing it in her pocket. The clerk admitted to agents that she stole cash and gift cards over a 3-month period.
                                                     The employee resigned from the Postal Service and in July was sentenced to two years of probation, 50 hours of com-
                                                     munity service, and ordered to pay $300 in restitution.

                                                   The OIG received complaints from customers in Illinois regarding missing prescription drug parcels. An investigation
                                                     determined that an Illinois supervisor was responsible for the thefts. The supervisor fielded complaints and referred the
                                                     information to the OIG from customers whose packages he stole. The supervisor admitted to agents that he stole
                                                     prescription packages due to his addiction to pain medication. In July, the supervisor, who was convicted of mail theft,
                                                     was sentenced in federal court to 2 years supervised release, 50 hours of community service, and ordered to pay a
                                                     $1,200 fine. The employee resigned from the Postal Service.

                                                   In June, a Michigan rural route carrier entered a federal pretrial diversion program for a period of 12 months for theft of
                                                     mail. The rural carrier was ordered to perform 40 hours of community service and agreed not to seek re-employment
                                                     with the Postal Service. The OIG opened an investigation after receiving customer complaints regarding missing
                                                     mail. During an interview with OIG agents, the rural carrier admitted to stealing about $300 from greeting cards. The
                                                     employee resigned from the Postal Service.

                                                   An investigation revealed that a California supervisor stole and attempted to use a gift card at Macy’s. However, the
                                                     store declined the transaction because the gift card was reported stolen. The supervisor admitted to the theft in an
                                                     interview with agents. The Postal Service removed the supervisor and in May, the supervisor pled guilty to obstruction
                                                     of mails. He was sentenced in federal court to 6 months of probation, 50 hours of community service, and ordered to
                                                     pay restitution.




26                                                                                                                                                 Semiannual Report to Congress

                                                                             Table of Contents
                                                                                                                                                               MAIL THEFT
 Another California case involved theft of gift cards. A California letter carrier redeemed gift cards he stole from the
  mail, an OIG investigation determined. During an interview with agents the carrier admitted to stealing and using the
  gift cards. As a result of the investigation, the employee resigned from the Postal Service. In July, the carrier pled guilty
  to obstruction of mails and was sentenced in federal court to 2 years’ probation, ordered to pay a $2,000 fine, and
  $309 in restitution.

 A mail handler pled guilty in July in federal court to delay and destruction of mail, and theft of government prop-
  erty. During the investigation, OIG agents discovered at least nine postal customers had greeting cards stolen from
  the mail and rifled. The mail handler redeemed these cards at various stores. The employee admitted to OIG agents
  that he stole at least 50 gift cards from the mail with an estimated value of $4,000. In December 2009, the employee
  resigned from the Postal Service.

 A California city letter carrier admitted to OIG agents during an investigation that he had stolen about 10 pieces of mail
  to fuel his drug habit. The carrier also confessed to using crystal meth and black tar heroin while on duty. The Postal
  Service terminated the carrier’s employment and in August he pled guilty in the State of California District Court to
  check/money order fraud, possession of stolen check/money order, and theft of property. The carrier was sentenced
                                                                                                                                  Special agents investigate allegations of
  to 45 days imprisonment and 3 years of probation.                                                                               postal employees delaying, destroying,
                                                                                                                                  or stealing mail. In one investigation, a
 During an investigation, OIG agents observed a Nevada letter carrier enter his personal residence with stolen mail.            Nevada letter carrier admitted to stealing
  Agents executed a federal search warrant at the carrier’s home and recovered 562 Netflix DVDs, 158 pieces of politi-            mail containing DVDs over the course of a
  cal mail, and seven periodicals. During an interview with agents, the carrier admitted to stealing Netflix DVDs for more        year and disposing of the envelopes in his
                                                                                                                                  household trash.
  than a year and disposing of the envelopes in his household trash. The carrier said he stole mail from several different
  routes in order to avoid detection. In June, the carrier pled guilty in federal court to theft of mail and was sentenced to
  3 years of probation and ordered to pay about $7,100 in restitution. The letter carrier resigned from the Postal Service.

 A Kansas clerk was responsible for the theft of more than 40 packages containing narcotics intended for delivery to
  veterans, an OIG investigation determined. During a surveillance operation, agents observed the clerk hide the parcels
  in a large mail sack, which she later placed in her personal vehicle. The clerk admitted to stealing the parcels for more
  than a year in an interview with agents. In April, the clerk pled guilty to theft of mail and was sentenced in federal court
  to 2 years of probation, ordered to pay a $500 fine, and approximately $300 in restitution. The clerk resigned from the
  Postal Service.

 A Kansas highway contract route driver was sentenced in July to 5 years of probation and ordered to pay nearly
  $3,000 in restitution after pleading guilty to mail theft in federal court. An OIG investigation determined the driver
  was responsible for the theft of more than 100 pieces of First-Class Mail, containing more than $3,000 in cash and
  gift cards. The driver and his spouse were observed on video using stolen gift cards. During an interview, the driver
  admitted to stealing about $40 to $80 a day in cash and gift cards from the mail, while discarding checks and money
  orders. The driver’s wife pled guilty to criminal use of a financial card and was sentenced to 2 days imprisonment, 12
  months of probation, and ordered to pay restitution. As a result of the investigation, the Postal Service terminated the
  driver.

 A Wisconsin temporary carrier admitted to agents during an interview to stealing deliverable mail on his route, in addi-
  tion to stealing outgoing mail left in residential mailboxes by postal customers. During a search of the carrier’s vehicle
  and residence, agents recovered more than 9,000 pieces of mail. The carrier admitted he stole cash from the mail
  approximately 20 times per day to buy gas for his personal vehicle. The carrier pled guilty, in March, to theft of mail
  and delay of mail in federal court. In June, the carrier was sentenced to 20 months in prison, followed by 3 years of
  supervised probation. The carrier also resigned from the Postal Service.

 A former Wyoming custodian pled guilty to delay or destruction of mail. An OIG investigation determined that over a
  3-month period, the custodian took multiple pieces of First-Class Mail from the Post Office. The stolen parcels con-
  tained gift cards, DVDs, and three silver coins. Agents were able to track the stolen coins to a pawn shop in Casper,
  WY, and discovered that the custodian sold the coins. Agents obtained video from a local Applebee’s restaurant that
  showed the custodian using stolen gift cards that were sent to customers in the Casper delivery area. The custodian
  said he threw away numerous mailings with their contents, including prescription medications from the VA. The Postal
  Service terminated the custodian. In May, he was sentenced in federal court to 2 years of probation and ordered to pay
  about $1,100 in restitution.




April 1 — September 30, 2012                                                                                                                                                   27

                                                                  Table of Contents
CONTRACT FRAUD
                                                  CONTRACT FRAUD
                                                  The Postal Service manages contracts, ranging from multimillion dollar national contracts for services such as transporta-
                                                  tion networks and IT infrastructures to local contracts for supplies and services at individual postal facilities. The OIG aids
                                                  the Postal Service by investigating allegations of contract fraud, waste, and misconduct. When contract improprieties are
                                                  documented, special agents present the evidence for criminal and civil prosecution and administrative remedies.

                                                  During this reporting period, we conducted 94 contract fraud investigations, resulting in 13 arrests and more than $4 mil-
                                                  lion in monetary benefits to the Postal Service.

                                                   A California court awarded $1,668,330 to the Postal Service in May in a judgment of $16.5 million against a govern-
                                                    ment contractor. In 2004, a complaint was filed in U.S. District Court against Avaya Inc., a company that sells and
A contractor’s sales representative to the          leases desktop telephone systems to federal agencies. Two former company employees alleged the company and a
Postal Service frequently entered a Postal          separate finance company violated the False Claims Act by knowingly submitting false invoices to the Postal Service
Service Vehicle Maintenance Facility and
disposed of large quantities of soap products       and other U.S. government agencies for the leasing, renting, and post-warranty maintenance of telephone systems.
so he could sell higher volumes of soap             During the 1990s, government agencies replaced obsolete telephone systems with more modern phones. Agents
to the Postal Service. An OIG investigation         analyzed about 60,000 invoices from the telephone systems company and determined, in many instances, the com-
uncovered the fraud, and the Postal Service         pany knowingly continued to bill for lease and maintenance charges of obsolete systems, which had been removed,
terminated the contract. The sales rep pled
                                                    disconnected, or replaced with modern systems. In addition, analysis revealed the company often billed for the removal
guilty in federal court to mail fraud and theft
of public money, property or records.               of the obsolete equipment and continued to knowingly bill removal charges for many months afterwards.

                                                   During an OIG investigation, a highway contract route (HCR) driver admitted to agents that he directed his wife and
                                                    employees to use the Postal Service Voyager credit cards unlawfully. The Nebraska contract driver pled guilty in April to
                                                    theft of government money or property for his unlawful purchase of fuel valued at almost $130,000 for non-Postal ser-
                                                    vice businesses. The contractor operated two HCR routes in Nebraska between May 1, 2005, and March 31, 2008,
                                                    while operating newspaper routes and a courier service at the same time. The contract route driver was sentenced to
                                                    36 months of probation and ordered to pay approximately $126,000 in restitution.

                                                   An OIG investigation determined that the owner of a vehicle repair company bribed several Postal Service Vehicle
                                                    Maintenance Facility (VMF) employees in the Detroit metropolitan area. The bribes included cash, gift cards, vehicles,
                                                    prostitutes, free service on personal vehicles, and other items of financial value in exchange for vehicle repair work.
                                                    Four employees were convicted of conspiracy to commit bribery and/or bribery and one employee was convicted of
                                                    acceptance of illegal gratuities. The employees were sentenced to imprisonment ranging from 3 months to 18 months,
                                                    2 years of probation and fines totaling $4,000. Three employees received administrative downgrades. The owner and
                                                    the vehicle repair company were debarred from conducting business with the federal government.

                                                   In Alabama, a Postal Service VMF supervisor conspired with two contractors to submit false claims for services and
                                                    repairs on Postal Service vehicles. In exchange for approving the false claims, the supervisor received cash payments
                                                    from the contractors ranging from $500 to $2,000. The supervisor and two contractors were prosecuted in federal
                                                    court. The supervisor was sentenced to 37 months of imprisonment and 36 months of probation. The contractors were
                                                    sentenced to 3 years of probation. The defendants were ordered to jointly pay $330,000 in restitution to the Postal
                                                    Service. Both contractors were debarred for a period of 3 years and the supervisor resigned from the Postal Service.

                                                   An OIG investigation determined that an Illinois contractor’s sales representative to the Postal Service frequently entered
                                                    a Postal Service Vehicle Maintenance Facility and disposed of large quantities of soap products in order to sell higher
                                                    volumes of the soap to the Postal Service, increasing commissions for both the contractor and the sales representative.
                                                    The Postal Service terminated the contract. In January, the sales representative pled guilty in federal court to mail fraud
                                                    and theft of public money, property, or records. The sales representative received a sentence of 9 months imprison-
                                                    ment, 5 months of home confinement, 2 years of supervised release, 20 hours of community service, and was ordered
                                                    to pay $102,510 in restitution and a $1,000 fine to the Postal Service.




28                                                                                                                                            Semiannual Report to Congress

                                                                         Table of Contents
                                                                                                                                 GENERAL CRIMES
GENERAL CRIMES
 An OIG investigation found that an Ohio rural carrier fraudulently received state unemployment benefits between
   August 2009 and May 2011. The carrier failed to accurately report to the state income earned while employed by the
   Postal Service, thereby increasing the unemployment compensation owed to the state by the Postal Service. In May, the
   carrier was sentenced to 2 years of probation and ordered to pay restitution of about $26,900 after pleading guilty in
   state court to theft and telecommunications fraud.

 Two Massachusetts letter carriers and two non-Postal Service co-conspirators pled guilty in federal court to possession
   and conspiracy to distribute cocaine. In April 2011, OIG agents initiated an investigation into the two letter carriers for
   possession and distribution of cocaine while on duty. The four defendants were arrested in September 2011. During
   the arrest, OIG agents seized more than 250 grams of cocaine, as well as drug paraphernalia, $3,400 in cash, and
   fraudulent Social Security cards. As a result of the investigation, both letter carriers resigned from the Postal Service.
   In May, a non-postal defendant was sentenced to 24 months imprisonment, followed by 3 years of supervised release.
   A month later, one of the former letter carriers received a sentence of 8 months imprisonment, 3 years of supervised
   release, and was ordered to pay a $1,500 fine. Later in the summer, a non-postal defendant was sentenced to1 year
   imprisonment, 3 years of supervised release, and was ordered to pay a $1,000 fine. In October, the other former letter
   carrier was sentenced to 8 months imprisonment, followed by 3 years of supervised release.

 In July, a Connecticut clerk was sentenced in state court to 5 years imprisonment and 10 years of probation after
   pleading guilty to criminal attempt at possession of child pornography. During the investigation, agents determined that
   the clerk regularly used his Postal Service-issued computer to search for pornographic materials and images involv-
   ing children engaged in sexual acts. During an interview with agents, the clerk admitted to using his Postal Service
   computer to access pornographic websites on more than one thousand occasions. As a result of the investigation, the
   Postal Service terminated the clerk.

 An investigation determined that a former Maryland temporary clerk accessed change of address information provided
   by postal customers to facilitate an identity theft scheme with three co-conspirators. The defendants obtained personal
   identifiable information and counterfeit driver’s licenses to fraudulently open “instant credit” accounts in the names of
   the victims. They purchased high-end electronics and other expensive merchandise, before the victims became aware
   of the existence of the account. This resulted in approximately $500,000 in bank losses. In April, the former temporary
   clerk pled guilty in federal court to conspiracy to commit bank fraud and aggravated identity theft; and aiding and
   abetting; and was sentenced to 70 months imprisonment, 3 years of supervised release, and ordered to pay nearly
   $610,000 in restitution. The Postal Service terminated the clerk.


EXECUTIVE INVESTIGATIONS AND INTERNAL AFFAIRS
OI conducts criminal and administrative investigations of Postal Service executives, and OIG and Postal Inspection Service
personnel, as well as whistleblower reprisal investigations.

Whistleblower Reprisal Activity
The Whistleblower Protection Act does not apply to the Postal Service. However, the Postal Service has its own policy
governing whistleblower retaliation. The policy prohibits retaliation against employees who have disclosed information they
reasonably believe to be: 1) a violation of any rule, law or regulation, or 2) a gross waste of funds, gross mismanagement,
abuse of authority, or a substantial and specific danger to public health or safety.

 Allegations received:................................80
 OIG investigations initiated:....................... 13
 Investigations closed with no actions:........18
 Allegations closed with no action:.............82
 Open investigations:...................................4
 OIG found reprisal:.....................................0




April 1 — September 30, 2012                                                                                                                 29

                                                                  Table of Contents
30                       Semiannual Report to Congress

     Table of Contents
Appendices




      Table of Contents
APPENDIX A




APPENDICES
The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 30 and March 31. These
reports are sent to Congress and made available to the public.

This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with recommendations and corrective actions related
to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the period April 1— September 30, 2012

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory (MA) reports in accordance with the identified needs of the project.



Summary
                                                                                                                         Unsupported
Risk Categories                     Number of Reports      Funds Put to Better Use        Questioned Costs           Questioned Costs             Revenue Impact
Strategic                                           12                $17,600,000                $8,805,460                         —               $646,535,774
Financial                                           45             $7,621,094,686             $102,308,460                $ 96,477,653                 $4,611,087
Operational                                         47               $605,711,381            $1,091,269,802                $6,328,371                $45,268,635
SUB-TOTAL                                         104             $8,244,406,067            $1,202,383,722               $102,806,024               $696,415,496
PARIS Risk Model Reports                            40                         —                         —                          —                             —
TOTAL                                             144             $8,244,406,067            $1,202,383,722               $102,806,024               $696,415,496




Fiscal Year 2012 Summary
For the period October 1, 2011— September 30, 2012

                                                                                                                         Unsupported
Risk Categories                     Number of Reports      Funds Put to Better Use        Questioned Costs           Questioned Costs             Revenue Impact
Issused Reports                                   168              $9,291,590,525            $1,979,766,966              $852,297,331               $801,473,754
PARIS Risk Models Report                            71                         —                         —                          —                             —
TOTAL                                             239             $9,291,590,525             $1,979,766,966              $852,297,331               $801,473,754




32                                                                                                                             Semiannual Report to Congress

                                                               Table of Contents
                                                                                                                                                     APPENDIX A




   Definitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.
   Unsupported Questioned Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.
   Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.
   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In
   addition, this category includes increased revenue from existing functions and generating revenue from new sources.
   PARIS Risk Models. Performance and Results Information Systems (PARIS) models with data visualization techniques. These models identify operational
   and financial risks, and enable OA staff to conduct reviews of Postal Service functions on a nationwide basis, while also identifying areas of emerging risk
   — fundamentally changing the way the OIG examines and monitors risk. We present quarterly summary results and trend analyses of these risk models to
   key Postal Service executives and stakeholders.


Reports with Quantifiable Potential Monetary Benefits
                                                                                     Funds Put                              Unsupported
                                                                                  to Better Use    Questioned Costs     Questioned Costs          Revenue Impact
STRATEGIC RISK
Marketing and Service
Customer Complaint Resolution Process; MS-AR-12-007; 9/10/2012                      $17,600,000           $8,800,000                     —                        —
Package Delivery Growth; MS-AR-12-003; 5/4/2012                                              —                     —                     —            $646,535,774
Planning, Innovation, and Optimization
Cost of Appeals for Closing Postal Service-Operated Retail Facilities;                       —                 $5,460                    —                        —
CI-AR-12-005; 7/12/2012
FINANCIAL RISK
Cost, Pricing, and Rates
In-Office Cost System Inputs into the Cost and Revenue Analysis Report;              $4,289,691                    —                     —                        —
CRR-AR-12-004; 5/30/2012
Facilities, Environmental, and Sustainability
Lease Purchase Options for Postal Service Facilities; DA-AR-12-002; 9/18/2012                —             $1,704,786                    —              $2,443,268
Financial
Controls Over the Check Acceptance Process; FI-MA-12-016; 9/6/2012                           —                     —                     —               $760,764
Controls Over Indemnity Claims; FF-AR-12-004; 6/11/2012                                      —             $2,109,309            $2,109,309                       —
Evaluation of the External First-Class Measurement System;                          $11,870,546                    —                     —                        —
FF-AR-12-006; 9/18/2012
Follow-Up on Financial Accountability Audit Report Recommendations;                          —             $2,782,794            $2,782,794                       —
FF-AR-12-009; 9/28/2012
Revenue Sharing Agreements; FI-AR-12-004; 9/14/2012                                          —                     —                     —              $1,407,055
Unclaimed Funds; FF-AR-12-003; 4/16/2012                                               $865,838                    —                     —                        —
Financial Reporting
Pension and Retiree Health Care Funding Levels; FT-MA-12-002; 6/18/2012           $7,600,000,000                   —                     —                        —
Marketing and Service
Stamp Manufacturing and Inventory Management; MS-AR-12-006; 7/23/2012                $4,068,611            $4,068,611                    —                        —
Supply Management
International Transportation Payments; CA-AR-12-007; 9/28/2012                               —           $91,585,550            $91,585,550                       —
Audit of Serco, Incorporated Incurred Costs for Fiscal Year 2008;                            —                $57,410                    —                        —
CA-CAR-12-009; 8/7/2012



April 1 — September 30, 2012                                                                                                                                      33

                                                                          Table of Contents
APPENDIX A




                                                                                       Funds Put                             Unsupported
                                                                                    to Better Use    Questioned Costs    Questioned Costs    Revenue Impact
OPERATIONAL RISK
Delivery
Carrier Optimal Routing System Phase ll; DR-AR-12-005; 8/21/2012                      $173,512,846         $84,446,027                 —                 —
City Delivery — Excess Routes; DR-AR-12-002; 6/19/2012                                   $500,220                  —                   —                 —
City Delivery Operations — Brick Main Post Office; DR-MA-12-004; 9/27/2012               $667,528            $560,592            $560,592                —
City Delivery Operations — Lancaster Carrier Annex; DR-MA-12-003; 9/28/2012             $1,031,676           $868,388                  —                 —
City Delivery Staffing; DR-AR-12-006; 8/24/2012                                       $233,710,548                 —                   —                 —
City Delivery — Street Efficiency Capital District; DR-AR-12-003; 8/16/2012             $9,138,265                 —                   —                 —
City Delivery — Street Efficiency Louisiana District; DR-AR-12-004; 8/16/2012           $8,874,598                 —                   —                 —
City Delivery — Street Efficiency San Diego District; DR-AR-12-001; 6/5/2012            $6,840,240                 —                   —                 —
Facilities, Environmental, and Sustainability
Land Optimization — Central Illinois District; DA-AR-12-001; 9/19/2012                         —                   —                   —         $42,337,385
Land Optimization — Northern Virginia District; DA-AR-12-003; 9/28/2012                        —                   —                   —          $2,931,250
Information Technology
Cloud Computing; IT-AR-12-006; 5/9/2012                                                 $5,349,675                 —                   —                 —
Virtualization Technology; IT-AR-12-007; 5/18/2012                                      $4,528,776                 —                   —                 —
Network Processing
Assessment of Overall Plant Efficiency 2012; NO-MA-12-001; 4/27/2012                           —          $664,997,872                 —                 —
Efficiency Review of the Cleveland, OH Processing and Distribution Center;             $22,747,745                 —                   —                 —
NO-AR-12-005; 6/5/2012
Efficiency of the Los Angeles, CA International Service Center;                         $4,318,829                 —                   —                 —
NO-AR-12-009; 09/21/2012
Efficiency Review of the Los Angeles Network Distribution Center;                      $13,036,879                 —                   —                 —
NO-AR-12-007; 8/3/2012
Frederick, MD to Baltimore, MD Area Mail Processing Consolidation;                       $558,021                  —                   —                 —
NO-AR-12-006; 7/3/2012
Retail, Business, and International
Efficiency of Customer Service Operations; EN-AR-12-003; 8/17/2012                             —          $285,725,051                 —                 —
Supply Management
Oversight of Equitable Adjustments; CA-AR-12-006; 9/28/2012                                    —              $80,347             $80,347                —
Unauthorized Contractual Commitments; CA-AR-12-004; 8/6/2012                                   —            $5,687,432          $5,687,432               —
Transportation
Atlanta Network Distribution Center — Postal Vehicle Service Operations;                 $694,105                  —                   —                 —
NL-AR-12-007; 7/24/2012
First-Class Mail on Air Transportation — Assignment by Weight;                          $9,968,164         $22,200,308                 —                 —
NL-AR-12-010; 9/28/2012
Mail Transport Equipment — Shortages of Pallets, Tubs, and Trays — Fall 2011                   —           $26,703,785                 —                 —
Mailing Season; NL-AR-12-011; 9/28/2012
POSTAL SERVICE INITIATIVE: Consolidation of Mail for Transportation Between           $15,365,532                  —                   —                 —
Network Distribution Centers; NL-AR-12-006; 5/29/2012
Postal Vehicle Service — Nationwide Analysis; NL-AR-12-005; 4/25/2012                 $94,268,786                  —                   —                 —
St. Louis Network Distribution Center — Postal Vehicle Service Operations;               $598,948                  —                   —                 —
NL-AR-12-008; 9/21/2012
TOTAL                                                                               $8,244,406,067      $1,202,383,722        $102,806,024      $696,415,496




34                                                                                                                             Semiannual Report to Congress

                                                                             Table of Contents
                                                                                                                                                APPENDIX A
Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period April 1— September 30, 2012

STRATEGIC RISK                                        Financial                                            Fiscal Year 2012 Field Testing Control and
                                                                                                           Oversight Plant Verified Drop Shipment Reviews,
Facilities, Environmental, and Sustainability         Controls Over the Check Acceptance Process;          Quarter 3; FI-MA-12-015; 8/30/2012
                                                      FI-MA-12-016; 9/6/2012
21st Century Post Office: Non-Postal Products and
                                                                                                           Revenue Sharing Agreements; FI-AR-12-004;
Services; DA-MA-12-005; 7/16/2012                     Controls Over Indemnity Claims; FF-AR-12-004;        9/14/2012
                                                      6/11/2012
Partnerships with Other Government Agencies;
                                                                                                           Review of Fiscal Years 2012 and 2013 Liquidity;
DA-MA-12-006; 9/28/2012                               Evaluation of the External First-Class Measurement   FI-WP-12-001; 7/25/2012
                                                      System; FF-AR-12-006; 9/18/2012
Human Resources and Security
                                                                                                           U.S. Postal Service Alternate Health Care Plan
                                                      Financial Controls Over Automated Postal Centers;    Proposal; FI-MA-12-014; 8/22/2012
Employee Retirement Options; HR-MA-12-001;            FI-MA-12-007; 5/17/2012
5/2/2012
                                                                                                           Use of Data Within Finance and Planning’s Field
                                                      Financial Controls Over Business Reply Mail at       Budget Process; FF-AR-12-005; 9/20/2012
Marketing and Service                                 the Roanoke, VA Main Post Office; FI-AR-12-003;
Customer Complaint Resolution Process; MS-            6/4/2012                                             Unclaimed Funds; FF-AR-12-003; 4/16/2012
AR-12-007; 9/10/2012                                  Follow-Up on Financial Accountability Audit Report   Financial Reporting
Every Door Direct Mail — Retail; MS-AR-12-004;        Recommendations; FF-AR-12-009; 9/28/2012
                                                                                                           Domestic Air Mail Irregularities; FT-AR-12-015;
5/7/2012                                              Management of Business Master Trust Accounts;        9/28/2012
Package Delivery Growth; MS-AR-12-003;                FF-MA-12-010; 9/5/2012
                                                                                                           Independent Report on Employee Benefits,
5/4/2012                                              Post Office Discontinuance Accounting Procedures;    Withholdings, Contributions, and Supplemental
Summary of Focus Group Discussions on the             FF-AR-12-007; 9/25/2012                              Semiannual Headcount Reporting Submitted to the
Future of First-Class Mail; MS-MA-12-001;                                                                  Office of Personnel Management; FT-AR-12-013;
                                                      Fiscal Year 2012 Field Testing Control and           9/25/2012
4/20/2012                                             Oversight Business Mail Entry Unit/Staged
Planning, Innovation, and Optimization                Detached Mail Unit Reviews, Quarter 2;               New Jersey Network Distribution Center —
                                                      FI-MA-12-009; 5/29/2012                              International Air Mail Records Unit; FT-AR-12-011;
Cost of Appeals for Closing Postal Service-                                                                8/10/2012
Operated Retail Facilities; CI-AR-12-005;             Fiscal Year 2012 Field Testing Control and
7/12/2012                                             Oversight Business Reply Mail Reviews, Quarter 2;    Pension and Retiree Health Care Funding Levels;
                                                      FI-MA-12-008; 5/21/2012                              FT-MA-12-002; 6/18/2012
Delivery Fleet Strategies; CI-AR-12-006;
8/14/2012                                             Fiscal Year 2012 Field Testing Control and           Processing of Meter Activity; FT-AR-12-012;
                                                      Oversight Continuous Detached Mail Unit Reviews,     9/6/2012
Smart Team                                            Quarter 2; FI-MA-12-010; 6/5/2012
                                                                                                           Travel Expense Reimbursements and Travel Card
Email Management Services: Opportunity for the        Fiscal Year 2012 Field Testing Control and           Usage; FT-AR-12-014; 9/27/2012
Postal Service; SMT-WP-12-001; 9/27/2012              Oversight Plant Verified Drop Shipment Reviews,
                                                      Quarter 2; FI-MA-12-006; 5/16/2012                   U.S. Postal Service Export Controls Monitoring
Ideation Software Solution Comparative Analysis;                                                           Program; FT-MA-12-001; 4/17/2012
SMT-WP-12-002; 9/28/2012                              Fiscal Year 2012 Field Testing Control and
                                                      Oversight Business Mail Entry Unit/Staged            U.S. Postal Service Export Controls Monitoring
Supply Management                                                                                          Program — Phase II; FT-MA-12-003; 9/14/2012
                                                      Detached Mail Unit Reviews, Quarter 3;
Benchmarking Sustainability Contracting Practices;    FI-MA-12-011; 8/16/2012                              Human Resources and Security
CA-MA-12-002; 8/8/2012
                                                      Fiscal Year 2012 Field Testing Control and           Rehabilitation Assignments for Employees Injured
FINANCIAL RISK                                        Oversight Business Reply Mail Reviews, Quarter 3;    on Duty; HR-AR-12-004; 8/27/2012
                                                      FI-MA-12-012; 8/16/2012
Cost, Pricing, and Rates                                                                                   Marketing and Service
                                                      Fiscal Year 2012 Field Testing Control and
In-Office Cost System Inputs into the Cost and                                                             Carrier Contributions to Revenue Generation and
                                                      Oversight Continuous Detached Mail Unit Reviews,
Revenue Analysis Report; CRR-AR-12-004;                                                                    Customer Service; MS-AR-12-005; 6/19/2012
                                                      Quarter 3; FI-MA-12-015; 8/30/2012
5/30/2012
                                                      Fiscal Year 2012 Field Testing Control and           Federal Sector Web Pages: Opportunities for
Facilities, Environmental, and Sustainability                                                              Enhancement; MS-MA-12-002; 9/12/2012
                                                      Oversight Plant Verified Drop Shipment Reviews,
Lease Purchase Options for Postal Service             Quarter 3; FI-MA-12-013; 8/17/2012                   Stamp Manufacturing and Inventory Management;
Facilities; DA-AR-12-002; 9/18/2012                                                                        MS-AR-12-006; 7/23/2012


April 1 — September 30, 2012                                                                                                                                 35

                                                              Table of Contents
APPENDIX A
Planning, Innovation, and Optimization                   City Delivery — Street Efficiency San Diego          Planning, Innovation, and Optimization
                                                         District; DR-AR-12-001; 6/5/2012
Closure of Contract Postal Units; CI-MA-12-001;                                                               Post-Implementation Review Process; CI-
8/16/2012                                                Survey of Postmasters’ Paperwork and Reporting       AR-12-007; 9/28/2012
                                                         Requirements; DR-MA-12-001; 5/25/2012
Retail, Business, and International                                                                           Postal Service Retail Facilities Optimization
                                                         Vehicle Parts Inventory Management — Northeast       Options; CI-MA-12-002; 9/17/2012
Competition in the International Outbound Mail           Area; DR-AR-12-007; 9/24/2012
Market; EN-WP-12-001; 5/18/2012                                                                               Retail, Business, and International
                                                         Facilities, Environmental, and Sustainability
Supply Management                                                                                             Commercial Mail Entry and Acceptance Initiatives;
                                                         Accuracy of the Electronic Facilities Management     EN-AR-12-004; 9/14/2012
Audit of Accenture Federal Services, LLC’s               System; DA-AR-12-004; 9/28/2012
Estimating System and Related Internal Controls;                                                              Efficiency of Customer Service Operations; EN-
CA-CAR-12-008; 6/26/2012                                 Land Optimization — Central Illinois District; DA-   AR-12-003; 8/17/2012
                                                         AR-12-001; 9/19/2012
Bell and Howell, LLC Pricing Rates for the MERLIN                                                             Supply Management
Level of Effort Maintenance Support for Fiscal Year      Land Optimization — Northern Virginia District;
2012; CA-CAR-12-011; 9/25/2012                           DA-AR-12-003; 9/28/2012                              Contract Management Data — Transportation
                                                                                                              Contract Support System; CA-AR-12-005;
Financial Condition Risk Assessment on The               Human Resources and Security                         8/9/2012
Siebold Company, Inc.; CA-CAR-12-007;
4/16/2012                                                Arrow Key Alternatives; HR-MA-12-002;                Do Not Pay List; CA-AR-12-003; 7/26/2012
                                                         9/12/2012
Financial Risk Assessment of Tracie McCormick,                                                                Oversight of Equitable Adjustments; CA-
Inc.; CA-CAR-12-013; 9/24/2012                           Motor Vehicle Accident Prevention Program; HR-       AR-12-006; 9/28/2012
                                                         AR-12-006; 9/21/2012
Financial Risk Assessment of Videojet, Inc. and                                                               Suspension and Debarment Program; CA-
Danaher Corporation; CA-CAR-12-012; 9/24/2012            Postal Service Challenges in the Equal Employment    AR-12-002; 5/30/2012
                                                         Opportunity Process; HR-MA-12-003; 9/21/2012
International Transportation Payments; CA-                                                                    Unauthorized Contractual Commitments; CA-
AR-12-007; 9/28/2012                                     State of Security; HR-AR-12-005; 9/12/2012           AR-12-004; 8/6/2012

Audit of Serco, Incorporated Incurred Costs for          Information Technology                               Transportation
Fiscal Year 2008; CA-CAR-12-009; 8/07/2012               Cloud Computing; IT-AR-12-006; 5/9/2012              Atlanta Network Distribution Center — Postal
URS Group, Incorporated Incurred Costs for Fiscal                                                             Vehicle Service Operations; NL-AR-12-007;
                                                         Security Awareness Training Program; IT-             7/24/2012
Year 2006; CA-CAR-12-010; 9/24/2012                      AR-12-008; 6/25/2012
OPERATIONAL RISK                                                                                              First-Class Mail on Air Transportation —
                                                         Security of File Transfer Protocol Transmissions;    Assignment by Weight; NL-AR-12-010; 9/28/2012
Cost, Pricing, and Rates                                 IT-AR-12-009; 9/12/2012
                                                                                                              Global Positioning System Technology for Highway
Service Performance Measurement Data —                   Virtualization Technology; IT-AR-12-007;             Contract Routes; NL-AR-12-009; 9/21/2012
Commercial Mail; CRR-AR-12-005; 6/25/2012                5/18/2012
                                                                                                              Mail Transport Equipment — Shortages of Pallets,
Delivery                                                 Network Processing                                   Tubs, and Trays — Fall 2011 Mailing Season; NL-
                                                         Assessment of Overall Plant Efficiency 2012; NO-     AR-12-011; 9/28/2012
Carrier Optimal Routing System Phase ll; DR-
AR-12-005; 8/21/2012                                     MA-12-001; 4/27/2012                                 POSTAL SERVICE INITIATIVE: Consolidation of Mail
                                                         Efficiency Review of the Cleveland, OH Processing    for Transportation Between Network Distribution
City Delivery — Excess Routes; DR-AR-12-002;
                                                         and Distribution Center; NO-AR-12-005; 6/5/2012      Centers; NL-AR-12-006; 5/29/2012
6/19/2012
                                                         Efficiency of the Los Angeles, CA International      Postal Vehicle Service — Nationwide Analysis;
City Delivery Operations — Brick Main Post Office;
                                                         Service Center; NO-AR-12-009; 09/21/2012             NL-AR-12-005; 4/25/2012
DR-MA-12-004; 9/27/2012
                                                         Efficiency Review of the Los Angeles Network         St. Louis Network Distribution Center — Postal
City Delivery Operations — Lancaster Carrier
                                                         Distribution Center; NO-AR-12-007; 8/3/2012          Vehicle Service Operations; NL-AR-12-008;
Annex; DR-MA-12-003; 9/28/2012
                                                                                                              9/21/2012
City Delivery Route Optimization Pilot Initiative; DR-   Frederick, MD to Baltimore, MD Area Mail
                                                         Processing Consolidation; NO-AR-12-006;              Survey of System Users of the Global Positioning
MA-12-002; 8/24/2012
                                                         7/3/2012                                             System for Highway Contract Routes; NL-
City Delivery Staffing; DR-AR-12-006; 8/24/2012                                                               MA-12-001; 8/14/2012
                                                         Timely Processing of Mail at the Pittsburgh,
City Delivery — Street Efficiency Capital District;      PA Processing and Distribution Center; NO-
DR-AR-12-003; 8/16/2012                                  AR-12-008; 9/18/2012
City Delivery — Street Efficiency Louisiana District;    Timeliness of Mail Processing at Processing and
DR-AR-12-004; 8/16/2012                                  Distribution Centers; NO-AR-12-010; 9/28/2012



36                                                                                                                               Semiannual Report to Congress

                                                                 Table of Contents
                                                                                                                                             APPENDIX A
PARIS Risk Models
Complete listing of all OIG PARIS Risk Models issued to Postal Service management.

For the period April 1— September 30, 2012
Cost, Pricing, and Rates                             Financial Reporting                                Fiscal Year 2012 Machines That Speak Risk Model
                                                                                                        Quarter 3; NO-ID-12-005; 7/17/2012
Fiscal Year 2012 Cost, Pricing, and Rates Risk       Fiscal Year 2012 Bank Secrecy Act Risk Model
Model Quarter 2; CRR-ID-12-003; 5/15/2012            Quarter 2; FT-ID-12-005; 5/9/2012                  Fiscal Year 2012 Network and Delivery
                                                                                                        Optimization Risk Model Quarter 1; NO-ID-12-002;
Fiscal Year 2012 Cost, Pricing, and Rates Risk       Fiscal Year 2012 Bank Secrecy Act Risk Model       4/25/2012
Model Quarter 3; CRR-ID-12-004; 8/15/2012            Quarter 3; FT-ID-12-008; 8/14/2012
                                                                                                        Fiscal Year 2012 Network and Delivery
Delivery                                             Fiscal Year 2012 General Ledger Risk Model         Optimization Risk Model Quarter 2; NO-ID-12-004;
                                                     Quarter 2; FT-ID-12-006; 5/11/2012                 5/23/2012
Fiscal Year 2012 City Delivery Efficiency Risk
Model Quarter 2; DR-ID-12-003; 5/25/2012             Fiscal Year 2012 General Ledger Risk Model         Fiscal Year 2012 Network and Delivery
                                                     Quarter 3; FT-ID-12-007; 8/10/2012                 Optimization Risk Model Quarter 3; NO-ID-12-006;
Fiscal Year 2012 City Delivery Efficiency Risk
Model Quarter 3; DR-ID-12-004; 8/14/2012             Review of the Securities and Exchange              9/11/2012
                                                     Commission Office of Inspector General             Planning, Innovation, and Optimization
Facilities, Environmental, and Sustainability        Workpapers and Final Report Addressing the
Fiscal Year 2012 Green Risk Model Quarter 2; DA-     Securities and Exchange Commission’s Restacking    Fiscal Year 2012 Workplace Environment Risk
ID-12-006; 5/16/2012                                 Project; FT-ID-12-009; 9/28/2012                   Model Quarter 2; CI-ID-12-018; 5/29/2012

Fiscal Year 2012 Green Risk Model Quarter 3; DA-     Human Resources and Security                       Fiscal Year 2012 Workplace Environment Risk
ID-12-009; 8/16/2012                                                                                    Model Quarter 3; CI-ID-12-024; 8/28/2012
                                                     Fiscal Year 2011 Human Capital Optimization Risk
Fiscal Year 2012 Maintenance Risk Model Quarter      Model Quarter 4; HR-ID-12-005; 7/11/2012           Retail, Business, and International
1; DA-ID-12-008; 7/5/2012                            Fiscal Year 2011 Security Risk Model Quarter 4;    Fiscal Year 2012 Revenue Generation and
Fiscal Year 2012 Real Estate Risk Model Quarter 2;   HR-ID-12-006; 7/12/2012                            Assurance Risk Model Quarter 2; EN-ID-12-003;
DA-ID-12-007; 5/29/2012                                                                                 5/16/2012
                                                     Fiscal Year 2012 Human Capital Optimization Risk
Fiscal Year 2012 Real Estate Risk Model Quarter 3;   Model Quarter 2; HR-ID-12-004; 7/11/2012           Fiscal Year 2012 Revenue Generation and
DA-ID-12-010; 8/17/2012                                                                                 Assurance Risk Model Quarter 3; EN-ID-12-004;
                                                     Fiscal Year 2012 Human Capital Optimization Risk   8/13/2012
Financial                                            Model Quarter 3; HR-ID-12-008; 9/24/2012
                                                                                                        Supply Management
Fiscal Year 2011 Business Mail Entry Unit Risk       Fiscal Year 2012 Security Risk Model Quarter 3;
Model Quarter 4; FI-ID-12-003; 4/23/2012             HR-ID-12-007; 9/24/2012                            Fiscal Year 2012 Supplier Solvency Risk Model
                                                                                                        Quarter 2; CA-ID-12-003; 5/11/2012
Fiscal Year 2012 Audit of Confidential Funds; FF-    Information Technology
ID-12-010; 6/27/2012                                                                                    Fiscal Year 2012 Supplier Solvency Risk Model
                                                     Fiscal Year 2012 Information Technology Security   Quarter 3; CA-ID-12-004; 8/14/2012
Fiscal Year 2012 Business Mail Entry Unit Risk       Risk Model Quarter 2; IT-ID-12-004; 6/27/2012
Model Quarter 2; FI-ID-12-006; 7/13/2012                                                                Transportation
                                                     Pen Test U.S. Postal Service Office of Inspector
Fiscal Year 2012 Business Mail Entry Unit Risk       General Information Technology Development Web     Fiscal Year 2012 Air Transportation Risk Model
Model Quarter 3; FI-ID-12-007; 8/28/2012             Server; IT-ID-12-003; 5/9/2012                     Quarter 2; NL-ID-12-006; 5/15/2012

Fiscal Year 2012 Cost and Controls Risk Model        Marketing and Services                             Fiscal Year 2012 Air Transportation Risk Model
Quarter 2; FF-ID-12-008; 5/10/2012                                                                      Quarter 3; NL-ID-12-008; 8/14/2012
                                                     Fiscal Year 2012 Retail Customer Service Risk
Fiscal Year 2012 Cost and Controls Model Quarter     Model Quarter 2; MS-ID-12-003; 5/15/2012           Fiscal Year 2012 Surface Transportation Risk
3; FF-ID-12-011; 8/28/2012                                                                              Model Quarter 2; NL-ID-12-005; 5/3/2012
                                                     Fiscal Year 2012 Retail Customer Service Risk
Fiscal Year 2012 Form 10Q Financial Report           Model Quarter 3; MS-ID-12-004; 8/15/2012           Fiscal Year 2012 Surface Transportation Risk
Review, Quarter 1; FI-ID-12-004; 4/23/2012                                                              Model Quarter 3; NL-ID-12-007; 8/9/2012
                                                     Network Processing
Fiscal Year 2012 Form 10Q Financial Report           Fiscal Year 2012 Machines That Speak Risk Model
Review, Quarter 2; FI-ID-12-005; 6/14/2012           Quarter 2; NO-ID-12-003; 5/17/2012
Fiscal Year 2012 Form 10Q Financial Report
Review, Quarter 3; FI-ID-12-008; 9/4/2012




April 1 — September 30, 2012                                                                                                                             37

                                                             Table of Contents
APPENDIX B




APPENDIX B
Findings of Questioned Costs
For the period April 1 — September 30, 2012


As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

                                                                                                                                               Unsupported Costs
                                                                                                                                                      Included in
Description                                                                                  Number of Reports        Questioned Costs          Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period                   —                          —                          —
Reports requiring management decision that were issued during the reporting period                            17           $ 1,202,383,722               $ 102,806,024
TOTAL                                                                                                         17           $1,202,383,722                $102,806,024


Reports for which a management decision was made during the reporting period (i & ii)                         17           $ 1,202,383,722               $ 102,806,024
     (i) Dollar Value of disallowed cost                                                                      10             $ 970,630,753                 $ 6,165,371
     (ii) Dollar value of cost not disallowed
                                            1
                                                                                                               9             $ 231,752,969               $ 96,640,653
Reports for which no management decision was made by the end of the reporting period                         —                          —                          —
Negotiations are ongoing
Reports for which no management decision was made within 6 months of issuance                                —                          —                          —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                  —                          —                          —
(See Note 2 for a list of individual reports)
Contract reports with a significant audit finding                                                            —                          —                          —
(See Note 3 for a list of individual reports)


Management partially agreed with the monetary impact of two audit reports.
1




Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period
Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period
Note 3 — Contract reports with a significant audit finding:
None for this report period




38                                                                                                                                 Semiannual Report to Congress

                                                                         Table of Contents
                                                                                                                                                    APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period April 1 — September 30, 2012

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.



Description                                                                                  Number of Reports    Dollar Value
Reports for which no management decision was made at the beginning of the reporting period                  —                —
Reports issued during the reporting period                                                                  25   $ 8,244,406,067
TOTAL                                                                                                       25   $8,244,406,067


Reports for which a management decision was made during the report period (i & ii)                          25   $ 8,244,406,067
    (i) Value of recommendations agreed to by management                                                    14   $ 7,677,591,974
    (ii) Value of recommendations that were not agreed to by management1                                    12    $ 566,814,093
Reports for which no management decision was made by the end of the reporting period                        —                —
Reports for which no management decision was made within 6 months of issuance                               —                —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                 —                —
(See Note 2 for a list of individual reports)


Management partially agreed with the monetary impact of one audit report.
1




Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period


Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period




April 1 — September 30, 2012                                                                                                                                   39

                                                                           Table of Contents
APPENDIX D




APPENDIX D
Other Impacts
For the period April 1, 2011— September 30, 2012

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets and improvements in the reliability of data.



                                                                                                                                     Type of Measure                       Value or Amount
IMPROVED SERVICE
Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its products                   Number of Recommendations                            32
and services
Number of customer service audits conducted                                                                                          Number of Audits                                     28


SAFEGUARDING ASSETS
Assets or Accountable Items at Risk
Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                  Dollar Value                                $132,659,63
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to inadequate                Dollar Value                                         —
physical protection
Recommendations that address the safety and security of Postal Service employees and/or the work environment                         Number of Recommendations                            16
Number of employee/facility safety and security audits conducted                                                                     Number of Audits                                     36
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss         Dollar Value                                         —
Dollar value of data at risk                                                                                                         Dollar Value                                $63,545,900
Number of data security/IT security audits conducted                                                                                 Number of Audits                                     24
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing. (Mailers seeking alternative solutions for current services)   Dollar Value                               $168,921,838
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                     Dollar Value                                 $27,372,747
Goodwill/Branding
An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a                           Number of Issues Identified                          35
potential problem that could negatively impact the Postal Service “brand name”
Misallocation of Costs
A misallocation of costs can occur when Postal Service costs are misclassified as volume variable, product specific, or              Dollar Value                                         —
institutional costs
Capital Investment Savings Shortfall and Predicted Savings Shortfall
The difference between the savings predicted by the Decision Analysis Report for capital investment projects and the         Dollar Value                                       $307,000,000
actual savings realized, and the difference between the savings predicted by the Postal Service for a project (e.g., capital
investment, consolidation, etc.) and the actual savings realized or the OIG estimate of savings which will be realized
Potential Additional Revenue
Revenue the Postal Service could potentially generate for goods delivered or services rendered based on suggested                    Dollar Value                                $56,714,220
improvements




40                                                                                                                                                             Semiannual Report to Congress

                                                                               Table of Contents
                                                                                                                                                   APPENDIX D




                                                                                                               Type of Measure                  Value or Amount

RELIABILITY OF DATA
Records at Risk
Data at risk of corruption or loss due to inadequate internal controls and or protection                       Number of Data Records at Risk             22,766
Dollar value of data used to support management decisions that is not fully supported or completely accurate   Dollar Value                          $564,415,152




April 1 — September 30, 2012                                                                                                                                  41

                                                                             Table of Contents
APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period through September 30, 2012

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.



                                                   Report Title, Recommendation Summary
                                                          	 R = Recommendation number
Report Number                Issue Date                   	 TID = Target Implementation Date
IS-AR-07-017                 8/29/2007             Separation of Duties at the Eagan, MN; San Mateo, CA; and St. Louis, MO, Information Technology and Accounting
                                                   Service Centers

                                                   R-4 — Notify the U.S. Postal Inspection Service when a new Information Technology and Accounting Service Center position is
                                                         created, a new employee is hired, or an employee is promoted to a new position, to make certain the proper clearance
                                                         level is attributed to the employee. TID: December 2012
FF-AR-08-131                 3/19/2008             Fiscal Year 2007 Financial Installation Audits – Business Mail Entry Units

                                                   R-2 — Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are
                                                         received during non-business hours. TID: October 2012
FF-MA-08-001                 7/21/2008             Fiscal Year 2008 – Use of No-Fee Money Orders

                                                   R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal
                                                         Service’s exposure to financial loss. TID: September 2013
SA-AR-08-013                 8/22/2008             Security Clearances for Postal Service Employees

                                                   R-2 — Revise the Administrative Support Manual, as appropriate, to reflect changes to the list of positions requiring a security
                                                         clearance. TID: December 2012
IS-AR-08-016                 8/29/2008             Identity Theft Potential in the Change of Address Process
                                                   R-1 — Update the Internet and Telephone Change of Address applications to eliminate acceptance of anonymous prepaid
                                                         credit cards. TID: December 2012
IS-AR-09-001                 10/8/2008             Electronic Travel Voucher System Controls
                                                   R-1 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                                         government lodging rate, whenever practical. TID: February 2013
                                                   R-2 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify
                                                         exceeding the government lodging rate within the notes on the electronic voucher. TID: February 2013
IS-AR-09-004                 2/20/2009             Access Controls in the Enterprise Data Warehouse

                                                   R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required by
                                                         Postal Service Handbook AS-805-A, Application Information Security Assurance Process. TID: January 2013
EN-AR-09-005                 9/28/2009             Performance Goals for Market-Dominant Products

                                                   R-1 — Document the methodology used to develop future performance goals for market-dominant products.
                                                         TID: December 2012




42                                                                                                                                             Semiannual Report to Congress

                                                                Table of Contents
                                                                                                                                                              APPENDIX E




                                       Report Title, Recommendation Summary
                                              	 R = Recommendation number
Report Number            Issue Date           	 TID = Target Implementation Date
NL-AR-09-010             9/30/2009     Fuel Management Consumption Strategies for Surface Network Operations

                                       R-1 — Revise the fuel consumption strategy for surface network operations covering Postal Service and Highway Contract
                                             Route transportation to ensure that it is comprehensive and implements the industry best practices identified in our
                                             audit. TID: June 2011

                                       R-2 — Assess and implement all opportunities for owned, leased, and contracted vehicles to use technology to reduce wind
                                             resistance and identify the most viable advanced aerodynamics options consistent with industry best practices and
                                             adjust contracts as appropriate to account for the reduced fuel need. TID: June 2011

                                       R-3 — Establish and implement tire inflation maintenance requirements for its owned heavy-duty vehicle fleet, as well as its
                                             leased, and contracted vehicles consistent with industry best practices and adjust contracts as appropriate to account
                                             for the reduced fuel need. TID: June 2011

                                       R-5 — Evaluate Highway Contract Routes and, where feasible, implement speed limit requirements consistent with industry
                                             best practices and adjust contracts as appropriate to account for the reduced fuel need. TID: June 2011
IS-AR-10-002             12/22/2009    General Control Review of Human Resources Shared Service Center

                                       R-2 — Initiate appropriate security clearance investigations for all employees in sensitive positions at the Human Resources
                                             Shared Service Center. TID: December 2012
MS-AR-10-001             2/9/2010      Plant-Verified Drop Shipment Controls

                                       R-4 — Provide an electronic reporting solution whereby PS Form 8125, Plant-Verified Drop Shipment Verification and
                                             Clearance, information at the destination facility can be compared with the information at the origin location.
                                             Discrepancies or incomplete forms should be investigated. TID: December 2012
DR-AR-10-003             3/16/2010     Rural Delivery Christmas Operations

                                       R-1 — Renegotiate with the National Rural Letter Carriers Association (NRLCA) to eliminate the supplemental Christmas
                                             Overtime Pay Provision, Article 9.2(k), set forth in the NRLCA Agreement expiring in November 2010 and any
                                             subsequent NRLCA agreements. TID: December 2012
IS-AR-10-008              5/4/2010    Certification and Accreditation Process

                                      R-1 — Provide Corporate Information Security the authority necessary to enforce and execute the responsibilities for managing
                                            the Certification and Accreditation process. TID: December 2012

                                      R-3 — Ensure all portfolio managers receive mandatory training regarding their role, responsibility, and accountability for
                                            implementing and reinitiating the Certification and Accreditation process. This training should also be made available
                                            to all executive sponsors. TID: December 2012

                                      R-4 — Hold portfolio managers accountable to complete the Certification and Accreditation process within the Technology
                                            Solutions Life Cycle prior to implementing critical applications into the production environment. TID: December 2012

                                      R-5 — Complete the Certification and Accreditation process for all critical applications currently in production, as required by
                                            Handbook AS-805, Information Security. TID: December 2012

                                      R-6 — Ensure the portfolio managers work with the executive sponsors to initiate the recertification process for critical
                                            applications assigned to their functional areas as required by Handbook AS-805, Information Security.
                                            TID: December 2012

                                      R-7 — Develop a formal, centralized mechanism to track the status of all unmitigated residual risks identified in the applications’
                                            risk mitigation plan. TID: December 2012

                                      R-8 — Input unmitigated residual risks identified in the applications’ risk mitigation plan into the formal, centralized tracking
                                            mechanism and track the risks through resolution. TID: December 2012

                                      R-9 — Work with executive sponsors to resolve unmitigated residual risks identified in the risk mitigation plans and recertification
                                            letters associated with the critical applications. TID: December 2012

                                      R-12 — Input the Certification and Accreditation documentation for all critical applications into the central repository.
                                             TID: December 2012




April 1 — September 30, 2012                                                                                                                                                43

                                                     Table of Contents
APPENDIX E




                                Report Title, Recommendation Summary
                                       	 R = Recommendation number
Report Number   Report Number          	 TID = Target Implementation Date
CA-AR-10-004     5/27/2010      Contract Payment Terms

                                R-1 — Revise the Postal Service’s Supplying Principles and Practices, Section 512.2, Payment Time Frame, and other sections
                                      as necessary, with language stating that when contracting officers negotiate payment terms other than net
                                      30 days, they include the business rationale and associated documentation for the payment terms in the contract file.
                                      TID: February 2013
NO-MA-10-001     6/11/2010      Assessment of Overall Plant Efficiency 2010

                                R-1 — Reduce 16.2 million workhours by FY 2012 with an associated economic impact of $743,961,610.
                                      TID: December 2012
CI-MA-10-001     6/18/2010      Civil Service Retirement System Overpayment by the Postal Service

                                R-1 — Pursue all necessary actions, including those suggested by the Office of Inspector General, to either secure the return
                                      of the $75 billion overpayment or to otherwise realize the benefit of this overpayment to the Postal Service. TID: None
MS-AR-10-004     7/28/2010      Efficiency of Retail Customer Service Operations

                                R-2 — Explore opportunities to consolidate business mail acceptance operations at post offices, stations, and branches.
                                      TID: October 2012
FT-MA-10-001     8/16/2010      Federal Employees Retirement System Overfunding

                                R-1 — Pursue legislative action to alter the Postal Service’s Civil Service Retirement and Disability Fund Contributions for 1 or
                                      more years until the Federal Employees Retirement System surplus is extinguished. TID: September 2011

                                R-2 — Coordinate with the Office of Personnel Management to identify causes of actual payout differences between the
                                      Postal Service and the rest of the federal government and use that information to reduce the risk of future surpluses.
                                      TID: September 2011

                                R-3 — Pursue legislative action to define future distribution of significant surpluses. TID: September 2011

                                R-4 — Coordinate with the Office of Personnel Management to create a sub-account within the Civil Service Retirement and
                                      Disability Fund exclusive to the Postal Service. TID: September 2011
DA-MA-10-004     8/31/2010      Postal Service Patent Management

                                R-1 — Establish a strategic plan with timelines to capitalize on the Postal Service’s patent inventory strength.
                                      TID: June 2012
CA-AR-10-005     9/20/2010      U.S. Postal Service Purchasing Policies

                                R-5 — Take steps to ensure full and accurate tracking and public reporting of noncompetitive contracting actions. Data
                                      reported should include, but not be limited to, total dollars committed both competitively and noncompetitively; and
                                      the contractor, dollar value, and noncompetitive justifications for noncompetitive contracts. The tracking mechanism
                                      should be able to identify when a noncompetitive contract has crossed the review and approval threshold based on
                                      modification after initial award. TID: February 2012

                                R-9 — Institute an oversight mechanism to ensure and track compliance with updated noncompetitive contracting policies.
                                      TID: March 2012
IS-AR-10-014     9/23/2010      Controls Over Payment Card Transaction Data

                                R-1 — Finalize and implement a Payment Card Industry remediation plan that includes all associated costs, resources, and
                                      milestones needed to achieve and maintain Payment Card Industry-Data Security Standards compliance.
                                      TID: September 2013
NL-AR-10-010     9/29/2010      Air Networks – Federal Express Transportation Agreement – National Analysis

                                R-5 — Standardize Postal Service oversight at Terminal Handling Services operations to ensure adequate on-site Postal
                                      Service representation to monitor Federal Express operations and ensure local compliance with established processes
                                      and procedures. TID: October 2012




44                                                                                                                           Semiannual Report to Congress

                                              Table of Contents
                                                                                                                                                           APPENDIX E




                                      Report Title, Recommendation Summary
                                             	 R = Recommendation number
Report Number            Issue Date          	 TID = Target Implementation Date
NL-AR-10-009             9/29/2010    Management of Mail Transport Equipment - National Analysis

                                      R-1 — Further develop, update and reinforce national Mail Transport Equipment policies and procedures contained in the
                                            Postal Operations Manual and the Postal Handbook PO-502, Container Methods, which address mail transport
                                            equipment inventory and accountability controls, including validating customer mail transport equipment needs as well
                                            as tracking and reconciling mail transport equipment loaned to mailers and other external customers.
                                            TID: December 2012

                                      R-2 — Continue pursuing implementation of a planned automated mail transport equipment management system and ensure
                                            its functionality for inventory and accountability processes and for enhancing the Postal Service’s visibility into mail
                                            transport equipment internally and at mailers. TID: January 2013

                                      R-4 — Ensure that Area Distribution Networks’ Offices have appropriate resources assigned responsibly to monitor and
                                            manage Mail Transport Equipment, and maintain compliance with Postal Operations Manual requirements.
                                            TID: May 2012

                                      R-5 — Document the current process for identifying annual, routine Mail Transport Equipment purchase requirements and
                                            ensure the process includes Mail Transport Equipment Service Center network information and facility and mailer
                                            inventory data, to ensure that only the necessary amount of Mail Transport Equipment is purchased. TID: January 2013
CA-AR-10-006             9/30/2010    Certification Process for Electronic Payments

                                      R-1 — Develop an oversight mechanism to monitor and ensure contracting officers’ and/or designated officials’ receipt and
                                            certification of invoices. TID: October 2012

                                      R-2 — Reiterate to contracting officers and/or their designees their roles and responsibilities, and the importance of following
                                            Postal Service criteria, policies, and procedures for certification of invoices prior to payment to ensure that invoices are
                                            correct and goods and services were received. TID: October 2012

                                      R-3 — Develop and implement written procedures for receiving invoices for annual highway contract route services and
                                            verifying that services were rendered prior to payment. TID: October 2014

                                      R-5 — Review the $7.6 million in payments made more than 30 days after contract end dates and collect overpayments.
                                            TID: November 2012

                                      R-6 — Provide detailed, consistent training for all designated officials on their roles and responsibilities and the usage of the
                                            Utility Management System. TID: August 2011

                                      R-8 — Ensure that Utility Management System designated official contact information is accurate and that the system requires
                                            positive certification by the designated official before invoice payment. TID: November 2012

FT-MA-10-002             9/30/2010    Summary of Substantial Overfunding and Postal Service Pension and Retiree Health Care Funds

                                      R-1 — Develop a comprehensive legislative strategy to recover overfunded amounts. TID: September 2011

                                      R-2 — Aggressively pursue and carefully review all available data related to Civil Service Retirement System, Federal
                                            Employee Retirement System, and retiree health benefit calculations, including those associated with determining any
                                            overfunding situations, to ensure that calculations are reasonable and accurate. TID: September 2011
NL-MA-11-001             12/6/2010    Surface Mail Classes on Air Transportation Networks

                                      R-1 — Verify that actions already taken related to minimizing surface mail classes on the FedEx Day-Turn network are applied
                                            to other air networks to ensure transportation managers use surface transportation, instead of the FedEx Night-Turn,
                                            commercial air carrier, United Parcel Service, and Christmas air transportation networks to move surface mail types
                                            where possible. TID: December 2012

                                      R-2 — Routinely provide headquarters and area management with data, including Transportation Cost System/Cost and
                                            Revenue Analysis data, to monitor and track the volume and avoid additional costs for flying surface mail classes on
                                            the FedEx Night-Turn, commercial air carrier, United Parcel Service, and Christmas air transportation networks.
                                            TID: September 2011

                                      R-3 — Reinforce existing policies and procedures for the processing and assigning of mail to air and surface transportation.
                                            TID: None




April 1 — September 30, 2012                                                                                                                                               45

                                                     Table of Contents
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
NO-AR-11-004    12/14/2010   Houston, TX Processing and Distribution Center Mail Consolidation

                             R-1 — Pursue expansion of the North Houston Processing and Distribution Center and consolidate the Houston Processing
                                   and Distribution Center’s mail processing operations into the expanded facility, by fiscal year 2013.
                                   TID: September 2013
FF-AR-11-004    12/15/2010   Express Mail Guarantees

                             R-5 — Establish a timeframe for and develop a process to analyze Express Mail refunds by origin and destination to evaluate
                                   risk and identify necessary changes in service in order to make better business decisions for guarantees.
                                   TID: October 2012

DR-MA-11-001    3/14/2011    The Effects of the Flats Sequencing System on Delivery Operations – Arizona District

                             R-1 — Continue to collaborate with business mailers to ensure flat mailpieces meet automation requirements and reduce the
                                   amount of unworked flat mail sent to delivery units. TID: None
IT-AR-11-004    3/16/2011    Computer Incident Data Reliability

                             R-3 — Integrate the Data Loss Prevention and Security Information Manager applications with the security incident
                                   management system to ensure a single incident data repository. TID: February 2013

                             R-4 — Either modify the existing incident management system or pursue development of a new system that enforces date and
                                   time value sequence and data validation. TID: February 2013
HR-AR-11-001    3/31/2011    Allegations of Inaccurate Time and Attendance Records

                             R-2 — Issue supplemental guidance emphasizing the importance of completing Postal Service Form 1017-A, Time
                                   Disallowance Record, and PS Form 3971, Request for or Notification of Absence. TID: July 2012

                             R-3— Establish a review and approval process to ensure time disallowances are appropriate and documented as required.
                                  TID: July 2012

                             R-4 — Establish periodic monitoring of clock ring deletions to ensure employee workhours are recorded accurately.
                                   TID: July 2012

                             R-5 — Provide periodic refresher training to managers, postmasters, supervisors, and acting supervisors on the Time and
                                   Attendance Collection System. TID: July 2012

                             R-6 — Issue supplemental guidance to supervisors and managers regarding the appropriate use of operation codes
                                   associated with recording safety talks and informational meetings in the Time and Attendance Collection System.
                                   TID: July 2012
DA-MA-11-002    4/8/2011     Postal Service Patent Management Continuation

                             R-1 — Work closely with subject matter experts to review highly rated patents to draft claims as appropriate.
                                   TID: September 2013

                             R-2 — Develop a comprehensive strategy for developing patent intellectual property that enhances Postal Service products
                                   and services and its competitive position in the global marketplace and is a source of income. The strategy should
                                   capitalize on patent evaluations performed to date and include an assessment of business options available for
                                   achieving the significant financial returns. TID: September 2013

                             R-3 — Ensure the Postal Service has an effective patent management process and comprehensive licensing program in place.
                                   This establishes control that protects intellectual capital and provides an appropriate return on investment.
                                   TID: September 2013
HR-MA-11-001    4/22/2011    Retirement for U.S. Postal Service Employees on Workers’ Compensation

                             R-1 — Continue to pursue legislative change to reform the Federal Employees’ Compensation Act to reduce workers’
                                   compensation benefits for retirement age employees. TID: None




46                                                                                                                     Semiannual Report to Congress

                                           Table of Contents
                                                                                                                                                         APPENDIX E




                                       Report Title, Recommendation Summary
                                              	 R = Recommendation number
Report Number             Issue Date          	 TID = Target Implementation Date
CA-AR-11-004              4/27/2011    Internal Controls over the Contract Close-out Process

                                       R-1 — Establish standardized contract close-out policies and procedures. This should include a system alert requiring
                                             contracting staff to complete Contract Authoring Management System close-out reports before they close-out a
                                             contract and ensuring that remaining funds are promptly decommitted when the contract is completed and closed.
                                             TID: September 2012

                                       R-3 — Establish a periodic control to ensure category management center personnel follow records management
                                             requirements for contract files, including, but not limited to, retaining records for the required 6 years. TID: March 2012
NO-MA-11-004              5/20/2011    Assessment of Overall Plant Efficiency 2011

                                       R-1 — Reduce 14,017,630 workhours by FY 2012 with an associated economic impact of $647,586,823.
                                             TID: September 2013
HR-AR-11-004              5/27/2011    Compliance with Occupational Safety and Health Administration Recordkeeping Requirements

                                       R-2 — Revise the Postal Service Occupational Safety and Health Administration Recordable Date policy to better clarify how
                                             to determine Occupational Safety and Health Administration recordable dates when they differ from the initial injury or
                                             illness date. TID: March 2012

                                       R-4 — Establish mandatory training for officials responsible for determining Occupational Safety and Health Administration
                                             recordable cases and completing related forms. TID: December 2011
NL-AR-11-003              6/7/2011     Management of the Highway Contract Route Voyager Card Program

                                       R-1 — Further develop, update, and reinforce requirements for the Postal Service and highway contract route suppliers to
                                             enhance systems infrastructure, including incorporating systems edits and automation tools where possible, and
                                             monitor fuel transactions as necessary to avoid unauthorized purchases and ensure adherence to contract gallon limits.
                                             TID: October 2011

                                       R-2 — Ensure that contracting officers apply pooling in accordance with established requirements and ensure pools are
                                             appropriately documented and approved. TID: October 2011

                                       R-3 — Perform and document all outstanding reconciliations for prior periods to determine excess purchased fuel gallons and
                                             collect resultant overpayments. TID: October 2011

                                       R-4 — Implement controls over the contractors that include:
                                               Strengthening procedures for safeguarding and securing highway contract route Voyager Cards; ensuring suppliers
                                                 use available tools to effectively manage the cards; and requiring that suppliers maintain an inventory of issued
                                                 cards.
                                               Coordinating with the U.S. Bank to limit the number of highway contract route Voyager Cards issued to highway
                                                 suppliers; establish a secure activation protocol for mailed HCR Voyager Cards and unique personal identification
                                                 numbers; and implement a periodic review of new, cancelled, and extra HCR Voyager Cards to identify potential
                                                 patterns of mismanagement or misuse.
                                              TID: June 2012

                                       R-5 — Continue to pursue funding when feasible for enhancing the functionality of the Fuel Asset Management System and
                                             Enterprise Data Warehouse eFuel modules and to ensure the systems are user-friendly and enable management to
                                             more efficiently and effectively monitor authorized gallons, identify excess gallons, and recover any related excess
                                             payments. TID: None

                                       R-6 — Periodically assess the financial and operational viability of the highway contract route Voyager Card program, including
                                             performing a formal cost-benefit analysis based on complete and recent data, considering the costs of implementing
                                             controls to address deficiencies identified in this report as appropriate. TID: September 2011

                                       R-7 — Continue to identify and evaluate other fuel management program best practices used in the transportation industry,
                                             and perform a comparative analysis against the existing highway contract route Voyager Card program, where possible.
                                             TID: None




April 1 — September 30, 2012                                                                                                                                           47

                                                     Table of Contents
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
DA-AR-11-008    6/8/2011     Conflicts of Interest: Facility Leases and Contract Delivery Services

                             R-1 — Revise the Postal Service’s policy for leasing property under 3,000 square feet from employees or relatives to include
                                   an ethics review. TID: December 2012

                             R-2 — Evaluate the universe of potential facility lease conflicts and develop an action plan to minimize active and future
                                   conflicts. TID: December 2012

                             R-3 — Implement a control to systemically identify, monitor, and resolve potential conflicts of interest with facility leases and,
                                   if necessary, request waivers for leases that represent conflicts. TID: December 2012

                             R-4 — Evaluate the universe of potential delivery service contract conflicts and develop an action plan to minimize active and
                                   future conflicts. TID: December 2012

                             R-5 — Implement a control to systemically identify, monitor, and resolve contract delivery service regulatory and policy
                                   violations in a timely manner. TID: December 2012
DR-MA-11-002    7/19/2011    National Assessment of City Delivery Efficiency 2011 - Office Performance

                             R-1 — Reduce 2,002,690 workhours during fiscal year 2012 with an associated economic impact of $88,192,128. TID: None
NL-AR-11-004    7/25/2011    Postal Vehicle Service Transportation Routes – Baltimore Processing and Distribution Center

                             R-1 — Ensure that Baltimore Processing and Distribution Center managers follow prescribed fleet management procedures for
                                   making Postal Vehicle Service schedules effective, including conducting schedule and vehicle utilization reviews.
                                   TID: None

                             R-4 — Eliminate from highway contracts 24 trips identified in our audit and already agreed to by local and area management.
                                   TID: None
HR-AR-11-005    8/5/2011     Postal Service Facility Security

                             R-3 — Issue supplemental guidance and enhance internal controls to:
                                     Ensure security control officers conduct facility security surveys as required.
                                     Ensure corrective actions are taken to address security deficiencies.
                                     Ensure security control officers take the mandatory security training.

                                     TID: August 2012
HR-AR-11-006    8/8/2011     2009 Pay for Performance Program

                             R-1 — Clarify policies and procedures to better define the relationship between the national performance assessment and
                                   core requirements, and the role of higher level management in the pay for performance process. TID: July 2012

                             R-2 — Establish and implement mandatory training events that educate new and existing participants and managers on policy,
                                   roles and responsibilities, goal setting, and the program’s objectives. TID: July 2012

                             R-3 — Evaluate the effectiveness of the current process used to establish and use behavioral core objectives to rate
                                   employees’ performance. TID: July 2012
HR-MA-11-003    8/12/2011    Stand-by Time

                             R-1 — Assess the inappropriate use of stand-by overtime nationwide, especially in function one, and implement internal
                                   controls to address usage and recording issues identified. TID: September 2011

                             R-2 — Enhance management controls to ensure employees and supervisors accurately report and record stand-by time.
                                   TID: August 2012
MS-AR-11-006    8/24/2011    Effects of Compliance Rules on Mailers

                             R-1 — Estimate and consider mailing industry costs as part of cost-benefit analyses, where practical, to determine whether
                                   the benefits of new initiatives and rule changes are justified in light of total industry costs. TID: None




48                                                                                                                        Semiannual Report to Congress

                                            Table of Contents
                                                                                                                                                         APPENDIX E




                                       Report Title, Recommendation Summary
                                              	 R = Recommendation number
Report Number             Issue Date          	 TID = Target Implementation Date
DA-AR-11-010              8/30/2011    Intelligent Mail: Realizing Revenue Assurance Benefits

                                       R-1 — Establish timeframes for implementing the enhanced/expanded automated verifications as described in the original
                                             Intelligent Mail infrastructure Decision Analysis Report. TID: January 2013

                                       R-2 — Develop a tolerance level for low scan rates to use for exception reporting. TID: January 2013

                                       R-3 —Develop a process for identifying the cause(s) of low scan rates for customer follow-up as warranted.
                                            TID: January 2013
FF-AR-11-013              8/30/2011    Postal Service Refunds

                                       R-2 — Analyze and establish an administrative and minimum fee that will cover processing costs. TID: January 2013

                                       R-4 — Complete the update to the PostalOne! system to enable electronic transmission of Value Added Refund data to
                                             accounts payable. TID: April 2013
CRR-AR-11-003             9/6/2011     Service Performance Measurement Data - Commercial Mail

                                       R-1 — Establish milestones for implementing recovery of Full-Service Intelligent Mail Barcode discounts provided to mailers
                                             when Full-Service mailings do not meet the specific requirements for the discounts received. TID: January 2013

IT-AR-11-009              9/14/2011    Project Phoenix

                                       R-1 — Modify the Technology Solution Life Cycle process to require the identification, documentation, and analysis of
                                             applicable back-end business processes and information technology systems during the technology solution
                                             requirements, analysis, and design phases. TID: October 2012
IT-AR-11-008              9/14/2011    Remote Access Controls

                                       R-1 — Implement two-factor authentication to comply with Handbook AS-805 requirements and to meet Payment Card
                                             Industry – Data Security Standards. TID: December 2012

                                       R-11 — Suspend remote access for all employees or contractors until they complete required security awareness training.
                                             TID: October 2012

HR-AR-11-002              9/19/2011    Postal Service Work Rules and Compensation Systems

                                       R-3 — A comprehensive study to determine the optimal incentive-based carrier compensation system. TID: June 2013
FF-AR-11-015              9/23/2011    Business Mail Acceptance Centralization Process

                                       R-2 — Require each district to conduct a centralization feasibility study, document the results, and take action based on the
                                             results of the study, as appropriate. TID: October 2013

                                       R-3 — Manage business mail entry workhour usage to achieve 93 percent efficiency and develop tools to monitor
                                             performance. TID: October 2013

                                       R-4 — Establish annual goals for business mail entry workhour efficiency to include measuring performance against goals.
                                             TID: October 2013
NL-AR-11-006              9/23/2011    Mail Transport Equipment – Needs, Distribution, and Use

                                       R-1 — Perform a comprehensive mail transport equipment needs analysis for the network distribution center network to
                                             determine the amount of rolling stock, by type, needed on a daily basis to meet operational requirements.
                                             TID: October 2011

                                       R-3 — Reissue over-the-road container policy to reflect the present and future operational needs and use of the containers
                                             within and outside the network. TID: October 2011




April 1 — September 30, 2012                                                                                                                                           49

                                                     Table of Contents
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date

DR-AR-11-007    9/26/2011    Follow-up on City Delivery Standard Operating Procedures

                             R-1 — Re-evaluate the certification criteria and ensure the criteria require units to meet, at least the national average percent
                                   to standard for office operations. TID: December 2012

                             R-3 — Establish an annual process to de-certify units that do not maintain performance standards after certification.
                                   TID: December 2012
NL-AR-11-008    9/27/2011    Evaluation of Major Transportation Technology Initiatives

                             R-5 — Ensure comprehensive training is provided for employees throughout the technology’s life cycle. TID: May 2012
CA-AR-11-007    9/30/2011    Contract Postal Units Contract Oversight

                             R-1 — Require Contract Postal Unit contractors to submit invoices for payment. TID: None

                             R-2 — Create a process to ensure the contracting officer or contracting officer’s representative validates and certifies invoices
                                   prior to payment, using data maintained in the Contract Postal Unit Technology system. TID: None

                             R-3 — Establish a mandatory training procedure to ensure all contract officer representatives receive training of appointed
                                   duties within 2 weeks of notification of the contracting officer’s representative appointment. TID: March 2012

                             R-4 — Develop an oversight mechanism to monitor whether contracting officer’s representatives conduct quarterly
                                   performance and annual financial reviews, obtained completed appointment letters, and retain contract postal unit
                                   contracts in the contract administrative files. TID: March 2012

HR-AR-11-007    9/30/2011    Postal Service Workers’ Compensation Program

                             R-1 — Continue to pursue legislative change to transform the Federal Employees’ Compensation Act into a modernized
                                   workers’ compensation program that includes best practices for increasing program effectiveness and efficiencies
                                   and reducing costs. TID: None

                             R-2 — Pursue legislative change to amend Federal Employees’ Compensation Act to allow recovery of continuation of pay
                                   benefits in third-party cases. TID: None

                             R-3 — Pursue legislative change to reform Federal Employees’ Compensation Act to allow employing agencies to present
                                   evidence at hearings when fraud is alleged. TID: None

                             R-4 — Clearly define organizational responsibilities for detecting workers’ compensation fraud:
                                     Establish requirements for U.S. Department of Labor to respond to reports of investigations within 45 days after
                                       receiving them.
                                     Establish a provider compliance program.
                                     Revise the method used to determine the administrative fee to ensure the fee is based on actual costs to administer
                                       Postal Service Workers’ Compensation Program.

                                    TID: None
                             R-5 — Develop mandatory and refresher training for Postal Service officials responsible for workers’ compensation to ensure
                                   they are aware of their roles and responsibilities for workers’ compensation. TID: September 2012
MS-AR-11-007    9/30/2011    Strategic Approaches to Revenue Protection

                             R-1 — Work with a broadened group of internal and external stakeholders to prepare for streamlining the entry of business
                                   mail, accelerate the timeline for streamlined acceptance and verification, and seek to leverage technology to provide
                                   revenue protection for Basic Service Intelligent Mail and non-automated volumes. TID: January 2013




50                                                                                                                       Semiannual Report to Congress

                                           Table of Contents
                                                                                                                                                        APPENDIX E




                                      Report Title, Recommendation Summary
                                             	 R = Recommendation number
Report Number            Issue Date          	 TID = Target Implementation Date
IT-AR-12-001             10/21/2011   State of Corporate Information Technology Security

                                      R-2 — Complete the certification and accreditation process for the remaining national applications. TID: December 2013

                                      R-4 — Implement a corporate-wide encryption solution to enhance the sensitive data protection effort. TID: October 2013
CA-AR-12-001             11/2/2011    Contracting Opportunities and Impact of the Service Contract Act

                                      R-2 — Review the benefits of outsourcing cleaning/janitorial service positions and postal service vehicle driver positions and
                                            work with Supply Management to restructure those positions to achieve the most cost effective solution.
                                            TID: March 2013

                                      R-3 — Working with supply management and Postal Service program officials, ensure that appropriate financial data is
                                            collected to aid in making in-sourcing/outsourcing decisions. TID: March 2013
HR-AR-12-001             11/14/2011   Postal Service Health and Safety Program

                                      R-1 — Review and revise, as appropriate, supervisor performance measures to place a higher priority on maintaining a safe
                                            and healthy work environment; for example: performance measures could be linked to the number of abated and/or
                                            unabated safety hazards. TID: October 2011

                                      R-4 — Establish and implement standard operating procedures for dock operations. TID: May 2012

                                      R-5 — Perform and oversee preventive maintenance procedures for eyewash and shower units. TID: September 2012

                                      R-6 — Conduct required safety inspections and abate safety hazards in a timely manner to ensure safe and healthy working
                                            conditions for the employees. TID: September 2012

                                      R-7 — Enter Postal Service Forms 1767 accurately and timely in the Safety Toolkit. TID: September 2012
CRR-AR-12-002            12/13/2011   Management Operating Data System

                                      R-1 — Develop a monthly report that identifies the top Management Operating Data System operation numbers and facilities
                                            causing Management Opertaing Data System errors. TID: March 2012

                                      R-2 — Expand existing Management Opertaing Data System exception reports to include observations that exceed maximum
                                            machine throughput and manual productivities. TID: March 2012

                                      R-3 — Issue monthly enhanced exception reports to management at the area, district, and facility level to highlight recurring
                                            MODS errors at facilities. TID: April 2012

                                      R-4 — Develop controls within the Management Opertaing Data System that enforce the requirement for facility managers to
                                            correct MODS errors in a timely manner. TID: September 2012

                                      R-6 — Monitor operation numbers where the majority of Management Opertaing Data System errors occur, and determine the
                                            potential impact on applicable cost data. TID: July 2012

                                      R-7 — Evaluate existing quality assurance procedures to determine whether eliminating Management Opertaing Data
                                            System errors at the facility level, and eliminating observations that exceed maximum machine throughputs or manual
                                            productivities, would improve the reliability of Management Opertaing Data System-based productivities. TID: July
                                            2012
FI-AR-12-001             12/28/2011   Expedited Packaging Supplies Program

                                      R-1 — Implement a comprehensive, automated procedure to determine the quantity of expedited packaging supplies retained
                                            by major mailers, post offices and other facilities that distribute Postal Service’s expedited packaging supplies to
                                            customers. TID: December 2012

                                      R-2 — Develop a comprehensive plan to monitor usage and identify and reduce waste associated with expedited packaging
                                            supplies. TID: September 2012
IT-AR-12-003             1/9/2012     Fiscal Year 2011 Information Technology Internal Controls

                                      R-1 — Implement corrective actions to address all open issues noted in this report for fiscal years 2010 and 2011.
                                            TID: November 2012




April 1 — September 30, 2012                                                                                                                                           51

                                                     Table of Contents
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
IT-AR-12-002    1/9/2012     Patch Management Processes

                             R-1 — Ensure that all operating system and database patches are tested, documented, and implemented as required by
                                   Handbook AS-805, Information Security. TID: January 2013

                             R-2 — Ensure that administrators obtain required policy exception approvals when system patches are not applied.
                                   TID: January 2013

                             R-3 — Ensure that written procedures are developed to define the patch management process for each group, operating
                                   system, and database to include test and back-out plans. TID: January 2013

                             R-4 — Ensure that configuration management inventory records are reconciled to the actual servers and databases for their
                                   respective group. TID: January 2013

                             R-5 — Work together to implement a process to verify that required operating system and database patches distributed to the
                                   mail processing plants are applied. TID: January 2013

                             R-6 — Implement a common method for all entities to track information technology asset and patch information.
                                   TID: July 2014

                             R-7 — Ensure vulnerability mediation training is provided to all employees and contractors responsible for enterprise patch
                                   management. TID: July 2014

                             R-8 — Conduct risk assessments and cost analyses to develop an enterprise-wide migration plan for upgrading unsupported
                                   operating systems and databases to vendor-supported software. TID: July 2014

                             R-9 — Adopt a method to identify, capture, and report patch management metrics to assist with oversight of the patch
                                   management process and facilitate related business and security decisions. TID: July 2014
FI-AR-12-002    1/10/2012    Bad Check Prevention and Collection

                             R-1 — Increase the bad check service charge to the national retail median of $30. TID: October 2012
MS-AR-12-002    1/12/2012    Mail Verification Procedures at Detached Mail Units

                             R-1 — Review automation efforts to date to identify improvements that can be made in the interim while mailers continue to
                                   implement Intelligent Mail barcode technologies. TID: June 2013

                             R-2 — Continue ongoing mail verification training efforts while detached mail unit employees continue to use manual mail
                                   verification processes. TID: January 2013

                             R-3 — Enhance automated systems to notify managers when acceptance employees override Mail Evaluation Readability
                                   Lookup Instrument results. TID: June 2013

                             R-4 — Develop and implement automated tools that managers can use to monitor and evaluate detached mail unit staffing
                                   and scheduling. TID: June 2013
NO-AR-12-003    1/20/2012    Consolidation of Mail Processing Operations at the Mansfield, OH, Customer Service Mail Processing Center

                             R-1 — Identify repositioning plans for all impacted employees at the Mansfield Customer Service Mail Processing Center.
                                   TID: None

                             R-2 — Continue to monitor and take necessary actions to ensure mail is processed timely at the Cleveland Processing and
                                   Distribution Center. TID: None
CRR-AR-12-003   1/27/2012    Revenue, Pieces, and Weight Inputs Into the Cost and Revenue Analysis Report

                             R-2 — Explore concentrating sampling and data collection of manually processed mail from delivery units to the serving
                                   processing and distribution facilities for Revenue, Pieces, and Weight estimation purposes. TID: January 2013




52                                                                                                                     Semiannual Report to Congress

                                           Table of Contents
                                                                                                                                                        APPENDIX E




                                       Report Title, Recommendation Summary
                                              	 R = Recommendation number
Report Number             Issue Date          	 TID = Target Implementation Date
CI-AR-12-004              2/2/2012     Domestic Mail Manual Preparation and Acceptance Mail Instructions

                                       R-1 — Combine and remove all duplications in the Domestic Mail Manual, Quick Service Guides, Business Mail Acceptance,
                                             Job Aids, and Customer Support Rulings; and publish a new document available to all mailers online.
                                             TID: November 2013

                                       R-2 — Migrate to a one permit per customer requirement using PostalOne!: TID: August 2013

                                       R-3 — Archive all PostalOne! deleted or canceled permits. TID: April 2015
NL-AR-12-001              2/2/2012     Postal Vehicle Service Transportation Routes – Margaret L. Sellers Processing and Distribution Center

                                       R-1 — Ensure ML Sellers Processing and Distribution Center managers follow prescribed fleet management procedures
                                             for making postal vehicle service schedule changes more timely including conducting annual schedule and vehicle
                                             utilization reviews
                                             TID: November 2012

                                       R-2 — Verify the reallocation of 2,424 workhours within existing postal vehicle service schedules and reallocate an additional
                                             5,728 workhours within PVS schedules to accommodate future Flat Sequencing System implementation. TID:
                                             November 2012
DA-MA-12-003              2/9/2012     21st Century Post Office: Opportunities to Share Excess Resources

                                       R-1 — Develop and implement a strategy to share surplus Post Office resources with appropriate federal, state, and municipal
                                             government agencies. TID: None
NL-AR-12-002              2/28/2012    Standardization of Integrated Mail Handling System Loaders at Network Distribution Centers

                                       R-1 — Direct network distribution centers to modify Integrated Mail Handling System loaders to safely accept over-the-road
                                             containers, while continuing to accept Postal Paks, as designed. TID: July 2012
NL-AR-12-003              3/12/2012    Density of First-Class Mail on Air Transportation

                                       R-1 — Continue to develop optimization processes to increase First-Class Mail density to maximize container space.
                                             TID: April 2013

                                       R-2 — For sites equipped with the Advanced Facer Canceler System series 200 machines, separate First-Class Mail to be
                                             transported by air for sorting on a single sorting machine for further processing and dispatch. TID: April 2013

                                       R-3 — Develop targeted secondary sort programs to process First-Class Mail bound for air transportation to maximize
                                             container space. TID: April 2013

                                       R-4 — For sites equipped with automated flat sorting equipment, adjust sensors to ensure flat tubs are filled to maximum
                                             capacity prior to discharge or removal from the machine. TID: April 2012
IT-AR-12-005              3/19/2012    SAP Human Capital Management System Security Assessment

                                       R-1 — Encrypt human resources data at rest and in transit according to Handbook AS-805, Information Security,
                                             requirements. TID: November 2012
HR-AR-12-002              3/30/2012    Postal Service Mail Security

                                       R-1 — Develop and implement training to ensure personnel responsible for accountable mail and keys understand their
                                             responsibilities. TID: July 2012

                                       R-2 — Establish policies and procedures requiring responsible personnel to conduct periodic reviews to ensure mail
                                             safeguarding and accountability requirements are followed. TID: July 2012

                                       R-3 — Develop and implement training for contract postal unit personnel to ensure they understand their responsibilities
                                             regarding safeguarding mail and accounting for Registered Mail. TID: July 2012




April 1 — September 30, 2012                                                                                                                                            53

                                                     Table of Contents
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
HR-AR-12-003    3/30/2012    Unauthorized Overtime Usage in Field Operations

                             R-1 — Issue supplemental guidance to supervisors and managers to emphasize the importance of: completing and
                                   maintaining PS Forms 1017-B, Unauthorized Overtime Record, for employees who incur unauthorized overtime;
                                   approving and disapproving PS Forms 3996, Carrier Auxiliary Control, before carriers leave for their routes and
                                   reviewing the forms to assess actual time used when they return; and following badge control and clock ring
                                   procedures to help prevent unauthorized overtime. TID: September 2012

                             R-2 — Develop a consolidated report, or revise an existing report, to include the Time and Attendance Collection System and
                                   Unauthorized Overtime Reports; and require supervisors to review the consolidated report to ensure the accuracy of
                                   the timekeeping data and improve monitoring of unauthorized overtime. TID: September 2012

                             R-3 — Provide periodic refresher training for supervisors to emphasize their responsibilities for time and attendance, including
                                   monitoring unauthorized overtime and using PS Form 3996, Carrier Auxiliary Control, for managing delivery operations.
                                   TID: September 2012

                             R-4 — Develop and implement performance measures or other management controls to hold managers and supervisors
                                   accountable for failing to address unauthorized overtime. TID: September 2012

                             R-5 — Establish and implement proactive monitoring processes that include periodic reminders and a system of
                                   accountability, similar to the procedures that have been implemented in the Central Pennsylvania District to minimize
                                   unauthorized overtime. TID: September 2012

NL-AR-12-005    4/25/2012    Postal Vehicle Service — Nationwide Analysis

                             R-1 — Instruct area Postal Service officials to follow prescribed fleet management procedures for conducting Postal Vehicle
                                   Service schedule and vehicle utilization reviews and make necessary changes to the schedules in a more timely fashion
                                   (or at least annually) to match the fluid operational changes. TID: None

                             R-2 — Ensure Postal Service officials change schedules when feasible to reduce overall scheduled workhours and staffing by
                                   increasing the use of non-traditional full-time employees where fewer than 8 hours of work exists. TID: None

                             R-3 — Encourage area Postal Service officials to negotiate the use of split days off with local union officials where possible to
                                   reduce operating costs through staff reductions. TID: March 2012

                             R-4 — Instruct processing and distribution center management to issue memorandums to drivers reinforcing the use of seat
                                   belts, chock blocks, and load restraints; and periodically monitor compliance. TID: April 2012

NO-MA-12-001    4/27/2012    Assessment of Overall Plant Efficiency 2012

                             R-1 — Reduce 14,268,171 workhours by fiscal year 2014 with an associated economic impact of $664,997,872.
                                   TID: September 2014
MS-AR-12-003    5/4/2012     Package Delivery Growth

                             R-2 — Develop enhancements to the CustomerFirst! system to ensure that the data and information contained within are reliable
                                   and useful. TID: January 2015

                             R-4 — Evaluate the feasibility of offering a local product the customer either arranges to have picked up or takes to the local Post
                                   Office for sortation and delivery without involving a mail processing plant. TID: December 2013

                             R-5 — Continue to pursue legislative change that will allow the Postal Service to ship beer and wine. TID: January 2014

                             R-6 — Evaluate the feasibility of offering an international service that will allow customers the option of prepaying customs duties
                                   and taxes. TID: September 2013
IT-AR-12-007    5/18/2012    Virtualization Technology

                             R-1 — Prepare a business case analysis to determine the best approach to expand virtualization technology to the servers in
                                   Merrifield, VA. TID: November 2012




54                                                                                                                          Semiannual Report to Congress

                                            Table of Contents
                                                                                                                                                               APPENDIX E




                                       Report Title, Recommendation Summary
                                              	 R = Recommendation number
Report Number             Issue Date          	 TID = Target Implementation Date
NL-AR-12-006              5/29/2012    Postal Service Initiative: Consolidation of Mail for Transportation Between Network Distribution Centers

                                       R-1 — Continue to pursue opportunities to consolidate long distance transportation routes. TID: None

                                       R-2 — Pursue an overall trailer consolidation ratio of 2.5:1 in the original 19 consolidation pilot transportation lanes and all
                                             subsequent expansion lanes. TID: None

                                       R-3 — Add Jacksonville Network Distribution Center’s Puerto Rico Highway Contract Routes 32202 and 32204 into the
                                             consolidation initiative. TID: September 2012

                                       R-4 — Ensure Postal Service managerial oversight at the contract consolidation facilities. TID: July 2012
DR-AR-12-001              6/5/2012     City Delivery — Street Efficiency San Diego District

                                       R-1 — Reduce 83,943 workhours to achieve an associated economic impact of more than $3.3 million annually or $6.8 million
                                             over 2 years. TID: October 2014
NO-AR-12-005              6/5/2012     Efficiency Review of the Cleveland, OH Processing and Distribution Center

                                       R-1 — By fiscal year 2017, reduce workhours by 352,388 to produce a cost avoidance of $22.7 million over the following 2
                                             years, or through consolidations, increase mail volume by 377 million, or a combination of workhours reductions and mail
                                             volume increases that will achieve the median productivity level of 1,069 pieces per hour. TID: September 2014
FT-MA-12-002              6/18/2012    Pension and Retiree Health Care Funding Levels

                                       R-1 — Pursue legislative action to refund the current pension surplus, and any future pension surpluses, to the Postal Service.
                                             TID: January 2013

DR-AR-12-002              6/19/2012    City Delivery — Excess Routes

                                       R-1 — Eliminate 33 excess city delivery routes in their respective districts. TID: May 2013

                                       R-2 — Review delivery units consistently using fewer than projected street hours to make appropriate route adjustments,
                                             eliminations, and consolidations. TID: May 2013

                                       R-3 — Reallocate the 33 assigned Postal Service-owned delivery vehicles from the eliminated city routes to rural routes to
                                             achieve an associated economic impact of $250,110 annual discounted savings or $500,220 over 2 years.
                                             TID: June 2013
IT-AR-12-008              6/25/2012    Security Awareness Training Program

                                       R-1 — Include information security awareness training on the Human Resources mandated training list as part of the Strategic
                                              Training Initiative. TID: June 2013

                                       R-2 — Modify Handbook AS-805, Information Security, to clearly define the users who are required to take the mandatory
                                             information security awareness training TID: July 2013

                                       R-3 — Establish a monitoring process to track user compliance with Handbook AS-805, Information Security, information security
                                             awareness training requirements. TID: July 2013

                                       R-4 — Work with applicable managers to take appropriate action, including suspending access if necessary, to ensure employees
                                             and contractors complete the security awareness training in compliance with Handbook AS-805, Information Security, and
                                             regulatory requirements. TID: September 2013
DA-MA-12-005              7/16/2012    21st Century Post Office: Non-Postal Products and Services

                                       R-1 — Develop a strategy to identify, evaluate and offer the most promising non-postal products and services, including how to
                                             overcome identified barriers, when legislation permits. TID: None




April 1 — September 30, 2012                                                                                                                                              55

                                                      Table of Contents
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
NL-AR-12-007    7/24/2012    Atlanta Network Distribution Center — Postal Vehicle Service Operations

                             R-1 — Follow prescribed Postal Service standard operating procedures for live loading of trailers. TID: None

                             R-2 — Periodically assess postal vehicle service spotter truck driver workload and staffing requirements with respect to
                                   productivity standards to maintain appropriate staffing levels. TID: None

                             R-3 — Eliminate 1,746 annual workhours associated with reducing about 200 spotter moves per week by implementing live load
                                   procedures. TID: None

                             R-4 — Eliminate 6,984 annual workhours associated by improving postal vehicle service truck driver productivity to the
                                   Breakthrough Productivity Initiative standard of 40 moves per day, or 200 moves per week. TID: None
NO-AR-12-007    8/3/2012     Efficiency Review of the Los Angeles Network Distribution Center

                             R-1 — Reduce workhours by 200,019 by fiscal year 2017 to produce an annual cost avoidance of about $6.5 million, or increase
                                   volume by 39 million pieces, or combine workhour reductions and mail volume increases that will achieve the above
                                   average median productivity level of 117 pieces per hour. TID: February 2017
CA-AR-12-004    8/6/2012     Unauthorized Contractual Commitments

                             R-2 — Reinforce current policies by training and conducting periodic reviews to ensure that Supply Management contracting
                                   personnel follow the ratification process and documentation requirements for unauthorized contractual commitments.
                                   TID: March 2013
CI-AR-12-006    8/14/2012    Delivery Fleet Strategies

                             R-1 — Implement a comprehensive fleet management strategy that is managed by headquarters using a dedicated team of
                                    specialists whose primary focus is to use identified best practices for the management of the Postal Service’s vehicle fleet.
                                    TID: None

                             R-2 — Establish an annual new vehicle replacement strategy, as part of a comprehensive fleet management strategy, to replace
                                   part of the fleet each year, spread out the expenditures over time, and ensure the overall operational functionality of the
                                   fleet. TID: September 2016
DR-AR-12-003    8/16/2012    City Delivery — Street Efficiency Capital District

                             R-1 — Reduce 110,740 workhours to achieve an associated economic impact of $4.5 million annually, or $9 million over 2 years.
                                   TID: October 2014
DR-AR-12-004    8/16/2012    City Delivery — Street Efficiency Louisiana District

                             R-1 — Reduce 107,550 workhours to achieve an associated impact of more than $4.4 million annually, or $8.8 million over 2
                                   years. TID: September 2014
EN-AR-12-003    8/17/2012    Efficiency of Customer Service Operations

                             R-3 — Provide training as needed to customer service managers that would enable them to effectively use managerial reports
                                   and tools. TID: None
DR-AR-12-005    8/21/2012    Carrier Optimal Routing System Phase ll

                             R-1 — Continue to pursue funding to resolve performance issues with the Web Carrier Optimal Routing system and implement the
                                   web-based program nationwide. TID: None

                             R-2 — Re-emphasize performing route adjustments using the Carrier Optimal Routing system to achieve an annual economic
                                   impact of more than $84 million. TID: None

                             R-3 — Cross-train existing and additional personnel in both Carrier Optimal Routing system database preparation and route
                                   adjustment processes to ensure the availability of adequately trained resources. TID: None
FI-MA-12-014    8/22/2012    U.S. Postal Service Alternate Health Care Plan Proposal

                             R-1 — Revise the Postal Service’s alternative health care plan projected savings to include the additional cost of shifting to the
                                   appropriate discount rate used for funding obligations for federal employee pension and other retirement benefits.
                                   TID: None




56                                                                                                                          Semiannual Report to Congress

                                            Table of Contents
                                                                                                                                                                APPENDIX E




                                       Report Title, Recommendation Summary
                                              	 R = Recommendation number
Report Number             Issue Date          	 TID = Target Implementation Date
DR-MA-12-002              8/24/2012    City Delivery Route Optimization Pilot Initiative

                                       R-2 — Execute a new initiative to maximize savings by using lessons learned and data results from the pilot with the goal of
                                             optimizing the full- and part-time staff mix. TID: None
DR-AR-12-006              8/24/2012    City Delivery Staffing

                                       R-1 — Balance the number of full-time carriers per route and manage labor cost within established fiscal year budgets. TID: None

                                       R-2 — Continue pursuing the ability to increase the number of part-time, non-career flexible employees at installations nationwide
                                             in the city letter carrier craft to reduce labor costs. TID: None
HR-AR-12-004              8/27/2012    Rehabilitation Assignments for Employees Injured on Duty

                                       R-1 — Establish and implement a plan to allocate a portion of the vehicle shuttle services work performed at the 28 vehicle
                                             maintenance facilities included in our audit, for employees on the periodic roll. TID: September 2012

                                       R-2 — Assess the feasibility of allocating a portion of the shuttle services at the remaining 281 vehicle maintenance facilities to
                                             rehabilitation assignments. TID: September 2012

                                       R-3 — Establish a training plan for employees on the periodic roll who receive and accept an offer to perform vehicle shuttle
                                             service work. TID: None
FI-MA-12-016              9/6/2012     Controls Over the Check Acceptance Process

                                       R-5 — Require host post offices to continuously provide the most recent bad check lists to contract postal units. TID: September
                                             2012.
MS-AR-12-007              9/10/2012    Customer Complaint Resolution Process

                                       R-1 — Develop a strategy for reducing the number of repeat complaints to include specific actions to:
                                                Update and implement procedures to incorporate customer feedback on the Postal Service’s resolution of customer
                                                  complaints into the Enterprise Consumer Care system.
                                                Finalize updates to policies and procedures for collecting, analyzing, and resolving customer complaints to include
                                                  guidance for conducting quality control reviews and performing customer follow-up surveys; and, in the interim,
                                                  require staff to follow the current policies for conducting quality control reviews and performing customer follow-up
                                                  surveys.
                                                  TID: January 2013

                                       R-2 — Identify deficiencies and desired enhancements for the Enterprise Consumer Care system and take necessary action to
                                             notify the Information Technology department. TID: September 2013

                                       R-3 — Develop a mechanism for tracking Enterprise Consumer Care system usage and wait times and ensuring that current
                                             archiving processes and system outage records are continued. TID: September 2013
IT-AR-12-009              9/12/2012    Security of File Transfer Protocol Transmissions

                                       R-1 — Assign a controlling authority the responsibility for managing all electronic file transfer activities and enforcing electronic
                                             file transfer policies. TID: October 2012

                                       R-2 — Publish an enterprise-wide management instruction and implement training on secure electronic file transfer usage to
                                             reinforce the requirements of Handbook AS-805, Information Security. TID: October 2012

                                       R-3 — Direct the controlling authority identified in recommendation one to develop a business case solution to mitigate and,
                                             ultimately, eliminate the use of file transfer protocol transmissions to ensure the protection of sensitive data in accordance
                                             with Handbook AS-805, Information Security. TID: October 2012

                                       R-4 — Conduct periodic security assessments to identify and monitor file transfer protocol usage throughout the Postal Service
                                             network. TID: September 2013

                                       R-5 — Identify, monitor, and remove all unnecessary file transfer protocol services running on all servers and mainframes and
                                             identify the related sensitive applications. TID: September 2013

                                       R-6 — Implement a secure electronic file transfer protocol for receiving manifest files from external business partners.
                                             TID: September 2017




April 1 — September 30, 2012                                                                                                                                                   57

                                                      Table of Contents
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
HR-AR-12-005    9/12/2012    State of Security

                             R-1 — Revise procedures to ensure letter carriers clearly understand their responsibilities to identify anonymous mail.
                                   TID: January 2013

                             R-2 — Enhance the nationwide anonymous mail seeding program by establishing procedures for identifying problem facilities that
                                   fail to detect anonymous mail. TID: January 2013

                             R-3 — Require responsible personnel to take additional training to address noncompliance and reduce the failure rate.
                                   TID: January 2013

                             R-4 — Establish procedures for conducting follow-up testing of facilities to address noncompliance with anonymous mail
                                   requirements. TID: January 2013

                             R-5 — Establish procedures to identify and prioritize facility security deficiencies to ensure they are properly addressed.
                                   TID: January 2013
EN-AR-12-004    9/14/2012    Commercial Mail Entry and Acceptance Initiatives

                             R-5 — Develop an action plan to address and correct PostalOne! operational problems affecting the integrity, reliability, and
                                   functionality of the system. In addition, conduct thorough testing before releasing and implementing system upgrades.
                                   TID: September 2013
FI-AR-12-004    9/14/2012    Revenue Sharing Agreements

                             R-1 — Develop a process to independently verify sales transaction data for completeness and accuracy. TID: May 2012

                             R-3 — Develop a process to address business alliance concerns within a mutually agreed upon timeframe to avoid revenue loss.
                                   TID: October 2012

                             R-4 — Communicate goals and develop a process to measure the performance of the revenue sharing agreements, at least
                                   annually. TID: October 2012

                             R-5 — Establish and maintain a central repository for all revenue sharing agreement documentation. TID: November 2012

                             R-6 — Develop detailed policies and procedures for creating, designing, and monitoring revenue sharing agreements and
                                   disseminate the new procedures to the entire organization. TID: December 2012
DA-AR-12-002    9/18/2012    Lease Purchase Options for Postal Service Facilities

                             R-1 — Develop an objective methodology to quantify and prioritize opportunities for favorable purchase option exercises.
                                   TID: October 2012

                             R-2 — Establish procedures for assigning lease purchase options to third parties in the real estate market. TID: December 2012

                             R-3 — Reiterate the importance of performing the required analysis on potentially favorable purchase options despite future
                                   opportunities to exercise. TID: September 2012
NL-AR-12-009    9/21/2012    Global Positioning System Technology for Highway Contract Routes

                             R-1 — Update and reinforce policies and procedures for the highway contract route Global Positioning System program with
                                   employees and suppliers, including re-training personnel as necessary and designating necessary resources at plants to
                                   ensure they have an understanding of their roles, responsibilities, and accountability. TID: December 2012

                             R-2 — Improve the monitoring and validation process for compliance to ensure the timely entry of all contract service changes
                                   in the field, termination of contracts not meeting compliance requirements, and the use of Global Positioning System
                                   compliance as criteria for future contract awards. TID: January 2013

                             R-3 — Continue to review and update the standard reports available in the Highway Contract Route Tracking Module so
                                  compliance and supplier performance can be monitored or reviewed without a contractor preparing special ad hoc reports.
                                  TID: November 2012

                             R-4 — Expand the Global Positioning System (GPS) program to include additional highway contract routes where feasible and
                                  explore an end-to-end GPS platform using industry best practices that includes a full-range of functionality and reports
                                  covering applicable contracted transportation. TID: January 2013

                             R-5 — Re-evaluate data retention requirements of the Highway Contract Route Tracking Module, including the type of data
                                   retained and for how long to include consideration of potential contract and legal challenges to actions taken resulting from
                                   non-compliance with the reporting requirements. TID: November 2012



58                                                                                                                          Semiannual Report to Congress

                                            Table of Contents
                                                                                                                                                           APPENDIX E




                                       Report Title, Recommendation Summary
                                              	 R = Recommendation number
Report Number             Issue Date          	 TID = Target Implementation Date
HR-AR-12-006              9/21/2012    Motor Vehicle Accident Prevention Program

                                       R-1 — Provide supplemental guidance to area and district level managers to ensure they enforce the requirements for supervisors
                                             to adhere to motor vehicle safety procedures, to include conducting driving observations, ensuring drivers perform vehicle
                                             safety inspections, and performing quarterly driving privileges checks. TID: October 2012

                                       R-2 — Provide periodic refresher training to supervisors on the Safe Driver Program and ensure employees performing driving
                                             observations take the Driver Observation training course. TID: June 2013

                                       R-3 — Establish and implement proactive monitoring processes that include using Department of Motor Vehicle’s databases to
                                             validate driver’s licenses for employees in driving positions. TID: None
NL-AR-12-008              9/21/2012    St. Louis Network Distribution Center — Postal Vehicle Service Operations

                                       R-1 — Periodically assess postal vehicle service spotter truck driver workload and staffing requirements with respect to
                                             productivity standards to maintain appropriate staffing levels. TID: July 2012

                                       R-2 — Eliminate 6,984 annual workhours associated by improving postal vehicle service truck driver productivity to the
                                             Breakthrough Productivity Initiative standard of 40 moves per day, or 200 moves per week. TID: August 2012

                                       R-3 — Ensure that St. Louis Network Distribution Center management re-emphasis the safety policy that drivers must wear safety
                                             belts whenever the vehicle is in motion and provide management oversight for enforcement. TID: September 2012
DR-MA-12-004              9/27/2012    City Delivery Operations — Brick Main Post Office

                                       R-1 — Reduce 7,744 office and street workhours in fiscal years 2013 and 2014 to achieve an annual economic impact of
                                             $333,764. TID: December 2014

                                       R-2 — Ensure management reinforce Postal Service policies and procedures for city delivery street operations to help eliminate
                                             carrier inefficient practices and avoid unnecessary labor costs. TID: October 2012

                                       R-4 — Pursue available technologies to assist in monitoring carrier performance during street delivery. TID: October 2012
DA-AR-12-004              9/28/2012    Accuracy of the Electronic Facilities Management System

                                       R-1 — Modify the Electronic Facilities Management System to address inconsistency in data entry, including the use of drop-
                                             down lists and requiring completion of all data fields. TID: December 2012

                                       R-2 — Develop a plan to require annual review and validation of all Electronic Facilities Management system data by Facilities
                                             Service Office personnel. TID: August 2013

                                       R-3 — Develop and administer training for the use of Electronic Facilities Management System. TID: None
DR-MA-12-003              9/28/2012    City Delivery Operations - Lancaster Carrier Annex

                                       R-1 — Reduce 12,339 office and street workhours in fiscal years 2013 and 2014 to achieve an annualized economic impact of
                                             $515,838, or $1,031,676 over 2 years. TID: September 2014

                                       R-2 — Ensure that supervisors establish and discuss performance expectations, and consistently oversee daily street operations
                                             using management tools and reports to avoid the unnecessary labor costs of $868,388. TID: October 2012

                                       R-5 — Ensure management reinforces Postal Service policies and procedures for city delivery street operations to help eliminate
                                             carrier inefficient practices during office and street operations. TID: October 2012

                                       R-6 — Ensure supervisors address carrier performance when a carrier does not follow established delivery procedures in the
                                             office and on the street. TID: October 2012
NL-AR-12-010              9/28/2012    First-Class Mail on Air Transportation Assignment by Weight

                                       R-1 — Modify the assignment process to assign First-Class Mail to air transportation considering weight where feasible, with
                                             the heavier mail being assigned to FedEx and the lighter mail being assigned to United Parcel Service and commercial
                                             passenger air carriers – with consideration of contractor service performance and future air transportation contract
                                             requirements. TID: March 2013




April 1 — September 30, 2012                                                                                                                                             59

                                                     Table of Contents
APPENDIX E AND F




                                                 Report Title, Recommendation Summary
                                                        	 R = Recommendation number
Report Number                Issue Date                 	 TID = Target Implementation Date
NL-AR-12-011                 9/28/2012           Mail Transport Equipment – Shortages of Pallets, Tubs, and Trays – Fall 2011 Mailing Season

                                                 R-1 — Finalize procedures, processes, and guidelines to ensure there is effective planning and budgeting for Mail Transport
                                                       Equipment (MTE) needs for the fall mailing season, taking into consideration operational and customer needs, financial
                                                       condition, MTE leakage, and MTE condemnation. TID: March 2013

                                                 R-2 — Finalize implementation of prior U.S. Postal Service Office of Inspector General recommendations from the Management
                                                       of Mail Transport Equipment (MTE) – National Analysis audit (Report Number NL-AR-10-009, dated September 29, 2010)
                                                       covering an automated inventory and tracking system, ensuring adequate resources for areas and plants, and update
                                                       policies and procedures that support current MTE operational requirements. TID: December 2012

                                                 R-3 — Finalize processes and procedures (considering costs and benefits) to limit or better control distribution and have visibility
                                                       of Mail Transport Equipment distributed to mailers and other customers. TID: July 2013

                                                 R-4 — Evaluate the best practices identified in this report and identify any applicable industry best practices for implementation
                                                       (considering costs and benefits), such as the viability of implementing Radio Frequency Identification technology to control
                                                       the leakage of plastic pallets and reduce annual purchase of replacement plastic pallets. TID: March 2013
CA-AR-12-006                 9/28/2012           Oversight of Equitable Adjustments

                                                 R-1 — Require contracting officers to include a general release of claims in all supplemental agreements that constitute a release
                                                       by the supplier for additional costs beyond that which is provided for in the contract modification or a more specific release
                                                       in complex or contentious equitable adjustments. TID: November 2012

                                                 R-3 — Reiterate the contract file tracking process to ensure contract files are not lost when they are transferred from one office to
                                                       another. TID: November 2012
DA-MA-12-006                 9/28/2012           Partnerships with Other Government Agencies

                                                 R-1 — Clearly define organizational roles and responsibilities for developing and managing partnerships with other federal
                                                       agencies and establish a written policy to identify, develop, track, and follow-up on potential partnership opportunities.
                                                       TID: February 2013
CI-AR-12-007                 9/28/2012           Post-Implementation Review Process

                                                 R-1— Improve the Post-Implementation Review (PIR) process in Handbook PO-408, Area Mail Processing Guidelines to:
                                                           Identify and separate savings and costs associated with other concurrent initiatives from savings and costs directly
                                                             related to the area mail processing consolidation.
                                                           Implement the use of automated data calculation and pre-population for PIR worksheets and checklists.
                                                           Establish a process to allocate savings and costs when multiple consolidations are made into the same gaining
                                                             facility.
                                                           Assess whether current PIR timelines should be adjusted.

                                                 TID: March 2014


APPENDIX F
Significant Management Decisions in Audit Resolution
For the period April 1 — September 30, 2012

As required by the IG Act, the following discusses information concerning any significant management decision with which the Inspector General disagrees and
is currently in audit resolution

                                                 Report Title, Recommendation Summary
                                                        	 R = Recommendation number
Report Number               Issue Date                  	 TID = Target Implementation Date
HR-AR-12-004                8/27/12              Rehabilitation Assignments for Employees Injured on Duty

                                                 R-3 — Establish a training plan for employees on the periodic roll who receive and accept an offer to perform vehicle shuttle
                                                       service work.




60                                                                                                                                              Semiannual Report to Congress

                                                                Table of Contents
                                                                                                                                                            APPENDIX G




APPENDIX G

Status of Peer Review Recommendations
Federal audit organizations undergo an external quality control assessment by their peers every 3 years. The Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010 requires an appendix reporting on 1) any Office of Inspector General peer reviews conducted during the semiannual period; and 2) any
outstanding recommendations from any previous or current peer reviews that remain outstanding or have not been fully implemented.



Office of Audit

Internal Peer Reviews
The Postal Service Office of Inspector General did not undergo an internal peer review during this reporting period. The Department of Defense OIG conducted the last
peer review of our organization for the period covering April 1, 2008 – March 31, 2009, and issued a quality control review report of our audit organization on March 31,
2010. We received a peer review rating of pass and implemented all recommendations as of March 31, 2011.
A copy of this quality control review report, in its entirety, can be viewed on the USPS OIG website, www.uspsoig.gov.


External Peer Reviews
The Postal Service Office of Inspector General conducted an external quality control review of the U.S. Department of Homeland Security (DHS) Office of Inspector General
audit organization and issued a final report on June 28, 2012. The DHS OIG received a peer review rating of pass. They implemented and closed all eight recommended
improvements with the exception of the following recommendation.


Recommendation 3:	        We recommend DHS OIG reiterate to audit teams the importance of ensuring that management review and sign-off on procedure summary 		
	                         steps prior to report issuance.


Status: 	                 Not fully implemented. In July 2012, all DHS OIG audit staff was briefed on USPS OIG’s peer review results and recommendations for 		
	                         improving their quality control and assurance system, including the importance of ensuring that management reviews and signs off on 		
	                         procedure summary steps prior to report issuance. DHS OIG issued a revised OIG Audit Manual on September 30, 2012, and their audit staff is 		
	                         being scheduled for audit manual training. The training had not been completed as of the end of this reporting period.


A copy of the external quality control review report in its entirety can be viewed on the DHS OIG Web site at www.oig.dhs.gov.



Office of Investigations

Internal Peer Reviews
None conducted during this period.


External Peer Reviews
From August 6 to August 24, 2012, the Postal Service OIG conducted a peer review of the Health and Human Services Office of Inspector General’s (HHS-OIG) Office
of Investigations. We reviewed their Investigative Operations at their headquarters and at two of their field offices. A letter on the review of the HHS OIG was issued in
October 2012. HHS-OIG was found to be in compliance with the quality standards established by the President’s Council on Integrity and Efficiency, the Executive Council
on Integrity and Efficiency, and the U.S. Attorney General.




April 1 — September 30, 2012                                                                                                                                            61

                                                                   Table of Contents
APPENDIX H




APPENDIX H
Investigative Statistics*
For the period April 1— September 30, 2012

                                                                                                                Convictions/         Admin.                            Fines,     Amt. to USPS     To Mgmt.
                                             Investigations                             Indictments/                 Pretrial        Action          Cost    Restitution, and   (from previous    for Admin.
                                                Completed               Arrests         Informations             Diversions**         Taken     Avoidance         Recoveries         column)***       Action
Theft, Delay, or Destruction                                 876              171                    162                       198     337          $1,546       $5,761, 232         $514,969           236
of Mail by Employees or
Contractors
Injury Compensation                                          487                 19                    30                       24      83     $92,957,005   $1,938,517,726 1      $16,693,816           73
Fraud
Official Misconduct                                          336                 25                    26                       22     235       $200,000          $698,865            $77,462          150
Financial Fraud and                                          252                 58                    65                       79      131     $1,335,700          $777,751          $742,682           93
Embezzlements
Contract Fraud                                                 94                13                    10                        8      93      $8,924,095       $20,040,051       $4,066,068            26
TOTAL                                                     2,045               286                    293                       331     879    $103,418,346    $1,965,795,625      $22,094,997           578


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
1
    Amount under Fines, Restitutions, and Recoveries includes $1.9 billion from one pharmaceutical investigation.




For the period October 1, 2011— September 30, 2012

                                                                                                                Convictions/         Admin.                            Fines,     Amt. to USPS     To Mgmt.
                                             Investigations                             Indictments/                 Pretrial        Action          Cost    Restitution, and   (from previous    for Admin.
                                                Completed               Arrests         Informations             Diversions**         Taken     Avoidance         Recoveries         column)***       Action
Theft, Delay, or Destruction                               1,522              331                    341                       378     689          $1,546       $27,251,688          $628,116          562
of Mail by Employees or
Contractors
Injury Compensation                                          875                 32                    48                       40     156    $177,301,312   $2,185,398,980 1      $18,104,466          172
Fraud
Official Misconduct                                           616                42                    41                       69     446       $200,000          $970,339           $217,859          342
Financial Fraud and                                           517             114                    134                       153     264      $1,978,650        $3,158,613       $3,049,952           226
Embezzlements
Contract Fraud                                               163                 17                    19                       15      124     $9,711,756       $64,497,673      $48,522,701            50
TOTAL                                                     3,693               536                    583                       655    1,679   $189,193,264   $2,281,277,293       $70,523,094         1,352


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
1
    Amount under Fines, Restitutions, and Recoveries includes $1.9 billion from one pharmaceutical investigation.




62                                                                                                                                                                         Semiannual Report to Congress

                                                                                                     Table of Contents
                                                                                                                             APPENDIX I




APPENDIX I
Summary of U.S. Postal Inspection Service Actions Under 39 USC § 3005 and 3007
For the period April 1 — September 30, 2012


                                                     Complaints       Consent             Cease &
Type of Scheme                                            Filed    Agreements   FROs Desist Orders
Advance fee                                                  —             —      —             —
Charity                                                       3             3     —              3
Sweepstakes/Lottery                                          21            25     12            25   Financial Reporting on
Coupon/Rebate fraud                                           1             1     —              1   Investigative Activities for the
False billings                                               21            16      6            16
                                                                                                     Postal Inspection Service
Fraudlent Postage                                             9             9      1             9   Type
Identity Theft                                               —             —      —             —    Personnel                $173,369,308
Internet Auction                                             —             —      —             —    Nonpersonnel             $34,083,454
Counterfeit Financial Instruments                            12            12     —             11   TOTAL                 $207,452,762
Medical Product Fraud                                         2             2     —              2   Capital obligations        $3,838,185
Merchandise:
   Failure to furnish                                         5             6      1             6
   Failure to pay                                             6             7     —              7
Misrepresentation                                             1             1     —              1
Miscellaneous                                                —             —      —             —
Reshipping Scheme                                            14            14      5            14
Telemarketing                                                —             —      —             —
Work at home                                                  4             4     —              5
TOTAL                                                       99           100      25          100

Other Administrative Actions
Administrative Action Requests                                                                  —
Temporary Restraining Orders Requested                                                          —
Temporary Restraining Orders Issued                                                             —
Cases Using Direct Purchase Authority                                                           —
Civil Penalties (Section 3012) Imposed                                                           4
Test Purchases                                                                                  —
Withholding Mail Orders Issued                                                                  20
Voluntary Discontinuances                                                                       65



Administrative Subpoenas Requested by the Postal Inspection Service
There was one request during the reporting period.




April 1 — September 30, 2012                                                                                                            63

                                                                  Table of Contents
APPENDIX J




APPENDIX J
Closed Congressional and Board of Governors’ Inquiries
For the period April 1­— September 30, 2012

This appendix lists the congressional and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed or investigated these
inquiries to resolve allegations and disputes, and to help identify systemic issues. Inquiries are listed in the chronological order of receipt.




Inspector General Investigations (35)
Requestor                 Allegation/Concern                                                        Major Findings/Resolution                                                 Closure Date
Senator, Virginia         Non-receipt of international mail                                         An investigation confirmed a postal employee stealing international           05/07/12
                                                                                                    mail packages. We reported our findings to the United States
                                                                                                    Attorney's Office (USAO) for prosecution.
Senator, Texas            Postal management misconduct and hostile work environment at a            We did not substantiate allegations of management misconduct.                 04/09/12
                          Post Office
Senator, Indiana          Lost, stolen, or rifled packages sent as Registered Mail packages         An investigation confirmed a postal employee stole international              05/07/12
                                                                                                    Registered Mail packages. The USAO accepted the case for
                                                                                                    prosecution.

Representative,           Hostile work environment                                                  We substantiated the allegations. There was also an unusually high            06/29/12
California                                                                                          number of grievances from the Post Office. We referred our findings to
                                                                                                    postal management for review and response.
Senator, Tennessee        Postal management misconduct                                              We did not substantiate the allegations. Instead we found the                 07/20/12
                                                                                                    complainant was at fault for not providing proper documentation.
Senator, Tennessee        Postal management misconduct                                              We did not substantiate the allegations. Instead we found the                 07/20/12
                                                                                                    complainant was at fault for not providing proper documentation.
Senator, Ohio             Falsification of Express Mail delivery scans                              An investigation confirmed a falsification of Express Mail delivery. We       05/22/12
                                                                                                    referred our findings to management for corrective action and referred
                                                                                                    the case to the USAO, which declined prosecution.
Representative,           Postal contractor misuse of Postal Service fuel card                      We did not substantiate the allegations of misuse of the card, and            04/23/12
Pennsylvania                                                                                        noted usage was less than the contract amount.
Representative,           Postal management falsification of workers' compensation claim            In consultation with the congressional office, we determined the issue        08/27/12
Massachusetts             documents                                                                 had been addressed in 2009 and required no further OIG work.
Representative, New       Postal management misconduct and neglect of property                      An investigation found management followed proper procedures and              05/07/12
York                                                                                                did not conclude that the postal facility was damaged because of
                                                                                                    postal management neglect.
Senator, Washington       Postal employees engaged in a verbal altercation involving coworkers      We did not substantiate the allegation, and noted the matter was              04/02/12
                          and postal customers.                                                     under review by local authorities.
State Senator, New York   A postal employee improperly entered a change of address for a            We confirmed that the postal employee changed the address, but                05/14/12
                          private organization                                                      that it may have resulted from a misunderstanding within the private
                                                                                                    organization.
Representative, Ohio      Falsification of Express Mail delivery scans, and disciplinary inaction   An investigation confirmed a falsification of Express Mail delivery. We       05/22/12
                          against the violators                                                     referred our findings to management for corrective action and referred
                                                                                                    the case to the USAO, which declined prosecution.
Representative, Indiana   A variety of management misconduct at a post office                       Our workplace environment review revealed no basis for formal OIG              05/11/12
                                                                                                    work on the issue. We confirmed mail delay and reporting issues
                                                                                                    and worked with management to resolve the issues. We did not
                                                                                                    substantiate the allegation that management manipulated rural carrier
                                                                                                    workloads to suppress rural carrier pay.




64                                                                                                                                                      Semiannual Report to Congress

                                                                            Table of Contents
                                                                                                                                                                                APPENDIX J




Requestor                 Allegation/Concern                                                           Major Findings/Resolution                                                Closure Date
Representative,           Dissatisfaction of previous OIG investigation into theft of coins from       We reviewed our work in 2010, and the obstacles we encountered                06/13/12
Colorado                  the mail                                                                     in seeking prosecution by local authorities. We offered assistance in
                                                                                                       resolving the constituent's postal claim.
Senator, New York         Non-delivery of mail                                                         An investigation found no misconduct or patterns of theft in mailing,         05/11/12
                                                                                                       processing, or delivery areas, and did not locate the missing mail.
Representative,           Mismanagement, discrimination, and hostile work environment                  We found the employees have elected a formal administrative remedy            07/16/12
California                                                                                             that will address substantially the same issues they brought to the
                                                                                                       OIG; we declined investigative action as they seek administrative
                                                                                                       relief.
Representative,           Mismanagement and a hostile work environment, including a                    We noted a postal climate assessment had occurred, and we reviewed            08/22/12
California                reduction in the workforce and delivery routes                               the status of its implementation. We found management was aware
                                                                                                       of the level of employee concern, actively engaged in responding, and
                                                                                                       had planned, scheduled, or accomplished the items recommended in
                                                                                                       the climate assessment.
Representative, Georgia   A postal employee harassed coworkers                                         An investigation did not develop evidence supporting the harassment           05/11/12
                                                                                                       allegations, but confirmed other conduct issues were to be resolved
                                                                                                       through personnel actions.
Representative, Indiana   Improper mail handling                                                       An investigation found no pattern of improper handling in the area;           07/17/12
                                                                                                       management addressed issues concerning problems during a mail-
                                                                                                       hold, and accepted responsibility for the error.
Senator, Texas            Non-delivery of a certified mail item containing cash                        An investigation found no patterns or evidence of theft or employee          05/25/12
                                                                                                       misconduct, and could not locate the missing item.
Representative, New       Non-receipt of a postal parcel                                               An investigation developed no obvious patterns of theft or wrongdoing        09/10/12
York                                                                                                   by postal employees. One of the missing items was recovered during
                                                                                                       the investigation.
Senator, Colorado         Favoritism, destruction of documents, and creation of hostile work           The Colorado/Wyoming District had conducted an internal fact finding         07/06/12
                          environment by manager                                                       into the workplace issues, resulting in disciplinary actions and an
                                                                                                       employee transfer. We found no conclusive evidence of intentional mail
                                                                                                       delay.
Commission on             Management at an Illinois Post Office intentionally delayed delivery         We determined management intentionally delayed delivery of franked           09/21/12
Congressional Mailing     of congressional franked mail to a congressional office and to               mail. Postal employees misunderstood the law and removed franked
Standards (Franking       constituents; required the congressional office to personally pay for        mail from the mail stream. We confirmed postal employees improperly
Commission)               mail sent under the frank; detained and delayed mail; and tampered           forwarded mail they questioned to the Postal Inspection Service,
                          with postal forms.                                                           though we could not confirm the theory under which that agency
                                                                                                       became involved. We confirmed congressional staff were forced to
                                                                                                       personally pay for mail properly sent under the frank and that some
                                                                                                       mail was intentionally delayed. We did not substantiate that a mass
                                                                                                       mailing was delayed or that forms associated with the mailing were
                                                                                                       altered by postal employees.
Representative, Georgia   OIG investigation and interviews were improper                               The internal affairs review referred the matter to OIG management for        08/29/12
                                                                                                       action deemed appropriate.
Representative,           Postal contractor not paid for vehicle repairs performed in 2010 and         While a review did not disclose employee misconduct, we confirmed            07/02/12
Missouri                  2011                                                                         delay in payment of outstanding invoices caused by personnel changes
                                                                                                       at the facility, and documented overcharges needing to be deducted
                                                                                                       from the balance due.
Representative, Ohio      Intentional theft, delay, or destruction of mail under a forwarding notice   Our investigation found no intentional delay or misconduct; instead,         09/21/12
                                                                                                       an error we found in automated machines used to process change of
                                                                                                       address (COA) cards caused two successive COAs to be processed in
                                                                                                       reverse order.
Representative, North     Complaint about missing parcels                                              We found no misconduct by postal employees and were unable to                08/22/12
Carolina                                                                                               locate the missing items, or records on them, despite searches at
                                                                                                       multiple locations and coordination with local authorities.




April 1 — September 30, 2012                                                                                                                                                              65

                                                                            Table of Contents
APPENDIX J




Requestor                 Allegation/Concern                                                         Major Findings/Resolution                                                    Closure Date
Senator, Virginia         OIG investigation into a postal employee's receipt of Workers'             A recently completed OIG investigation reviewed the employee's                    06/18/12
                          Compensation                                                               receipt of monthly compensation checks after his return to work.
                                                                                                     Thereafter, the matter was handled as a disciplinary issue by postal
                                                                                                     management, As the inquiry presented no new issues for review, we
                                                                                                     found no basis to reopen or revise our previous investigative work.
Senator, Missouri         Irregular mail delivery and missing mail                                   Complainant's route is an auxiliary mail delivery route, which is                08/15/12
                                                                                                     assigned on a day-to-day basis to various carriers who deliver the
                                                                                                     route either before or after their primary route. As a result, delivery
                                                                                                     times will vary. Our integrity tests did not reveal timeliness or delivery
                                                                                                     issues.
Senator, Florida          Failure to investigate allegations                                         Our office forwarded the complaint and other related forms to                    08/29/12
                                                                                                     postal management for review and action. Federal law enforcement
                                                                                                     organizations are accorded substantial investigative discretion over the
                                                                                                     substance and identity of the cases on which they expend their limited
                                                                                                     resources.
Representative, New       OIG personnel failed to respond to postal employee misconduct              Our office revealed no indication of misconduct or failure to investigate        08/20/12
Mexico                    including falsification of scans, scan dates on mail, and entry of         by OIG personnel.
                          fraudulent information.
Senator, Minnesota        OIG personnel failed to respond to complaint; employee has now             The underlying allegations did not justify a formal investigation; the           09/10/12
                          suffered whistleblower retaliation                                         whistleblower retaliation complaint was overtaken by administrative
                                                                                                     remedies the employee elected.
Representative,           Mail tampering by a postal employee                                        Our investigation, including interviews and controlled tests, revealed            08/29/12
California                                                                                           no evidence or patterns of mail theft.
Representative,           OIG should investigate circumstances of an employee being placed on        We previously investigated charges and countercharges involving the              09/04/12
California                administrative leave                                                       employee and his managers and reported our findings to management.
                                                                                                     We determined that the OIG has no jurisdiction to intervene further in a
                                                                                                     personnel matter under the jurisdiction of his agency.
Representative, New       Misconduct, delay of mail by postal employee                               We determined that the employee was absent on some of the days                   09/10/12
York                                                                                                 when the misconduct allegedly occurred. We reported our findings to
                                                                                                     management.




Inspector General Audits/Risk Analysis Research Center Reports (8)
Requestor                 Allegation/Concern                                                         Major Findings/Resolution                                                    Closure Date
Representative, West      Management intentionally delaying mail at a Baltimore P&DC                 OIG produced audit NO-AR-12-006, Frederick, MD, to Baltimore, MD,                07/05/12
Virginia                                                                                             Area Mail Processing Consolidation. OIG found that the consolidation
                                                                                                     initially resulted in significant delayed mail and declines in service and
                                                                                                     customer experience. Transportation cost also increased.
Representative, Florida   Request for a feasibility study into to what extent profits, efficiency,   OIG produced audit CI-MA-12-001, Closure of Contract Postal Units.               08/16/12
                          cost-savings, and consumer accessibility to postal services will           OIG found that the 20 CPU closures were needed to facilitate the
                          increase as a result of closing 20 full-service CPUs                       2010-2015 Collective Bargaining Agreement negotiation. OIG found
                                                                                                     that the impact on retail alternatives was minimal.
Senator, Florida          Requesting audit of the consolidation of the Mid-Florida P&DC into the     OA added a review of this consolidation to its ongoing work on the               04/03/12
                          Orlando P&DC                                                               future of the processing network.
Council Member, Los       Postal Service failure to notify the community of the closure of a         The Postal Service applied Postal Regulatory Commission rule when                07/09/12
Angeles, California       historic Post office; failure to comply with local planning and zoning     it informed the mayor, held a public hearing in April, and met with a
                          law                                                                        neighborhood council and community members in May. In compliance
                                                                                                     with 39 CRF 241.4(f), the Postal Service sent plans to the principle
                                                                                                     inspector for the city in November 2011.




66                                                                                                                                                           Semiannual Report to Congress

                                                                             Table of Contents
                                                                                                                                                                              APPENDIX J




Requestor                  Allegation/Concern                                                        Referred To                                                              Closure Date
Chairman, House            Request for data/ information on the audit report, 21st Century Post      We provided documents that include the survey and survey data.                04/12/12
Committee                  Office
Representative,            Requesting audit of the consolidation of the Chattanooga P&DC into        OA added a review of this consolidation to its ongoing work on the           04/24/12
Tennessee                  Nashville and Atlanta P&DC                                                future of the processing network.
Representative, Illinois   Fraudulent change to ZIP Code.                                            Our office found no evidence of fraud by Postal Service management           08/16/12
                                                                                                     and that proper postal policies and procedures were followed leading
                                                                                                     up to the change in the ZIP Code, of which the constituents were
                                                                                                     notified in 2002.
Senator, Pennsylvania      Concerns about several Pennsylvania plant consolidations                  Our review of postal work papers for the Pennsylvania locations              07/20/12
                                                                                                     confirmed that a reasonable business case existed. We saw no issues
                                                                                                     that should cause the Postal Service not to pursue the efficiencies
                                                                                                     offered by the AMPs, but noted the ultimate success is directly linked
                                                                                                     to management of the AMP process.




Inspector General General Counsel or other unit not mentioned (13)
Requestor                  Allegation/Concern                                                        Major Findings/Resolution                                                Closure Date
Senator, New York          OIG did not complete and remit certified mail receipts                    We found practices of the postal unit serving OIG headquarters                05/28/12
                                                                                                     deviated from POM 822.111. We requested the local postmaster take
                                                                                                     whatever administrative action necessary, and revised internal OIG
                                                                                                     procedures.
Senator, Minnesota         Constituent seeking release of OIG surveillance tapes compiled during     The FOIA Office redacted and released documents.                              04/20/12
                           Workers' Compensation investigation
Representative, Texas      Constituent seeking report developed following his whistleblower          The FOIA Office released a redacted report of investigation.                  04/11/12
                           retaliation complaint
Chairman, House            Passage of the Digital Accountability and Transparency Act                Courtesy letter issued.                                                       05/01/12
Committee
Chairman, Senate           Reaction to elements of S.1789                                            Courtesy letter issued.                                                       05/01/12
Committee
Representative, South      The Voluntary Protection Program (VPP), a workplace safety effort, is a   Neither our Office of Audit or Investigations found the issues raised         07/30/12
Carolina                   fraudulent and wasteful activity                                          were appropriate for review.
Representative, Georgia    Financial status of Postal Service and ways to make it solvent again      OIG personnel responded.                                                      06/06/12
Representative,            FOIA request for workplace environment investigative report               The FOIA Office issued a redacted report.                                     09/05/12
California
Ranking Member,            Inquiry regarding the availability of OIG staff.                          Assistance provided.                                                          07/06/12
Senate Committee
Representative, Florida    Contesting removal from OIG position                                      The employee did not provide essential documentation in support of            07/31/12
                                                                                                     claims and failed to attend required fitness exams.
Chairman, House            Inquiry regarding agency issuance of seven-day letters, and related       We reported the OIG had not issued any seven-day letters in the               08/27/12
Committee                  issues                                                                    specified timeframe, but was cognizant of the requirements of the law.
Chairman, House            Requests redacted copy of SEC investigation when complete.                We provided the requested document.                                           09/19/12
Committee
Chairman, House            Requests unredacted copy of SEC investigation when complete.              Our office provided an unredacted copy of the report.                         09/19/12
Committee




April 1 — September 30, 2012                                                                                                                                                            67

                                                                              Table of Contents
APPENDIX J




Referrals (6)
Requestor             Allegation/Concern                                                       Referral to or Other Action                                              Closure Date
Senator, Texas        Postal employee request for information regarding a previous             Referred to Department of Labor.                                             08/09/12
                      complaint
Representative, CA    Mail theft, most likely by party external to the Postal Service          Referred to Inspection Service for review and response.                      05/16/12
Senator, CT           Inquiry regarding post office reduction in service hours to match with   Referred to U.S. Postal Service, Government Relations Office (GRO) for        07/27/12
                      customers' use of the facility                                           review and response.
Council Member, NY    Improper mail handling                                                   Referred to GRO for review and response.                                     07/27/12
Representative, New   Postal management misconduct                                             An earlier investigation did not find evidence of misconduct; we              08/17/12
Jersey                                                                                         referred the inquiry to postal management for action deemed
                                                                                               appropriate.
Representative,       Whistleblower reprisal and management misconduct                         The allegations did not meet the requirements of whistleblower               09/19/12
California                                                                                     reprisal, but some issues may raise employment matters with
                                                                                               administrative remedies available. Referred to GRO for review and
                                                                                               response.




68                                                                                                                                                  Semiannual Report to Congress

                                                                        Table of Contents
                                                                                           FREEDOM OF INFORMATION ACT/ WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION                                                          SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                        Workplace Environment
The OIG’s Freedom of Information Act (FOIA) Office operates independently         The OI Workplace Environment unit reviews workplace environment and
of, but frequently coordinates with, its counterparts at the Postal Service and   operational issues that may affect workplace climate in postal facilities
the Postal Inspection Service. The FOIA Office receives requests for records      through the country. The OIG Hotline is the usual source for the complaints,
from the public, the media, and postal employees. The FOIA, according to          but occasionally members of Congress, the Governors, and postal
the Department of Justice, “generally provides that any person has a right,       management will raise concerns or forward complaints appropriate for
enforceable in court, to obtain access to federal agency records, except to       review by the unit. Complaint topics range from sexual harassment and
the extent that such records (or portions of them) are protected from public      discrimination to workplace safety. Workplace Environment reviews are
disclosure by one of nine exemptions.”                                            designed to identify systemic, rather than individual, issues and foster
                                                                                  postal management efforts toward providing employees a stress- and
For the period April 1 — September 30, 2012                                       adversity-free work environment.

                                                                                  The unit accepts complaints from any postal employee, including OIG
                                                                                  and Postal Inspection Service staff. Reviews may result in fact-finding
Requests                                               Number of Requests         reports to management or referral for specific suggested action, such as
Carryover from prior period                                                 17    climate assessments.
Received during period                                                     270
Total on hand during period                                                287    Activities
                                                                                  For the period October 1, 2011 - March 31, 2012
Actions                                                Number of Requests
Processed during the period                                                256    Complaints Received                                               Total
   Requests denied in full                                                   9    Carryover from prior period                                          18
   Requests denied in part                                                  80    Complaints received from OIG Hotline, Congress, governors,          237
   Requests granted in full                                                 15    management, internal, and other

   No records                                                               17    Total on hand during this period                                    255

   Requests referred                                                        39
   Requests withdrawn                                                        9    Workplace Environment Actions                                     Total

   Fee-related reasons                                                      —     Complaints reviewed and closed during the period                    226

   Records not reasonably described                                         —     Referred to Postal Inspection Service                                 1

   Not a proper FOIA request for some other reason                          19    Referred to Office of Audit                                          —

   Not an agency record                                                     67    Referred to Office of Investigations                                  2

   Duplicate request                                                         1    Referred to Workplace Environment                                    32
                                                                                  Referred to Hotline                                                   5
Balance                                                Number of Requests         Referred to Summary of findings to Congress/BOG/Postal               36
                                                                                  Service Management
Balance at the end of the period (pending)                                  31
                                                                                  Referred to FOIA                                                     —

Processing Days                                              Number of Days       Referred to AIG for Investigations                                   —

Median processing days to respond to a FOIA request                           6   Referred to Database for statistical analysis and possible          147
                                                                                  systemic review
                                                                                  Complaints pending at the end of the period                           3




April 1 — September 30, 2012                                                                                                                                 69

                                                                Table of Contents
ACRONYM GUIDE




                        Acronym Guide
                        Here is a quick guide to acronyms used in this reporting period.

                        APPS: Automated Package Processing System                                 NALC: National Association of Letter Carriers

                        APWU: American Postal Workers Union                                       NCSC: National Customer Support Center

                        C&A: certification and accreditation                                      NDC: network distribution center

                        CSRS: Civil Service Retirement System                                     NPV: net present value

                        CSS: customer service supervisor                                          OA: Office of Audit

                        DBCS: Delivery Barcode Sorter                                             OI: Office of Investigations

                        DOL: U.S. Department of Labor                                             OWCP: Office of Workers’ Compensation Programs

                        DEA: Drug Enforcement Administration                                      P&DC: processing and distribution center

                        DWC: distribution window clerk                                            P&DF: processing and distribution facility

                        eCBM: Electronic Conditional Based Maintenance                            PAEA: Postal Accountability and Enhancement Act of 2006
                                                                                                        (also known as the Postal Act of 2006)
                        EDDI: Electronic Data Distribution Infrastructure
                                                                                                  PKI: Public Key Infrastructure
                        EDI: Electronic Data Interchange
                                                                                                  PRC: Postal Regulatory Commission
                        EIR: Enterprise Information Repository
                                                                                                  PVS: Postal Vehicle Services
                        FEGLI: Federal Employees’ Group Life Insurance
                                                                                                  RARC: Risk Analysis Research Center
                        FEHB: Federal Employees Health Benefits
                                                                                                  SBOC: Stations and Branches Optimization Consolidation
                        FSS: Flats Sequencing System
                                                                                                  SSA: sales and services associate
                        GMU: George Mason University
                                                                                                  TACS: Time and Attendance Collection System
                        HCR: highway contract route
                                                                                                  VMF: Vehicle Maintenance Facility
                        LLV: long-life vehicles

                        MTE: mail transport equipment




 © 2012. USPS. All Rights Reserved. The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, United States Postal Service®
 with Eagle Design, U.S. Postal Service®, USPS®, First-Class Mail®, usps.com®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel
 Post®, Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express Mail International®, Quick, Easy, Convenient®, United States Postal Service Office of Inspector
 General® with Eagle Design, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail®, Delivery Confirmation™, Registered Mail™, ZIP Code™, Priority Mail International®,
 First-Class Mail International®, Premium Forwarding Service®, Forever®, gopost®, Priority Mail Flat Rate®, DMM®, PostalOne!®, USPS Delivery Confirmation®, Approved by the Postmas-
 ter General®, and Postmaster General™.




70                                                                                                                                                 Semiannual Report to Congress

                                                                        Table of Contents
Who do I call?
The U.S. Postal Service has two law enforcement agencies with distinct areas of investigative
responsibility to serve the needs of stakeholders, postal employees, and the American public.
            Office of Inspector General                                     Postal Inspection Service
            ■■ 	 Theft, delay, or destruction of mail                       ■■ 	 Security of employees, facilities, and equipment
                 by employees and contractors                               ■■ 	 Revenue and postage fraud
            ■■ 	 Workers’ compensation fraud                                ■■ 	 International mail security
            ■■ 	 Embezzlements and financial crimes                         ■■ 	 Violent crimes:
            ■■ 	 Contract fraud                                                  - Threats and assaults of employees
            ■■ 	 Kickbacks                                                       - Burglaries and robberies
            ■■ 	 Computer crimes                                            ■■ 	 Mail theft by nonemployees
            ■■ 	 Narcotics                                                  ■■ 	 Dangerous mail and bombs
            ■■ 	 Employee misconduct                                        ■■ 	 Mail fraud
            ■■ 	 Internal affairs and executive investigations              ■■ 	 Identity theft
            ■■ 	 Whistleblower reprisals                                    ■■ 	 Narcotics in the mail
                                                                            ■■ 	 Child pornography and obscenity

              Contact: 888-877-7644                                               Contact: 877-876-2455
                     www.uspsoig.gov                                         http://postalinspectors.uspis.gov




                                                        Table of Contents
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
1-888-USPS-OIG (1-888-877-7644) Fax: 703-248-2291 www.uspsoig.gov




                                                   Table of Contents
